<html>
<title> - NOMINATION OF HON. RAY LaHOOD TO BE SECRETARY OF THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 111-31]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-31
 
                     NOMINATION OF HON. RAY LaHOOD
                         TO BE SECRETARY OF THE
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 21, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                   U.S. GOVERNMENT PRINTING OFFICE
50-180 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 21, 2009.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Kerry.......................................     1
    Prepared statement...........................................     1
Statement of Senator Hutchison...................................     7
    Prepared statement...........................................     9
Statement of Senator Cantwell....................................    11
Statement of Senator Snowe.......................................    12
    Prepared statement...........................................    13
Statement of Senator Lautenberg..................................    15
Statement of Senator Wicker......................................    17
Statement of Senator Warner......................................    18
Statement of Senator Pryor.......................................    19
Statement of Senator Thune.......................................    20
Statement of Senator Udall.......................................    21
Statement of Senator Dorgan......................................    22
Statement of Senator DeMint......................................    23
Statement of Senator Klobuchar...................................    24
Statement of Senator McCaskill...................................    54
Statement of Senator Begich......................................    58

                               Witnesses

Hon. Richard J. Durbin, U.S. Senator from Illinois...............     4
Hon. Robert H. Michel, Former U.S. Representative, Illinois......     6
Hon. Ray LaHood, Secretary-Designate, U.S. Department of 
  Transportation.................................................    26
    Prepared statement...........................................    29

                                Appendix

Response to written questions submitted to Hon. Ray LaHood by:
    Hon. John D. Rockefeller IV..................................    61
    Hon. Daniel Inouye...........................................    63
    Hon. John Kerry..............................................    65
    Hon. Barbara Boxer...........................................    66
    Hon. Bill Nelson.............................................    68
    Hon. Maria Cantwell..........................................    69
    Hon. Frank Lautenberg........................................    70
    Hon. Tom Udall...............................................    71
    Hon. Mark Begich.............................................    73
    Hon. Kay Bailey Hutchison....................................    73
    Hon. Jim DeMint..............................................    74
    Hon. John Thune..............................................    76


                     NOMINATION OF HON. RAY LaHOOD
                         TO BE SECRETARY OF THE
                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2009,

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Senator John D. 
Rockefeller, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The meeting will come to--the hearing will 
come to order. I want to start out my chairmanship by yielding 
to John Kerry who has a 30-minute, maybe 30-hour or 30-second 
announcement he wants to make.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Mr. Chairman. I 
appreciate the privilege. I'm managing the nomination on the 
floor so I need to leave.
    I just wanted to welcome you as Chairman. We're delighted 
that you're going to be taking the helm of this Committee. We 
know your passion for all of the issues in front of the 
Committee.
    And just personally, as somebody who's shared this journey 
with you on the Committee, I'm delighted that you've taken on 
the gavel. And I look forward to your leadership. It's good to 
be here with you.
    I want to welcome our new Senators also. It's great to have 
all them here. And I would ask unanimous consent that my full 
statement be placed in the record as if read in full.
    [The prepared statement of Senator Kerry follows:]

 Prepared Statement of Hon. John Kerry, U.S. Senator from Massachusetts
    Thank you Mr. Chairman, and welcome Congressman LaHood. In your 
fourteen years serving the constituents of Illinois' 18th District, you 
built a record that has won you the respect of colleagues across party 
lines for your commitment to pursuing the best policy solutions 
regardless of party affiliation.
    At a time when our physical infrastructure is in desperate need of 
repair, our crowded skies are in need of a navigation system fit for 
21st century air travel, and our collective thinking on transportation 
policy must account for the increasing effects of global climate 
changing, I am hopeful that you will bring a breath of fresh air to an 
agency that will be at the center of an infrastructure revolution in 
this country.
    Despite the onslaught of bad financial news, we all have the 
privilege to live and work and travel in the most prosperous nation in 
the world. But travel by train in this country, you'd never know it.
    Meanwhile, traffic congestion continues to worsen in American 
cities of all sizes, creating a $78 billion drain on the U.S. economy 
in the form of 4.2 billion lost hours and 2.8 billion gallons of wasted 
fuel. In 2007, domestic flight delays cost the U.S. economy $41 billion 
and consumed about 740 million additional gallons of jet fuel according 
to the Joint Economic Committee.
    As part of the upcoming debate on economic stimulus, we're 
preparing to make a massive investment in this country's 
infrastructure. In my mind, that investment has to come with a 
commitment to the transportation infrastructure that will help us 
become cleaner and more efficient travelers in this next American 
century. I look forward to hearing your thoughts on what that 
commitment should look like.
    I also look forward to hearing your view on the Administration's 
commitment to implementing the CAFE standards adopted as part of the 
Energy Independence and Security Act. I originally introduced fuel 
economy legislation in 2002, and this Committee has been fighting for 
years to improve the efficiency of our Nation's passenger fleet. This 
bill is one of the most important pieces of energy legislation that we 
have passed during my time in the Senate--one which was sorely overdue.
    This legislation is a key element of our efforts to ensure that the 
advanced cars and trucks of the future are built here in America. 
Unfortunately, the Bush Administration has not yet promulgated a final 
rule implementing the 2007 fuel economy legislation. I hope that you 
view this as an opportunity to write a standard that will support our 
climate change and energy security goals by moving the domestic auto 
industry as quickly as practicable toward the goal of achieving at 
least 35 miles per gallon by 2020.

    The Chairman. And so be it.
    Senator Kerry. And I look forward to supporting your 
nomination Congressman. We'd reached our agreements over lunch 
yesterday and after the Inauguration, but I really look forward 
to your stewardship there. Thank you.
    The Chairman. Thank you. Thank you, Senator Kerry. And 
obviously I want to welcome everyone to the first session.
    Not everybody is here. But it's two. Nobody expected it 
would be that early.
    And I wanted, with the forbearance of the three 
distinguished people at the witness table, I want to just say a 
word about the Committee. I'm not Chairman. I'm still Chairman 
of the Intelligence committee, so you can pitch me right out of 
the room if you want.
    [Laughter.]
    The Chairman. But Danny actually isn't big enough to do 
that, you see. So, I'm OK.
    [Laughter.]
    The Chairman. This is a very exciting thing to me. I'm 
deeply proud to be Chairman of this Committee or to be able to 
get into that position. I've been on this Committee for 24 
years, and have specialized in certain areas.
    I had no idea until I started to do preparation the 
unbelievable scope of what it is that we have to do, everything 
from putting ten extra runways at O'Hare Airport if Dick Durbin 
wants it.
    [Laughter.]
    The Chairman. I mean, there's just no end to our capacity 
of affecting climate change, transportation, 
telecommunications, the FCC. We've got control of sports. 
Unfortunately, it's only college sports, not professional 
sports, but----
    [Laughter.]
    The Chairman. We'll take what we can get. And I'm very 
proud that Senator Inouye, who I think is going to come today, 
is now doing Appropriations. And I'm very proud that I've been 
able to work with him.
    I look forward, I think we all do, to working very, very 
hard for Americans, setting forth a very aggressive agenda on 
this Committee. I think this Committee over the years has had 
its ups and downs, but we have not been always at our best. And 
I think our challenge now is to be at our best all the time on 
all subcommittees, all subcommittees. Everything rises in 
importance to the level of anything else, not just what catches 
the moment or what seems to be the most intractable.
    I'm also looking very much forward to working with Kay 
Bailey Hutchison, who will be Ranking, and all members as we 
move things through the Committee. On the Democratic side we're 
welcoming Senator Mark Begich, who evidently walks everywhere 
in this city. Walked home from the last ball last night. Was 
that the three o'clock one?
    Senator Begich. I don't know what time it ended, but it was 
late.
    The Chairman. It was late. OK.
    [Laughter.]
    Senator Begich. But I'm here for you.
    The Chairman. And Tom Udall. And Mark Warner. All of them 
are distinguished people who are going to be on the Commerce 
Committee when the resolution passes, which could very well 
before the end of the day I would think.
    We're not organized, you know. We don't know who the new 
Republican members are going to be. And I hope Kay Bailey comes 
and tells us so that we know. But we are not able at this point 
to really have a subcommittee structure fully worked out as to 
who's going to be on what subcommittee until we know who all 
the members are going to be. And that makes sense. And it's 
frustrating. But it's the way things should work if they have 
to work that way.
    I'm very excited by the talent on both sides of the aisle 
here. I think when you really look at the scope of the Commerce 
Committee you see it's endless. And it's one of the original 
committees created. And its work is really wherever we want it 
to go.
    I think we can be a big part of climate change legislation, 
a big part of economic recovery. I look forward to working with 
members on a bipartisan basis, and I expect that we'll get a 
lot done.
    I want us to have a very aggressive agenda. That doesn't 
mean that we meet three times a day, but it means that we meet 
on a regular basis. We'll try to systemize that so people can 
put that on their calendars, whether that's going to be a 
couple times a week, whatever. I promise that I'll share that 
kind of news with my colleagues very shortly.
    Now we have to begin the business of this day, which is a 
very good day, because we have before us the confirmation 
hearing of Congressman Ray LaHood to be Secretary of 
Transportation. I'm for him anyway, but my wife Sharon said 
that even if I weren't I would have to be because she's from 
Illinois too. And so, that's that.
    [Laughter.]
    So I'd like to congratulate Representative LaHood on his 
nomination. And if you have any family members here we would be 
very proud to meet them.
    Mr. LaHood. Thank you, Senator. Thank you very much for 
holding this hearing. My wife and three of my children are 
here. And I would like to introduce them, if they would stand.
    My wife of 42 years, Kathy. Sitting next to Kathy is my 
son, Sam. Behind Sam is my oldest son, Darren, and his wife, 
Kristen. And my daughter, Amy, and her husband, Kevin are here. 
Kevin, are you here? Stand up.
    [Laughter.]
    Mr. LaHood. That is the LaHood army. It doesn't get any 
better than that, Mr. Chairman. So, thank you.
    The Chairman. Thank you very much. Now we also have another 
great opportunity because we have former Congressman Bob 
Michel, who I've always been a great fan of. I'll never forget 
that garage story you told me, Congressman Michel. It remains 
deep in my heart and part of my affection and respect for you.
    And then my fellow White Sox fan, Dick Durbin. Well that 
was embarrassing last night. I mean there was only one White 
Sox fan in the entire crew out there in Afghanistan. And I kept 
thinking about you.
    So they are going to introduce Congressman LaHood. And I 
cannot think of two finer human beings, more experienced 
people, to be able to do that. And so, please do so.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman. Let me 
also acknowledge Senator Hutchison. Glad you're with us here 
today at the kick-off of this newly-formed Commerce Committee.
    I want to personally thank the Chairman for who now is 
assuming this responsibility. It was my good fortune to serve 
on the Intelligence Committee for 4 years where you served as 
Ranking Member and as Chairman. And I know the fine work you 
did there. Much like the minister who shoots a hole in one on 
Sunday morning, you couldn't talk to us about your best work.
    And I just want to say publicly that you have dedicated 
yourself to the assignments you've been given whether it's on 
the Intelligence Committee or on the Commerce Committee and 
call on your staff to really perform at the highest level. I'm 
glad to hear it will be an active committee. And under your 
leadership it will be a very effective committee. So I 
congratulate you on that score.
    You know, a lot of us here wax poetic about the good old 
days around Capitol Hill. And for a few members on this 
committee, including Senator Wicker, who've had the good 
fortune to serve in the House of Representatives, that's where 
many of us got started. And there were great old days.
    And I can recall coming to the Congress and meeting right 
off the bat, not only the Speaker of the House, Tip O'Neill, 
but one of his closest friends, the Republican leader, Bob 
Michel from my State of Illinois. Those were days when we 
fought like cats and dogs on the floor all day and then managed 
to find some time to be together in the evenings and get to 
know one another on a bipartisan basis. And that really made 
for a much more pleasant and productive environment. I think 
what President Obama had to say yesterday and what's he's been 
saying throughout his campaign is the hope that we will return 
to that environment.
    I just want to say that the nominee for Secretary of 
Transportation is a person who follows in that tradition. Ray 
LaHood distinguished himself in many ways, first as Chief of 
Staff to the Minority Republican Leader, Bob Michel and then in 
his own right as Congressman from that same district. He led 
the effort in the House of Representatives during some of the 
most divisive and contentious times to find civility and 
decorum. And to try to have bipartisan retreats where members 
would come together with their families and really come to know 
one another on a personal basis.
    As you come to know Ray you'll understand why his 
leadership in this area was genuine and personal. It's been my 
good fortune to know him for many years. Born and bred in the 
City of Peoria, Illinois, he's been a schoolteacher before he 
got involved in government work. And I will tell you as a 
member of the only Congressional delegation, a good bipartisan 
delegation, I didn't have a closer friend than Ray LaHood, who 
was on the opposite side of the aisle and represented my 
hometown of Springfield.
    We worked on so many things together, transportation 
projects, economic development projects. I trusted him 
completely. His word was good. And I knew that we could work 
together in a positive and productive way and show some results 
at the end of the day. We also co-chair the Abraham Lincoln 
Bicentennial Commission which will celebrate the 200th 
anniversary of Abraham Lincoln's birth in February of this 
year. So we've worked together in a lot of different 
capacities.
    I know that President Obama started off in forming his 
Cabinet wanted to make sure that it was bipartisan and to show 
that there were leading Republicans who could serve in his 
Cabinet and do so effectively. I'll be honest with you. I went 
to him and I said I think Ray LaHood is that person. I hope 
you'll consider him. And he said he would.
    I know that Rahm Emmanuel as the President's Chief of Staff 
knows Ray as closely as I do, as well as I do. And he felt the 
same way. And this opportunity came along and it was a great 
one.
    Because Ray LaHood has shown his understanding of 
transportation issues as a Member of Congress and has worked 
for these issues during the time that he served. We have this 
traditional rivalry that many of you have in your states 
between downstate and Chicago. And some politicians make a 
career out of poking the wounds between those two areas and 
trying to keep everybody fighting with one another.
    Now Ray and I come from the downstate side of that 
equation. Neither of us has ever tried to capitalize on that 
geographical distinction. If we had an important meeting of the 
Illinois delegation about a major mass transit issue in the 
City of Chicago, Ray LaHood of Peoria would be there because of 
his genuine interest in our state and its transportation. And 
whether it was highways for downstate, whether it was mass 
transit for the City of Chicago, the development of one of the 
nation's most important airports in O'Hare or looking forward 
to the vision of how we can use smart transportation modes to 
reduce the use of energy and to try to protect our environment, 
Ray LaHood has been a leader in that regard.
    Now if he is graced with the approval of the Senate and I 
hope that he will be, to be our next Secretary of 
Transportation, he will have an awesome, immediate 
responsibility. This new Recovery and Reinvestment bill focuses 
a lot on our nation's bridges, highways, the infrastructure, 
the airports, realizing that's critical to economic growth. I 
can't think of a better person to be given that assignment. And 
that's why I come here today to completely support his 
nomination.
    A former DOT official was recently quoted as saying, ``the 
most important part of the DOT Secretary's job is knowing how 
to work with other people.'' Well I can tell you, Mr. Chairman, 
Ray LaHood has the most important part of that job covered if 
he becomes our next Secretary of Transportation. I'm pleased 
and proud as a fellow Illinoisan to wholeheartedly recommend 
him and encourage the confirmation of my friend, Ray LaHood. 
Thank you very much.
    The Chairman. Thank you, Senator Durbin. Yes, sir.

              STATEMENT OF HON. ROBERT H. MICHEL, 
              FORMER U.S. REPRESENTATIVE, ILLINOIS

    Mr. Michel. Mr. Chairman and Members of the Committee, I 
appreciate the opportunity to piggyback on the great 
introduction of our Senator Dick Durbin. I've known the LaHood 
family for over 25 years. And I know that when Ray grew up it 
was in the climate of work ethic and certainly being frugal 
about how you spent your money.
    Before his election to the Congress to succeed me as my 
Chief of Staff, he was for 10 years in that position just prior 
to his being elected to the Congress. It was my last 10 years 
out of 14 years as leader on the minority side of the aisle in 
the House. And during that time our relationship became much 
more than employee/employer relationship. Over that period of 
time we became the best of friends. I think, quite frankly, 
both families would say that we were family with one another.
    He's a very quick study on the issues of the day. Always 
careful in his decision-making process. And has a special gift 
for dealing fairly with his contemporaries. I tell you he's 
guided with a wonderful, moral compass. He knows right from 
wrong. He's an honest, forthright individual. I could trust 
him, as Senator Durbin said, without any reservation 
whatsoever.
    And as a Congressman he was no ideologue, a conservative 
Republican, always a gentleman and respectful of his 
contemporaries and willing to work for a consensus. His special 
efforts to improve the relationship in the House which is at 
times--I'd enjoyed the wonderful days earlier on. And then it 
became worse and worse and the rancorous exchanges; it was just 
rather nauseating at times.
    Ray had the good experience of having experienced it really 
kind of under both conditions. And when he came then to the 
Congress he wanted to do whatever he could to let's get back to 
the days when we could talk with one another and counsel with 
one another. And as Dick Durbin has said, he did a marvelous 
job trying to organize, I think, three or four of those 
retreats with so many whatever Republicans wanted to come, 
whatever number of Democrats wanted.
    And as a matter of fact it led to Tom Foley and I, the then 
Speaker, former Speaker of the House, to visit and counsel with 
some of those freshman members to try and encourage them to 
take advantage of that opportunity to get to know one another. 
And do away with these acrimonious exchanges. Well, after a 
while it dissipated and but I always have to give Ray the 
credit for trying to make the most of it.
    And then finally, Mr. Chairman, and I appreciate your 
conceding to my asking for just a minute or two to buttress 
Dick Durbin's introduction. I have to applaud the President for 
seeing the qualities in Ray LaHood that will serve his 
Administration well. I think there's no question but that every 
member of this committee when all is said and done, will be 
mighty proud of his service as the Secretary of Transportation. 
And I'm sure Ray will always keep in mind too, that he has an 
obligation, certainly to please the President who is the 
benefactor in this case. And thank you, Mr. Chairman and the 
members of the Committee for the opportunity to speak on behalf 
of my dear friend and compatriot, Ray LaHood.
    The Chairman. Thank you, Congressman. Thank you very, very 
much.
    Mr. Michel. Thank you.
    The Chairman. Thank you. Let me just say before I call on 
Kay Bailey Hutchison, the Ranking Member to make any comments 
that she may want to make, that we had to postpone this 
hearing. And it's one of those infuriating things called 
paperwork.
    People have to answer so many questions now. And so the 
word was well they hadn't finished the paperwork, so that's why 
we had to cancel the meeting and then people said it was the 
FBI that does the paperwork so we removed the word FBI because 
otherwise everybody would think something was going on, Ray. We 
didn't want that because, you know, the Ranking Member and I 
read your FBI report and it's just sparkling clean and I wanted 
to say that.
    Before we actually proceed, my opening statement will come 
before my opening questions. And I'd now like to say that I'm 
very honored to have as the Ranking Member Kay Bailey 
Hutchison. We've served on this committee together for years. 
We've done aviation together successfully for a number of 
years. It's a very strong working relationship. She's an 
extraordinarily talented person, as everybody knows. And I 
would like to call on you, Senator Hutchison for whatever 
comments you might want to make.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. Since this is 
our first real hearing as Chairman and Ranking Member I 
appreciate your remarks and do look forward to having this 
relationship continue. We've done some great work in aviation. 
We had and agreed to FAA reauthorization through our committee 
last year.
    I look forward to working on that again this year. And I 
hope that our committee will be very active. And I look forward 
to working with you.
    I also wanted to welcome the new members on our side of the 
committee. Johnny Isakson, Sam Brownback, Mel Martinez, Mike 
Johanns, our new members that will be joining our committee 
this year.
    Congressman LaHood, we welcome you. And certainly you have 
had two outstanding endorsements already. And many of us who've 
worked with you do agree with your integrity and the ability to 
come together and do things in a bipartisan way. And I think 
your appointment shows that we are going to have input that 
will be very important in this Administration.
    There are three areas that I am concerned with, that I 
think are a priority. Certainly this year the Highway Trust 
Fund, the Highway Reauthorization will be before us. And it is 
my hope that we can timely pass a Highway Authorization bill.
    I say that with almost tongue in cheek because it usually 
takes us three or four years to pass that five-year bill. And 
then we pass it and a year later, we have to do it again. But 
it is important that we work together and you will be a key 
leader here.
    One of my great concerns is the Highway Trust Fund. I think 
it does not meet today's test of relevance. Certainly the 
highway system, the Federal system has been built out. We have 
the skeleton.
    And I think today, unlike when President Eisenhower started 
the system, every state has its own priorities and its own 
capability to fund. So I think the old donor/donee concept 
really needs to be looked at carefully. We would always have to 
have some small percentage of the gasoline taxes for the 
maintenance of the highway system. I think we would all agree 
on that.
    But I do think now that states have such great needs that 
especially growing states like mine, that are also donor 
states, need some relief from the huge amount that we send to 
Washington and never get back. We're now looking at more toll 
roads, more taxes to fund our highways when we're sending 
billions to Washington and going to other states. So I hope 
that we can start looking at a concept where states would be 
able to have their own money, their own priorities in the 
Highway Trust Fund with some smaller amount that would be kept 
for maintenance. That is something that the Secretary of 
Transportation has suggested in the last 6 months or so. And I 
think it's something that is very, very important for us to 
start discussing.
    Second, FAA Reauthorization, which as we have noted, this 
committee passed in a very bipartisan way because it is so 
important. And our bill passed through the Senate and was 
generally supported. It did not get through conference so we 
still don't have one. And in March the FAA extension runs out.
    We know that NextGen for our air traffic control system is 
essential for us to be able to use our air space in the most 
efficient way, in the most safe way and also our ground space. 
And because our NextGen has not been able to go forward in a 
comprehensive way, we do still have many delays, especially in 
the New York airspace which then affects the whole country.
    So I hope that it will be one of your major priorities that 
we pass an FAA Reauthorization bill and that we get it signed 
by the President and that we really focus on our air traffic 
control system becoming more efficient and certainly with 
safety as a priority. I think we can do that. And we will 
certainly need the help of this Administration.
    Third, is Amtrak and high-speed rail. I believe that this 
Administration that has just taken the oath of office yesterday 
will be more favorable to Amtrak. And one of the things that 
Senator Lautenberg and I have done on this committee is made a 
pact that Amtrak is Amtrak, that our national system is 
important for our country and for the future. And I support the 
Northeast Corridor and he and others that are in the Northeast 
support the national system.
    But the national system has been a stepchild. And if we are 
going to continue to have very bad service, it's going to 
exacerbate the problem with the funding. So I hope that you 
will look at Amtrak and high-speed rail as a priority in this 
Administration. Because I think if we're going to have a 
transportation system that serves all the people of our 
country, it's going to mean we have aviation, we have high-
speed rail and Amtrak from which states can form compacts and 
add to the efficiencies as well as of course, our highway 
system.
    And I think with that kind of priority focus we can do so 
much better. And I look forward to working with you to that 
end. Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you Senator Rockefeller, it is always a pleasure to work with 
you and I look forward to a prosperous session in our new roles. 
Senator Rockefeller and I have worked together for a number of years, 
most recently as respective Chair and Ranking Member of the Aviation 
Subcommittee. We have always worked in a bipartisan manner and I look 
forward to the challenges ahead of us.
    Many of the Committee's most difficult challenges will also test 
today's nominee. I am pleased that this Committee is moving 
expeditiously on the nomination of the Honorable Raymond LaHood for the 
position of Secretary of Transportation. I think this is very 
appropriate since the range of problems confronting the next Secretary 
is amongst the most difficult that any new Secretary has faced in quite 
some time.
    As Rep. LaHood is keenly aware, we are all looking for ways to 
revive our economy and many have suggested infrastructure and other 
transportation related projects can play a long term role in moving our 
country forward.
    It is important our next Transportation Secretary provides the 
stable leadership and strong voice needed to ensure transportation is a 
priority within the new Administration.
    I expect Rep. LaHood will need to hit the ground running. While I 
reserve final judgment and although the specific details of a stimulus 
package are not yet clear, transportation infrastructure programs are 
likely to receive an increase in funding. If enacted, the quick and 
efficient delivery of those funds to high priority projects will be 
challenging, but it is very important they are spent appropriately and 
efficiently.
    One prerequisite and commitment I would like from Rep. LaHood, is 
to create some short-term stability in our transportation programs. 
Many States have good ready-to-go highway projects that will improve 
surface infrastructure and bolster the economy; not just through the 
addition of construction jobs, but also through the improved movement 
of goods and people.
    Unfortunately, the existing highway program expires at the end of 
September, however. So Congress and the new Administration will have to 
work very hard on a reauthorization. This will be very difficult 
because of the current fiscal state of the Highway Trust Fund and also 
because the current formula's disparate treatment between the states. 
But we must reauthorize the program and stop passing short-term 
extensions that send out dribbles of money to the states, preventing 
states ability to plan and undertake large transportation projects. 
Many projects could grind to a halt if we don't act.
    We have already seen this scenario play out with the FAA 
reauthorization bill, creating a dire situation with the airport grants 
program. We all know that our aviation system is facing significant 
capacity constraints. The problem is that the current extension for the 
program and the taxes that support the aviation trust fund expire at 
the end of March. The airports have only received half a year's 
funding.
    I hope that Rep. LaHood, if confirmed, would support a full Fiscal 
Year extension of the current FAA Reauthorization bill, through 
September 30, 2009. This Committee will work hard to pass a new FAA 
Reauthorization bill, but we will need the Secretary's support and 
coordination to do so in a timely manner.
    As Secretary, you will also need to keep a close managerial eye on 
the FAA's air traffic control modernization program, known as NextGen. 
The funding, implementation, and transition management of NextGen needs 
to be a priority for the Department. We are currently operating 
outdated equipment with ever increasing congestion issues in the air 
and on the ground. These congestion issues are causing problems 
throughout the aviation system, particularly in the New York airspace. 
A near-term focus is necessary on our national air transportation 
system if we expect to meet the future travel demands and eliminate 
gridlock in our skies and at our airports.
    I also look forward to hearing your views on Amtrak and high speed 
rail. I believe this is an area we have neglected too long. The Amtrak 
reauthorization that has just been signed into law is an important 
step, but now we need strong leadership at the Department to ensure 
that we have a national passenger rail system that works.
    I look forward to your testimony.

    The Chairman. Thank you, Senator Hutchison.
    What I'm going to do now and I'm still working it over in 
my mind if I want to make this a regular practice. I think 
sometimes if every single member gives an opening statement, 
when you have people who have flown in from all kinds of places 
to testify, and if you have a full committee, which I hope 
we're going to have because it's going to be an exciting 
committee and people are going to want to be here no matter 
what the subcommittee or in some cases the full committee 
meeting might be about, that opening statements take time.
    The other side of that is that members have other meetings. 
And I have to recognize that, and that they have things they 
want to say.
    So today we're going to have opening statements from each 
member. I should say incidentally that our three new members, 
one of whom has already defected----
    [Laughter.]
    The Chairman. Are to be treated today as members of the 
Senate and because we don't have our actual ratios worked out 
yet. So just members of the Senate, I mean you're just going to 
have to live with that, hopefully just for one day.
    [Laughter.]
    The Chairman. Is that OK? Alright.
    And also I'd like to say that from now on I want to call on 
people according to the order in which they arrived at the 
Committee. This is not going to be, like most everything in the 
Senate, based on seniority. I think having people speak other 
than on the basis in which they arrived. If they arrived early, 
they should speak earlier.
    And I just happen to believe in that. But today we'll also 
use the seniority system for that. We'll start with Senator 
Cantwell, then we'll go to Senator Snowe and then back and 
forth.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I don't have a 
very long opening statement. But I am concerned that I may not 
be here for the question-and-answer part. So I'll just outline 
my statement if I could, and hope that perhaps that I will be 
able to get back and ask you some questions.
    But obviously I want to congratulate you on your nomination 
and for your hard work in the Congress. You may know that 
Washington State recently has been very hard hit by a lot of 
flooding. In fact Secretary, your predecessor, Secretary Peters 
traveled to Washington State to look at and assess the flood 
damage along I-5 and also brought with her some $2 million in 
emergency relief funds which we very much appreciated.
    I want to say that we'll be looking forward to working with 
you on what may be as much as $125 million in damage to flood 
areas in our state. And that brings up an even larger question. 
Just--I'm trying to make this as short as possible, but the 
previous flood damage that we had a year ago--every day that I-
5 is closed it costs our economy $10 to $12 million.
    It's a freeway stretch that typically carries about 10,000 
trucks a day, so that and our mountain passes being shut down 
is where you get the $125 million in those kinds of activities. 
So in addition to looking at that question there is a very 
good, specific point, and I look forward to hearing your 
comments about what you're going to do about funding of mega-
projects.
    Mega-projects always get a lot of attention in assessing 
the issue. But trying to take our transportation funding 
mechanisms and breaking them down into a mechanism that will 
actually get those projects funded and not delayed for us in 
the State of Washington.
    We have three different mega-projects that are of 
importance to us: the Columbia River crossing, the Alaska Way 
Viaduct and the SR 520 Bridge. Two of those are in jurisdiction 
of Seattle and the Mayor and some of the council members are 
here in D.C. talking about the major plan that they are about 
to unveil for both of those projects. So I apologize if I'm off 
meeting with them to hear those details instead of being back 
here.
    And last I would just like to say, Mr. Chairman that it's 
very important to me the oversight that our committee has in 
looking at your agency and the role you play as Secretary of 
Transportation in helping us in the implementation of CAFE, the 
fuel efficiency standards. I think that this is something that 
is very important. The last Administration I would say, dropped 
the ball on their ability to fully implement those regulations 
in a way that would have helped us and helped American 
consumers. And so I'll look forward to your comment on that 
particular issue.
    So, Mr. Chairman, I thank you for allowing me to make this 
statement.
    The Chairman. Thank you, Senator Cantwell. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman and congratulations 
on your chairmanship. It's great to have this committee and to 
have your leadership, thank you.
    The Chairman. Well we've done a lot of work together.
    Senator Snowe. We have. And we will on this committee.
    The Chairman. That's right.
    Senator Snowe. And I just want to congratulate you, 
Congressman LaHood. And I want to personally welcome, it's a 
privilege to see Congressman Bob Michel. I served with Bob in 
the House of Representatives for many of the years in which he 
was the Minority Leader. Out of my 16 years it was probably the 
better part of a decade.
    And so I'm very pleased to see him here today. And it's 
reminiscent of the, you know, the many outstanding 
accomplishments that he achieved during his tenure, his long-
standing service to this country. And I just want to say that 
it's great to see you here, Bob. And also reminiscent of, you 
know, the working together and the bipartisanship that always, 
was a hallmark of your leadership.
    And I certainly can testify, Mr. Chairman, to the 
relationship that existed with Congressman LaHood and 
Congressman Bob Michel. It certainly was that. And Congressman 
LaHood you have certainly got an outstanding record of public 
service, not only in the House of Representatives, but of 
course in your service to Bob Michel as well. And you've always 
had a reputation for fairness and pragmatism. And so I'm just 
very pleased that you have been nominated to this capacity.
    As we discussed 2 weeks ago there are a number of issues 
that obviously you're going to have to address as Secretary of 
Transportation. And most notably as Senator Hutchison mentioned 
it's going to be infrastructure and transportation policy. The 
two cornerstones of our transportation policy of course is the 
Surface Transportation Act as well as the reauthorization of 
the Federal Aviation Administration, the FAA which is long 
overdue as you all know. It expired about 18 months ago, in 
fact.
    But we're seeing a number of issues that are plaguing the 
system that we will have to address as congestion continues 
both on our highways and in the air. Prices continue to rise. 
States are cutting back because of their own budgetary 
shortfalls. Those that are not able to supplement their 
transportation infrastructure, transportation programs and so 
all the more reliant on those Federal dollars.
    And we'll have to re-evaluate the Highway Trust Fund and 
the way in which we fund the Trust Fund. That is certainly 
deficient. One of the first bailouts we had last year in fact 
was the Highway Trust Fund when they had a shortfall of more 
than $8 billion.
    It is expected that we could have a shortfall of $79 
billion by 2015. And as members of the Senate Finance 
committee, we heard testimony from the Government 
Accountability Office this last July saying that the current 
system is simply unsustainable. Just road maintenance alone 
over the next 6 years will cost $350 billion and we have one in 
five bridges that are woefully deficient and functionally 
obsolete.
    So as obviously revenues are declining to the Highway Trust 
Fund, as vehicles become more fuel-efficient which is 
critically important. We'll have to see how we will be able to 
fund the Highway Trust Fund with alternative revenues or 
alternative sources. But we'll have to be creative. And we'll 
have to prioritize our investments without question.
    The overall state of the aviation industry is a great 
concern to many of us and certainly to Senator Boxer and 
myself. We introduced a Passenger Bill of Rights which is 
simply, you need a national standard according to the courts. 
When states have taken, you know, their grievances to the court 
is that they need a Federal standard. And we've seen the fact 
that the industry has failed to unilaterally and voluntarily 
adopt a customer service standard. And that's why we believe we 
should have a Passenger Bill of Rights.
    And finally CAFE standards as Senator Cantwell indicated. 
That will be one of your first, hopefully, responsibility to 
issue a regulation for the model year 2011. Regrettably it 
wasn't done in this past Administration. But it's critically 
important if we're going to stay on track for creating more 
fuel-efficient vehicles. Senator Feinstein and I led the effort 
for the CAFE standards. We want to stay on track and do more 
and so hopefully that that will be one of your first actions as 
Secretary of Transportation.
    Finally, Essential Air Service for rural communities. I 
know that you've been a strong advocate when you served as well 
on the Transportation Committee in the House of 
Representatives. I truly hope that you will look at legislation 
that Senator Bingaman and I have introduced to provide more 
flexibility.
    We have seen, you know, more than 1,000 communities across 
this country in half the states, we have lost, aviation 
service. And that is truly the life blood of their economy, 
certainly that is true in our state. And we have to do--we 
really do have to develop a policy of some kind that's going to 
provide the incentives and the support to our communities so 
that they can continue to have aviation services. It's so 
important for economic development.
    So again I want to thank you. And I am pleased to see you 
here today, and most importantly, notably, the position that 
you will assume. Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

    Prepared Statement of Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman. First of all, Congressman LaHood, I would 
like to congratulate you on your nomination. Given your productive, 
bipartisan record as a legislator during your fourteen years in the 
House of Representatives, I am very pleased that President Obama 
selected such a strong and accomplished nominee with a reputation for 
fairness and pragmatism. After more than thirty years of distinguished 
public service, I am certain you were looking forward to a leisurely 
retirement. Instead, you will be facing enormous challenges on a 
variety of fronts as you begin your tenure as the Secretary of 
Transportation.
    Once again, Congress and the Department will seek to complete the 
long-overdue reauthorization of the Federal Aviation Administration, 
and looming on the horizon is the increasingly contentious Surface 
Transportation Bill, or Highway Bill, due to expire this October. These 
two cornerstones of our national transportation policy are operating, 
to one degree or another, on principles that are increasingly 
irrelevant in our current economy. The means by which we fund Federal 
infrastructure need to be carefully reexamined, while our air traffic 
control system continues to operate under an outdated, analog system 
that reduces fuel efficiency and does little to reduce congestion. This 
is not just the deterioration of our infrastructure that is at stake. 
The lifeblood of our economy, the ability to move goods and people 
efficiently from place to place, is in jeopardy.
    One of Congress' first bailouts last year was not the troubled 
financial services industry, but the Highway Trust Fund, to the tune of 
$8 billion; or the number by which our obligations outpaced revenues 
flowing into the Fund. Forecasts now predict the Federal Highway Trust 
Fund will be insolvent for years, and faces ever-increasing deficits, 
as much as $79 billion in 2015. As you are well aware, having been a 
member of the House Committee on Transportation during the crafting of 
the TEA-21 legislation, such a shortfall would place our Nation's roads 
and bridges--already in bad shape--at greater risk. In 2004, the 
Department published a study on road maintenance indicating that $350 
billion over 6 years was necessary simply to maintain our nation's 
infrastructure. That was 5 years ago. I can only speculate the number 
has grown since that time, not to mention the fact that such an 
estimate does not account for any improvements, which would clearly be 
necessary given our increasing population and the growing distances 
commuters are traveling from municipalities, ensuring that Federal 
priorities are funded with revenues distributed out of the Highway 
Trust Fund.
    One of your first duties as Secretary of Transportation will be to 
issue regulations on the Ten-in-Ten Fuel Economy Act, which I authored 
along with Senators Feinstein, Inouye, Cantwell, Kerry, Dorgan, and 
Lautenberg. It was over a year ago when the President signed this 
landmark legislation--the first increase in fuel economy since 1975, 
yet no regulations have been issued. As you know, Federal statute 
requires that for the 2011 model year regulations be issued by April 1 
of this year in order to give automakers adequate time to meet the new 
requirements. If the Department of Transportation fails to meet this 
deadline, yet another year will be squandered in reducing carbon 
emissions, cutting oil imports, and saving Americans money at the pump. 
It is my expectation that aggressive and timely regulations will be 
issued that reflect the maximum feasible levels and incorporate all of 
the benefits of improved fuel economy. I look forward to hearing your 
comments on the implementation of this critical law and it is my 
expectation that the Department of Transportation will address this 
issue expeditiously--another year delay would be unacceptable.
    On a related topic that not only addresses fuel efficiency, but 
also safety and economic fairness, my home state of Maine has long 
sought an exemption from the Federal weight limit for motor carriers. 
Instead of large trucks traveling on Interstates that were designed to 
accommodate heavier vehicles, we have trucks weighing as much as 
100,000 pounds idling at stop lights and stop signs in small towns and 
villages, increasing emissions and wasting diesel fuel. These trucks 
threaten pedestrians, bicyclists, and other individuals who otherwise 
would remain out of danger were these large trucks permitted to operate 
on the Interstates. Why is this a question of economic fairness? 
Maine's neighbors, Massachusetts and New Hampshire, each possess 
waivers for trucks in excess of 100,000 pounds--while our neighbor to 
the north, Canada, permits well over 100,000 pounds on their Federal 
roadways. Coupled with the paucity of rail infrastructure in much of 
Maine, our state is the last choice in New England through which to 
transport freight. In the meantime, pedestrians are being endangered--
and in some cases, killed--by larger motor carriers moving through 
residential areas. I do not believe we can consider the 80,000 pound 
Federal limit a standard any longer, when more than half of the fifty 
states possess some sort of an exemption from this so-called 
`standard'. I find it unacceptable that Maine cannot be considered for 
such a statewide exemption, and will continue to work toward greater 
safety and economic fairness for my home state.
    Aviation remains another key component of this Committee's 
jurisdiction that must be addressed. Now approaching eighteen months 
past the expiration of the FAA authorization, our aviation industry is 
facing difficult challenges that are resulting in consolidation, 
bankruptcy, and reductions in service--particularly to smaller 
communities. Capacity in 2008 was reduced by nearly 10 percent; fuel 
prices shattered previous records and placed many legacy carriers on 
dangerous footing. As jet fuel prices have declined, the global 
economic recession deepened, resulting in fewer passengers and a 
continuing reduction in revenues. What has the industry's response been 
to these economic challenges? Instead of making flying more attractive 
to consumers, many airlines are quietly squeezing more hard-earned 
dollars out of passengers by heaping hidden costs onto basic customer 
services, such as reserving flights by phone. I believe such policies, 
which differ from airline to airline but, for the most part, are 
practiced by almost all of the commercial carriers, are short-sighted 
and only serve to encourage fewer passengers.
    Many of the airlines seem to believe that their patrons are a 
captive audience--passengers must simply accept whatever hardship the 
airlines choose to impose upon them. To some extent, sadly, they are 
correct. It is my hope that we can transform that attitude. Congressman 
LaHood, it is my hope that we can work outlying suburbs and rural areas 
in order to go to work, school, or enjoy recreational opportunities.
    While the burgeoning raft of surcharges and fees continues to 
outrage myself and my constituents, the failure to move the Passenger 
Bill of Rights legislation introduced by Senator Boxer and I is even 
more troubling because enhanced safety is at stake. Stranding 
passengers on aircraft for hours at a time, in some extreme cases for 
up to 14 hours, is unconscionable. Those passengers have no real 
recourse. Long legal battles to recoup the price of a ticket are not a 
wise investment, particularly against an airline with legions of 
attorneys. In fact, due to our inaction, states began implementing 
their own Passenger Rights legislation. Last year, New York State 
enacted such a law. However, a Federal Appeals Court ruled it was 
unconstitutional, claiming that any such consumer rights required a 
``Federal standard.'' That is a clarion call for Congress, and the 
Department, to act.
    Why must the Federal Government act? These problems continue to 
plague passengers; despite the system-wide reduction in the number of 
planes in the skies, over a thousand aircraft were stranded on tarmacs 
for over 3 hours in 2008--and that doesn't even include figures for 
November and December. Additionally, statistics show record levels of 
delays; according to numbers released on January 7, delays are hovering 
at nearly an hour on average. While airlines are seeking the benefit of 
the doubt, Congress gave them the opportunity to create voluntary 
programs in 1998. As evidenced by continuing complaints from stranded 
passengers, that effort has not been effective. In fact, the DOT 
Inspector General, Calvin Scovel, in his report to this Committee 
indicated the airlines' 1998 Customer Service Initiative fell well 
short of its promises, considering it ``a failure.''
    Lastly, an issue that is of great significance to many of my 
constituents and, judging by your record on the issue, your former 
district as well, is rural aviation service. Provided primarily through 
the Essential Air Service program, many of these communities were 
promised by Congress that, when we deregulated the airlines in 1978, 
they would remain part of the new infrastructure system that would 
result from this unleashing of the commercial air carriers. Yet every 
year supporters of the program must fight for funding, funding that is 
typically well below the authorized levels. Last Congress, Senator 
Bingaman and I introduced a bill that would revise the EAS program, 
make it more responsive to the needs of the individual communities that 
participate in the program, ensure funding levels to improve planning 
by those communities, and provide greater stability for both the 
carriers and those same communities that rely on air service as an 
economic development tool. It is my hope that after years of neglect, 
this program will again come to represent the promise we made to those 
rural communities thirty years ago.
    In short, I believe we must have an efficient, redundant 
transportation system, and that means a comprehensive, broad-based 
network of passenger rail, aviation, roads and bridges, and maritime 
transport. I look forward to hearing your proposals to allocate the 
resources to continue this Nation's multi-faceted approach to insuring 
our ability to move goods and people around the country and the world.
    Mr. LaHood, I thank you for your continued exemplary service to our 
country, your willingness to work across the aisle, and for your 
integrity. I look forward to working with you as we enter a 
transformative time in American transportation policy.

    The Chairman. Thank you, Senator Snowe. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. Congratulations 
to you for taking on this important assignment. I have worked 
with you for many years on the Commerce Committee and know that 
you have a major interest in all of the issues in front of us. 
And I look forward to your guidance and leadership here.
    It's interesting to note that Ray LaHood is here from the 
State of Illinois and he's had wonderful escorts to the table, 
Senator Dick Durbin, who we all know very well and are 
extremely proud of, and someone with whom I've had contact over 
the years and that's Bob Michel. And we're glad to see Bob 
Michel here. We always listen to him carefully even though 
there is occasional policy disagreement. But so, Ray you've 
come from a state with a lot of distinction.
    Going back some years, I don't remember the fellow's name 
who was President from Illinois, but after Lincoln we had 
Everett Dirksen and we had Paul Simon. We've had other 
wonderful people from the State of Illinois. They've always 
made large contributions to the well-being of our country. And 
we believe that you will also do that.
    In many ways Transportation Secretary is one of the most 
important jobs in the country. And you're going to be part of 
an Administration that has its focus on economic recovery. The 
President has announced his intention to get things moving.
    One way to do that in my view is to make investments in 
infrastructure, particularly transportation, because people are 
ready to go to work. The jobs are crying out for fulfillment. 
And we look forward to having your agreement.
    We count on the Transportation Secretary to keep our 
trains, buses and cars moving, but now we'll be counting on the 
Secretary to help get our economy moving at the same pace that 
we hope our railroads will be moving. Congress and President 
Obama are working on an economic recovery package that would 
invest in our trains, mass transit, roads, bridges. The 
investment would create 470,000 jobs at a time when, as Senator 
Inouye mentioned in an earlier meeting we had today, there are 
recent reports of 500,000 jobs lost in a month and that pace 
could accelerate, maybe even to 650,000 jobs in a month.
    And so here's one way to put people to work and things that 
will contribute handsomely to the well-being of the country. 
And we hope that those investments will come. Hope that you'll 
be able to support and plead for those investments.
    Transportation is also critical to our environment: our 
energy independence, to use less oil, emit fewer greenhouse 
gases, and we need more Americans to use trains and mass 
transit. Many are already making that choice. Nearly 29 million 
people took Amtrak last year, a major record. And just think of 
the number of cars that takes off the road. It's the sixth year 
in a row with record ridership.
    In addition, nearly three billion trips were taken on 
buses, subways and other transit options in the third quarter 
last year, a 6-percent increase over the same quarter in 2007 
and the largest such increase in 25 years. In New Jersey, 
transit is more than merely a way to get around. It's our life 
blood. It helps businesses grow. It improves quality of life 
across the board.
    And we need to start looking at transit on a Federal level. 
The same way we see it in urban centers across this country. 
Just building more roads will not solve our transportation 
problems. We can no longer leave passengers stranded on the 
tarmac or waiting in long lines at the airport. Travelers and 
commuters deserve more options like rail and transit to connect 
our communities, cities and travel hubs such as the airports.
    For this reason, Mr. LaHood, we need a strong and 
innovative Transportation Secretary. And I believe that with 
the wonderful recommendations that you bring with you, that 
you're the person to do the job. I was pleased to meet with you 
last weekend about these challenges and others important to New 
Jersey and the Nation.
    First, we talked about the need to fully fund Amtrak and 
expand our passenger rail systems. Last year Congress and 
President Bush recognized this need and passed the bipartisan, 
my bill, Amtrak bill. This committee played a major role in 
that vision. And now we need to provide the funding to see that 
vision through.
    We also talked about the critical need for an additional 
rail tunnel under the Hudson River. It's a national asset. And 
in addition to creating more than 50,000 jobs, construction 
jobs, this new tunnel will handle double the number of 
passengers and trains going back across the Hudson River from 
New Jersey to New York. But in the Northeast Corridor, which is 
the busiest rail corridor in the country, these improvements 
will not happen without strong leadership in the Executive 
Branch. I look forward to working with you, Ray LaHood on these 
key issues as we continue the confirmation process. Thanks, Mr. 
Chairman.
    The Chairman. Thank you, Senator Lautenberg. Senator 
Wicker?

                STATEMENT OF HON. ROGER WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. And I too am 
delighted and excited that my classmate and former colleague, 
Ray LaHood is going to be our next Secretary of Transportation.
    We came to elected office together in the House of 
Representatives as a result of the 1994 elections. We were both 
staffers for distinguished members of the House before that. 
And I can tell you that, in my opinion, Ray LaHood has the 
knowledge, experience, knowhow and temperament to be a fine 
member of the Cabinet and an excellent Secretary.
    It's already been mentioned that in the early days of our 
time in the House of Representatives Ray LaHood served as Co-
Chairman of the House bipartisan retreat. And this really was 
quite an undertaking. In an effort to get not only rank-and-
file membership, but the leadership of House Republicans and 
House Democrats together in a way that would promote unity and 
working together as Americans and a little relief from the 
partisan rancor that sometimes we hear about.
    It's also a fact that for many years Ray LaHood has taken a 
leadership position in the House prayer breakfasts. And Mr. 
Chairman this is an ecumenical group which meets every Thursday 
morning for prayer in a bipartisan, non-partisan way in the 
House of Representatives. So it should be no surprise based on 
that that our new Democrat President has chosen this Republican 
to be a part of his team.
    Ray, in your opening statement, you mentioned fundamental 
pillars of openness and fairness. And I think certainly you'll 
be able to bring that to the Department. Also, it's a fact. 
He's no pushover, Mr. Chairman. Ray LaHood has a very low 
tolerance for nonsense. And I think that will also serve him 
well in this position.
    I want to mention by way of opening statement and maybe 
I'll get a chance to ask a question about it later on. If not, 
certainly one for the record. But it's been pointed out by 
Senator Lautenberg and others that a good deal of the economic 
stimulus is going to be directed toward transportation 
infrastructure.
    I see a proposal here for $43.1 billion, 5 percent of the 
total including some $30 billion in highway infrastructure 
investment. In that regard I want to caution my colleagues and 
the Secretary about something that we call in Mississippi, the 
``Katrina effect'' of sending a lot of infrastructure spending 
at one time. Post Katrina in Mississippi we saw a huge increase 
in contracting costs related to the recovery.
    We spent money on roads, bridges, fire stations, and city 
halls in addition to debris removal. And the extent that we 
spent money for those challenges was unparalleled. In the 
period following this, state officials and contractors often 
mentioned the ``Katrina effect'' on cost. They were referencing 
increases in cost across all trades related to the large influx 
of Federal funds and subsequent demand on materials, man power 
and other resources necessary to undertake the projects.
    So I would just say to our Secretary-to-be and to my 
colleagues, we need to be mindful of this issue as Congress 
considers billions of dollars in transportation spending. I 
love to see highways built. I want to see what we can do to 
increase the number of bridges and roads built.
    But if all of these shovel-ready projects are bid and 
contracted in a very short period of time, we could create a 
similar situation that we had with the ``Katrina effect'' in 
Mississippi and on the Gulf Coast states. While the funds will 
flow, higher costs due to abnormally high demand on 
transportation construction industry could result in fewer 
projects undertaken because of increased cost. It will be up to 
us working with you, Mr. Secretary-designate to arrive at a 
figure that our system can absorb without spiking the cost of 
this very needed infrastructure.
    And with that I yield back to the Chairman. And once again 
say how delighted I am that my colleague and brother is going 
to be assuming this leadership role.
    The Chairman. Thank you, Senator Wicker and now, Senator 
Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well thank you, Mr. Chairman. Let me first 
of all say how excited I am to be on this committee with your 
leadership and the leadership of Ranking Member Hutchison. I'm 
looking forward to working with all of you.
    I have to say at the outset that as many in the room know, 
I, a few years ago, concluded a term of Governor of Virginia 
and there was no issue more vexing than transportation. There 
are a lot of things I can probably point to that we 
accomplished, but solving Northern Virginia's transportation 
woes unfortunately was not one of them.
    Since the Chairman has given me opportunity to speak, let 
me just raise three issues very quickly that I hope either now 
or at some other point we can discuss. I recall as Governor how 
challenging it was at times to deal with the Department of 
Transportation at the Federal level because so many agencies 
within your control over the last year plus have co-chaired a 
bipartisan task force on infrastructure. And as we hopefully 
move toward a 21st century infrastructure program to more 
multi-modal projects, I wonder if you--I know this is very 
early in your thinking process, but have you given any thought 
to the 11 separate agencies you have within the Department and 
how the boxes are aligned? And whether there needs to be any 
realignment of those functions to make sure as we think about a 
project like Dulles rail or others that use aviation, mass 
transit and highway combined that you've got those funding 
flows and goals all aligned on a multi-modal basis, number one?
    Second, and again this would more relate to surface 
transportation and acting on something Senator Wicker said, I 
really wonder if we're going to take a fresh look at metrics. 
You know, some of the old standards like VMT and others have 
driven some of these formulas when truly at this point 
mobility, safety, climate change, and a host of these other 
issues are going to have to be somehow factored into the 
metrics by which we evaluate projects. And I'd love to have 
your comments on that.
    And finally, on perhaps a more parochial basis, in Virginia 
we have been very aggressive on the usage of public/private 
partnerships. And we have actually some wins in that category 
and again for the folks in the region we will soon see some 
relief on the Virginia side of the beltway with the addition of 
the hot lanes. I'd love to have your thoughts on public/private 
partnerships. And while I'm generally supportive, one of the 
things I think we always have to watch out for as we look at 
public/private partnerships is making sure that the private 
sector actually has some skin in the game, some risk capital, 
and it's not just the public sector putting up the dough and 
the private sector reaping the benefits at the back end of the 
project. So if at some point you could comment on that as well.
    But Mr. Chairman, thank you for letting me, as a member of 
the Senate, have a chance to make a couple comments. And again, 
I look forward to working with you on this and very other 
important matters on this committee.
    The Chairman. Thank you Senator Warner. And now I have to 
regain my senses here and call on Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And congratulations 
to you for being Chairman of this committee. And I really look 
forward to working with you on this committee. And I think we 
can have a great next couple of years here.
    Let me thank Congressman LaHood for putting your name 
forward for this very important post. And some of my colleagues 
here have identified just a few of the areas that you're going 
to have to deal with in your time at the Department of 
Transportation. Someone mentioned rail, mass transit, FAA, 
highway bill, ports, Amtrak. I don't think anyone has mentioned 
pipelines, but you really have a very full plate.
    And the fact that you come so highly recommended from both 
Senator Wicker and my friend, Congressman Bozeman from Arkansas 
really speaks volumes. And the fact that you want to do this in 
a very bipartisan way, I think that's exactly where the 
American people are. And I think you'll have a lot of folks on 
this committee that really want to help you succeed in doing 
that.
    So Mr. Chairman, thank you. And I look forward to 
everyone's statements and questions. Thank you.
    The Chairman. Thank you very much, Senator Pryor. And so 
now, Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I want to thank 
you for holding the hearing and thank Congressman LaHood for 
his willingness to serve in this capacity. I can echo what 
evidently was stated by my former colleague from the House, now 
colleague in the Senate, Senator Wicker, about Congressman 
LaHood.
    He is a quality appointment, someone who I had the great 
privilege of working with when I was a member of the House on 
the T and I Committee. And his former boss, Leader Michel is a 
legend in the House as well. It's nice to see you here today.
    But I do want to just as we look to the challenges that are 
facing America's infrastructure, say that in a state where we 
have lots of real estate and vast distances and not a lot of 
people, that planes, trains and automobiles are pretty 
important in South Dakota. And so transportation issues are 
critical to my state. And as my colleague from Arkansas 
mentioned we've got a number of big issues that are going to be 
coming down the pike, not the least of which is the next 
highway bill.
    And as the next Secretary of Transportation you will have a 
lot to say about how that bill is shaped and put together. I 
think the cash-flow problems we're facing in the trust fund are 
really critical. And I want to make sure as we go through the 
process that we don't de- emphasize highway investment in rural 
states.
    I think that when it comes to highways that Federal 
investment in states like South Dakota and others, that may be 
in the middle of the country, enables those goods to move from 
one part of the country to the other. And whether it's Seattle 
to New York or Chicago or wherever, people in businesses in 
those parts of the country benefit from the investments that 
are made in the Midwest. And areas of the country that don't 
have the population base just like the other areas of the 
country benefit as well.
    So and I had mentioned this to you in our individual 
discussion, but Senator Wyden and I have a proposal that we've 
been building support for called the Build America Bonds Act 
which would help out all states and not just large states with 
multibillion dollar infrastructure projects. And I hope that 
you all give it consideration as an innovative option for 
financing transportation projects as we move forward.
    So again, delighted to welcome my former colleague here 
today, Mr. Chairman. And the President couldn't have made a 
better pick for this job. And I look forward to working with 
him and with the members of this committee as we take on many 
of these big transportation challenges.
    The Chairman. Thank you Senator. And now, Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Rockefeller. 
And thank you for allowing us to participate today. And I also 
thank the Ranking Member. I'm honored to be on this committee. 
I'm going to, I think, enjoy it very much just by the beginning 
we've had here today.
    And I want to say to Ray LaHood, my former colleague in the 
House of Representatives. I think this is an excellent 
nomination by Barack Obama. I remember the years working with 
you, Ray, in the House on a variety of issues, whether it was 
renewable electricity or many other issues where you reached 
across the aisle.
    But one of the things that impressed me the most, in 
addition to what Roger Wicker said in terms of you heading up 
those bipartisan retreats that we had, trying to bring both 
sides together, was that of my 10 years in the House, eight of 
them the Republicans were in the majority, and when the 
Republicans are in the majority the Speaker has the chair and 
you were in the Speaker's chair many times. And as House 
members know usually when you get to a very difficult vote, a 
tough vote, you want somebody in the chair who's fair, who's 
firm.
    [Laughter.]
    Senator Udall. Well, this is--I'm going to keep talking, 
Ray anyway. This is a--I don't know what kind of signal we're 
being sent, but anyways.
    [Laughter.]
    Senator Udall. But as the Chair you were known as someone 
who was fair, someone who allowed openness and the ability to 
speak, but wouldn't put up with any nonsense, and you would use 
the gavel when it was appropriate. I think there was a 
tremendous amount of respect for you the way you assumed the 
role as Speaker Pro Tem. So I wanted my colleagues to know 
that.
    A couple of things that I hope you'll talk about as we get 
into the questioning that I'd just like to raise briefly.
    One is as we move forward on transportation you obviously 
have a very significant agency. You've got 60,000 people, 
billions of dollars. When we move forward in transportation 
we're going to be trying to be more efficient, trying to do 
things in a way where we're greener and have fewer greenhouse 
gases.
    And it seems to me, as you look at your Department, as we 
spend every dollar, we're going to need to analyze what impact 
we're having on the environment, on the air, on greenhouse gas 
emissions. Are we doing it the most effectively we can? So 
that's one area I hope you'll speak to as we get into the 
debate here.
    And when we talk about efficiency one of the interesting 
things that's been done in my State of New Mexico, like many of 
the Western States, we're big, we have many highways. Governor 
Richardson has proposed a new commuter rail which now runs 
almost 100 miles, called the Rail Runner from Belen, New Mexico 
up to Santa Fe.
    And so I think when we talk about efficiency we're going to 
have to be analyzing whether we invest more in rail or do we 
invest more in roads? Do we invest more in waterways or do we 
invest more in roads? And I hope that your early analysis is to 
find out if you have the capabilities to analyze what's the 
best way to do that?
    So with that I want to welcome you. And I am sure that you 
are going to get a resounding vote whenever we get an 
opportunity to do that because you have such an incredible 
career. And one of the final things, you come from the seat of 
Everett Dirksen. So I think that says something about seats 
generating bipartisanship.
    I mean when he was over here in the Senate he worked with 
LBJ and the two of them forged a great bipartisan coalition to 
move our country forward. So that's a great tradition, Abraham 
Lincoln, Everett Dirksen and Ray LaHood. So thank you very 
much, Mr. Chairman.
    The Chairman. Thank you, Senator Udall. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. 
Congressman LaHood and Secretary-Designate LaHood, thank you 
for being here. I'm not going to be able to stay for questions. 
I regret that. But by now you are aware that we've called you 
over here to talk to you.
    [Laughter.]
    Senator Dorgan. At some length, as a matter of fact. I'm 
going to be mercifully brief. But I want to say two things.
    I'm very interested in the Essential Air Services. You and 
I have had a long conversation in my office about these issues. 
I'm very interested in Amtrak and I'm very interested in the 
training of air traffic controllers and how we're using our 
university facilities across the country to do that.
    I want to especially mention to you that the Transportation 
Department recently headed by the departed Secretary, I think, 
was very arrogant in the way they dealt with a very important 
issue. And that is the issue of allowing long-haul Mexican 
trucks into this country. They indicated it was necessary 
because of NAFTA. That was not the case at all. It just wasn't 
the case.
    The Inspector General of the Department of Transportation 
said that in Mexico there is no centralization of drivers' 
records that someone could determine. There are no vehicle 
inspection reports, no centralized records. There are no 
accident reports, no centralized records.
    There is no way that we are ready to have long haul Mexican 
trucks moving across the byways of this country. This 
Administration did a pilot project. This Congress, just over a 
year ago, passed legislation prohibiting it. The Secretary of 
Transportation indicated she didn't care very much what this 
Congress thought. They were going to continue the pilot project 
anyway.
    Just to show you the absurdity of this. It is required that 
a Mexican long-haul truck driver be fluent in English in order 
to be able to drive on the roads of this country. And they 
determine fluent in English as a situation where if you held up 
a road sign such as a stop sign or a yield sign, if that driver 
can answer what that sign is, in Spanish, they're declared to 
be fluent in English. So much for careful concern about safety 
on the American roadways.
    I would fully expect within the first 2 months or so, Mr. 
Congressman, that the new President and the new Secretary of 
Transportation will revoke that pilot project. The Congress has 
requested them to do so, passed legislation, and I fully expect 
to see action from the new Secretary of Transportation that 
complies with the law.
    You and I have had a long conversation about that. I 
recognize at least part of that decision will be made in the 
White House. But I appreciate the fact that I think you were on 
the side of those of us when you were in the House of 
Representatives, on the side of those of us who attempted to 
pass legislation to shut that pilot project down.
    So I mention that because it has to do with the safety on 
American roadways. It has to do with the misinterpretation of 
NAFTA. And I think a pretty ham-handed approach by the 
Treasury, by the Transportation Secretary, I should say, in the 
way it was handled.
    Finally let me just say I am very pleased by your 
nomination. I told you that I have great respect for you. And 
for those who are in the front row supporting you, including 
Bob Michel.
    I thank you for being willing to serve this new 
Administration. And I think all of us on this committee are 
excited about your stewardship. And I believe you will be 
confirmed and I look forward to working with you very much.
    The Chairman. Thank you, Senator Dorgan. Senator DeMint to 
be followed by Senator Klobuchar.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. Ray, again, thank 
you for being willing to do this. I appreciate you coming by my 
office and our conversation I think stimulated a lot of my 
thinking and as we talked about the need for our Transportation 
Department to have bigger vision, longer-term ideas than just 
year-to-year projects.
    As you and I know when the Department was formed it was 
essentially to build an interstate highway system which is 
pretty much complete at this point. There's still certainly a 
role for Federal roads, but as you know the Department of 
Transportation has got increasingly involved with state and 
local roads and regulations and funding. And I'm afraid at the 
expense of that bigger vision that it was started with.
    You and I talked a little bit about the possibilities of 
devolving some of the Federal role for highways and then 
looking at a grander vision. Perhaps of a passenger rail system 
that could take some of the pressure off of our aviation system 
and our highways. And I would look forward to working with you 
on those things.
    Unfortunately because of our financial situation as a 
country it's unrealistic to think we can continue to add 
without looking at ways we might--can subtract. Certainly our 
Nation can give no less attention to our roads and our 
infrastructure. But there probably is a greater role the states 
can play as we look at different ways to fund funding long term 
as gasoline becomes less and less the source of energy for 
transportation.
    So I'd love to hear more of your thoughts about maybe a new 
paradigm for the transportation system. Because we don't need 
the Federal Government now to deal with secondary roads and 
bridges. We certainly need to challenge the states to do a 
better job with that.
    But, and the other thing I'd just like you to be thinking 
about, if I have a chance to ask a question, I will. As you 
know there has been much disagreement about earmarks or 
projects that we pick as Congressmen and Senators and send over 
to the Transportation Department. And I heard a number of 
Congressmen and Senators say we should not turn that over to 
the unelected bureaucrats of which you're getting ready to 
become one.
    [Laughter.]
    Senator DeMint. And from previous Secretaries and not just 
the most recent, but I've heard of what kind of dysfunction it 
creates when you have hundreds of folks on this side sending 
multiple projects, thousands of projects to your side. And it 
makes it increasingly difficult to implement a coherent Federal 
plan. I'd love to hear your comments later on that because 
President Obama has made it clear he would like to eliminate 
all or part of the earmarks. And so that's something certainly 
I'd like to hear your philosophy on.
    So with that Mr. Chairman, I yield back.
    The Chairman. Thank you, Senator DeMint. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman and 
again, congratulations on your new position. And I want to tell 
you one of your first acts of leadership was to allow this room 
to be used by the Fergus Falls, Minnesota marching band on 
Monday.
    [Laughter.]
    Senator Klobuchar. And in perfect formation as your staff 
will tell you, they filled up this entire room and did Yankee 
Doodle Dandy.
    [Laughter.]
    Senator Klobuchar. And so I believe that's in honor of your 
Chairmanship.
    Thank you so much, Representative LaHood for being here. I 
enjoyed our meeting. We care a lot about transportation in my 
state.
    I think you mentioned you were there for the Republican 
Convention this summer. And saw firsthand some of the work 
we're doing including that quick repair we did of the I-35W 
bridge. Certainly that brought home to me the importance of 
transportation funding when we have something like a quarter of 
America's 600,000 bridges that have aged so much that their 
physical condition or ability to withstand current traffic 
levels is simply inadequate.
    I said the day that the bridge fell down that a bridge just 
shouldn't fall down in the middle of America, not a six-lane 
highway, not a bridge that is just six blocks from my home 
where 13 people died in this tragedy. I think we discussed the 
fact that fixing these bridges and roads and other 
infrastructure rail won't be easy. But I would say that will be 
my leading concern as Senator Hutchison so eloquently discussed 
at the beginning of her opening statement.
    Second, the FAA expects the number of passengers who fly in 
U.S. commercial carriers to exceed an astounding one billion 
passengers by 2015, up from 740 million passengers in 2006. We 
need to be prepared. I appreciate the Chairman's leadership on 
this issue and the work that this committee has done.
    Clearly modernizing our air traffic control system should 
be a key priority. I'd say our new President is pretty good 
with technology, still wanting to hold on to his BlackBerry, 
and I'm very hopeful that he will see this as a priority as 
well.
    We also need to ensure that the FAA is employing a well 
trained group of air traffic controllers. Today's air traffic 
controllers, as you know, are retiring in record numbers. And 
those who remain are overworked. In the coming years we need to 
hire and retain a sufficient number of air traffic controllers, 
and train them to do the important work that we demand of them.
    Finally to look at our transportation options and the need 
to have more mass transit clearly part of this will be 
railroads. I missed Senator Lautenberg's opening, but I'm sure 
he stressed the importance of Amtrak.
    One other issue I wanted to mention is the captive shipper 
issue. In my state, like Senator Thune's state and others, we 
have a number of small businesses and large businesses that 
rely on our railroads. Railroad competition has all but 
disappeared.
    There were 63 Class I railroads operating in the United 
States three decades ago. Today only seven remain with four of 
them controlling over 90 percent of the rail freight. That 
would be fine if the rates were acceptable. What we see unfair 
rates for captive shippers that are at the end of the line, the 
way it's priced. And it's very difficult under the current 
system for them to challenge these rates in any way. So that's 
something that I'd like to pursue. Senator Dorgan and I and 
others have a bill that we're pushing. There's also another 
bill in the Judiciary committee. And I'll hope you'll look at 
that.
    In his 1963 memoir President Eisenhower said of the 
interstate highway system, ``More than any single action by the 
government since the end of the war, this one would change the 
face of America. It's impact on the American economy, the jobs 
it would produce in manufacturing and construction. The rural 
areas it would open up was beyond calculation.''
    He was right then. And I'm hopeful as we look at this 
economic recovery package and the work that we need to do in 
the Transportation bill that he will be right today. It's our 
responsibility to work in a bipartisan manner on this issue. 
Certainly your nomination as a Republican Congressman by this 
President to this position is a symbol of that.
    So thank you very much. And we look forward to working with 
you.
    The Chairman. Thank you, Senator Klobuchar. I just wanted 
to reiterate for a few of you who came in after I made my 
opening remarks. We're going to have two new procedures in this 
committee.
    One is that at the beginning of any hearing, where there 
are witnesses, I and Senator Kay Bailey Hutchison will have 
opening statements. But I think it is not a good use of our 
time to have every single member make an opening statement. Why 
do I say that? Because I think it encourages people to suddenly 
find other meetings they have to go to or people look at who's 
going to be speaking ahead of them or get some idea of that and 
they decide they just don't----
    I want this to be a committee which is immediate, where 
people feel that if they show up on time there's a reward for 
that. That we hold conversation to substance, not that any 
opening statements are lacking in substance, but that can all 
come out during the point of questioning. And as you've heard 
today a lot of opening statements have gotten to some of the 
questions that, Congressman, you will be asked.
    The other--so I hope that you will accept that. And the 
second is that I think that what we need to do here is to have 
an order of arrival in terms of speaking. I think it's fair.
    Some committees use seniority. And I just don't think that 
makes a whole lot of sense. I think when somebody gets here 
before somebody else then that person ought to be able to ask a 
question when it comes time for questioning before somebody 
else. And so that will be the order of the day if that meets 
with the approval of my distinguished Ranking Member.
    Senator Hutchison. I do agree. And I do think people will 
have a chance to question and we'll get to the questions, 
Senator, not to mention the witnesses now and in the future 
would have a chance to talk.
    The Chairman. Alright. It's Congressman LaHood, isn't it?
    [Laughter.]
    The Chairman. We--yes.
    [Laughter.]
    The Chairman. And what's the position again?
    [Laughter.]
    The Chairman. With great respect, sir, we welcome your 
testimony.

    STATEMENT OF HON. RAY LaHOOD, SECRETARY-DESIGNATE, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. LaHood. Well, Mr. Chairman, thank you very much. I know 
that you're all very busy here today. There are a lot of things 
going on.
    I want to personally thank Senator Durbin, my senior 
Senator, who I have great respect for and he's mentioned the 
great working relationship that he and I have had in so many 
different areas and also my mentor and former boss, Bob Michel 
for the introductions. And Mr. Chairman all of the members have 
a copy of my statement. And because of the busy schedule you 
all have, if you want to just put my statement in the record. 
I'd be happy to respond to your questions now so that everybody 
that's here and has to go to another meeting would have a 
chance to ask the questions that they would like.
    The Chairman. No, no Congressman. You've got to encourage 
good behavior here.
    [Laughter.]
    The Chairman. So we need your opening statement.
    Mr. LaHood. Chairman Rockefeller, Ranking Member Hutchison, 
Members of the Committee, it's an honor for me to appear before 
you as President Obama's candidate for the United States 
Secretary of Transportation. Today I will tell you a little bit 
about myself, communicate my vision for leading the Department 
if I'm confirmed and most importantly hear about the issues you 
feel are important. Before doing this however, I want to 
emphasize two principles I will bring to everything I do at the 
Department, if confirmed.
    First is openness. That means an open door to you, to your 
Senate colleagues, to my former colleagues in the House and to 
all Americans who depend on and care about our transportation 
system. This was a basic principle of President Obama's 
campaign. And it will be a watchword for me at USDOT if 
confirmed. No one person or agency has all the knowledge, 
insight or perspective needed so I will hear what people have 
to say before decisions are made.
    The second principle I've lived by all of my public service 
career is fairness. If I'm confirmed I will have the unusual 
perspective of being a Republican in a Democratic 
Administration. This gives me a real appreciation of the value 
of listening to all sides when disputes arise and projects are 
reviewed. I hope you take my selection as a signal of the 
President's commitments to focusing on policy, rather than 
partisanship.
    There are no Republican or Democratic transportation 
issues. There are national issues that affect us all. While my 
primary mission, if confirmed, will be to bring President 
Obama's priorities to the Department and see them effectively 
implemented. I will do so with a commitment to fairness across 
regional lines and across party lines. And I will do so in 
consultation with Congress, Governors and local officials.
    Now, a little about myself. For 14 years, I've had the 
honor of representing my hometown of Peoria, Illinois, and the 
20 counties of the 18th District of Illinois in the U.S. House 
of Representatives. This District was previously represented by 
among others, Abraham Lincoln, Everett Dirksen and Bob Michel. 
I served on the Transportation and Infrastructure Committee for 
6 years and the Appropriations Committee for 8 years. I also 
served in the Illinois House of Representatives.
    In one form or another I have worked for government and 
public service for 30 years. As I said before my primary goal, 
if confirmed will be effective implementation of President 
Obama's priorities. As I see it this means a strong focus in at 
least four areas.
    First, safety. On the roads, on the rails, in the air and 
on the water. This has been and must continue to be the central 
focus of USDOT.
    This goal must guide everything done by both the leadership 
of the Department and its workforce who will be our partners in 
everything we do. I know the Committee established this goal 
when it created the Department and is dedicated to the success 
of the safety mission. If confirmed, you can rely on me for the 
same dedication.
    Second, is the economy. I do not need to tell anyone here 
about the severe economic challenges we face. 2.6 million jobs 
lost in 2008 and unfortunately more to come in 2009.
    The President and his economic team have spoken about the 
need for quick action and the economic recovery plan responds 
directly to that need. Transportation is a big part of that 
plan. And one of my first tasks, if confirmed, will be to 
manage the open and effective use of those funds.
    But job creation cannot be the only goal for these 
investments. As we attend to our immediate challenges we must 
keep watch on longer-term results. The most compelling reason 
for infrastructure investment is the lasting economic and 
social benefit it brings over decades and even generations.
    Much of our economic strength is built on the wise 
infrastructure investments made by our predecessors. And so at 
a minimum we cannot let the assets we inherit fall apart. I am 
committed to investments that will help bring the country's 
transportation assets up to a state of excellent repair.
    Even as we repair what we have we also must shape the 
economy of the coming decades by building new infrastructure. 
We need to leave something of value to those who come after us. 
This work must be done with an eye toward our competitive 
position in the world by investing in things like better 
freight movement.
    But it must also recognize the third major policy focus, 
our transportation system and the development it enables must 
be sustainable. We must acknowledge the new reality of climate 
change. This has implications in all areas, the inner city, 
rail and mass transit funding in the economic recovery plan are 
a part of the equation, but only a part. Sustainability must 
permeate all we do from highways and transit to aviation and 
ports. President Obama is committed to this principle and so am 
I.
    Fourth is a strong focus on people and communities where 
they live and work. This can take many forms. In aviation it 
means a commitment to the passengers. An aviation system 
focused on safety, convenience and confidence of the traveling 
public is a successful one.
    For surface transportation it implies a commitment to the 
principles that some refer to as livability. That is investing 
in ways that respect the unique character of each community. 
The era of one-size-fits-all projects must give way to one 
where preserving unique community characteristics, be they 
rural or urban, is a primary goal rather than an afterthought. 
And I intend to make livable communities a big part of what 
we're going to do, hopefully under reauthorization and in some 
other areas.
    These four areas: safety, the economy, sustainability and 
livability will be major priorities for me if I'm confirmed. 
But whatever our goals may be we will not achieve them unless 
policy and investments are driven by outcomes. A key challenge 
for those who craft the Nation's transportation programs, that 
is, all of us here today, will be to link decision-making to 
performance at all levels.
    This will require a new commitment to measure performance, 
as was called for in the recent report of the National Surface 
Transportation Policy and Revenue Commission and to adjust our 
course where progress is too slow. Performance measurement is 
key to assuring that new money is invested wisely and the 
public has enough confidence in our work to support continued 
investment.
    To conclude, Mr. Chairman, thank you again. I want to work 
with this committee going forward. And I will respond to your 
questions. Thank you, sir.
    [The prepared statement and biographical information of Mr. 
LaHood follows:]

      Prepared Statement of Hon. Ray LaHood, Secretary-Designate, 
                   U.S. Department of Transportation

    Chairman Rockefeller, Ranking Member Hutchison, Members of the 
Committee, it is an honor for me to appear before you today as 
President Obama's designee for U.S. Secretary of Transportation. Today 
I hope I can tell you a little about myself, communicate to you my 
vision for leading the Department, if I am confirmed, and hear about 
the issues you see facing America's transportation system.
    Before getting to these specifics, however, I would like to 
emphasize two overarching principles I will bring to everything I do at 
the Department if I am confirmed.
    The first is openness. That means an open door to you and your 
Senate colleagues, to my former colleagues in the House, and to all 
Americans who depend on and care about our transportation system. This 
was a basic principle of President Obama's campaign, and it will be a 
watchword for me at USDOT, if I have the honor to lead the Department. 
I know that no one person or agency can have all the knowledge, insight 
or perspective needed, and so I will want to hear what people have to 
say before policy is set or decisions are made.
    The second is a principle I have tried to live by all through my 
career--fairness. If I am confirmed, I will have the somewhat unusual 
perspective of being a Republican in a Democratic administration. This 
will give me a heightened appreciation of the need to listen to all 
sides when disputes arise and projects are reviewed. I hope you will 
take my selection as a signal of the President's commitment to focusing 
his energies on policy rather than partisanship. I think we all 
recognize that there are no Republican or Democratic transportation 
issues; these are national issues that affect us all.
    While my primary mission if I am confirmed will be to bring 
President Obama's priorities to the Department and see them effectively 
implemented, I will do so always with a commitment to fairness, across 
regional lines, across party lines, and between people who come to the 
issues with different perspectives.
    Now a little about myself. For the last 14 years I have had the 
honor of representing my home town of Peoria and the 20 counties of the 
18th District of Illinois in the U.S. House of Representatives--a 
community previously represented by, among others, Abraham Lincoln and 
Everett Dirksen. I served on the Transportation and Infrastructure 
Committee for 6 years and on the Appropriations Committee after that. 
Before being elected to Congress, I worked for the previous 
representative for the 18th District, Republican Leader Bob Michel, who 
I'm sure many of you know. I also served in the Illinois House of 
Representatives. In one form or another I have worked in government for 
more than 30 years.
    As I said before, my primary goal at the Department, if confirmed, 
will be effective implementation of President Obama's national 
priorities for transportation. In doing this I will work closely with 
Congress and the Nation's Governors and local elected officials. As I 
see it, this will require a strong focus in at least four areas.
    First is the economy. I do not need to tell anyone here about the 
severe economic challenges we face--more than a million jobs lost in 
2008 and unfortunately more to come in 2009. The President and the 
members of his economic team have spoken extensively about the need for 
quick action, and the economic recovery and renewal plan currently 
under discussion responds directly to this need. Transportation 
infrastructure is a substantial part of that plan, and one of my first 
and most important tasks, if confirmed, will be to manage the effective 
use of those funds.
    But job creation cannot be the only goal for these investments. As 
we attend to our immediate challenges, we must keep watch on longer 
term results. The most compelling reason for infrastructure investment 
is the lasting economic and social benefit it brings over decades and 
even generations. Indeed, much of our economic success in recent 
decades has been built on the wise infrastructure investments made by 
our predecessors. And so at a minimum, we cannot let the assets we 
inherited fall apart. Accordingly, I am committed to supporting 
investments that will help bring the country's transportation assets up 
to a state of good repair.
    Even as we repair what we have, we must begin shaping the economy 
of the coming decades by building new infrastructure. We need to leave 
something of value to those who come after us. This work must be done 
with an eye toward our competitive position in the world, by investing 
in things like better freight movement.
    But it must also recognize a second major policy focus: our 
transportation system and the development it enables must be 
sustainable. We must acknowledge the new reality of climate change. 
This has implications for all areas; investments in intercity rail and 
mass transit, as called for in the economic recovery and reinvestment 
plan, are part of the equation, but only part. Sustainability must be a 
principle reflected in all our infrastructure investments, from 
highways and transit to aviation and ports. President Obama is 
committed to this principle and so am I.
    Third is a strong focus on people and the communities where they 
live and work. This can take many forms. In aviation, it means a 
commitment to the end user of our aviation system: the passenger. An 
aviation system that focuses on the safety, convenience and confidence 
of the traveling public will be a successful system.
    In our surface transportation programs, it implies a commitment to 
the principles that some refer to as livability; that is, investing in 
a way that recognizes the unique character of each community. The era 
of one-size-fits-all transportation projects must give way to one where 
preserving and enhancing unique community characteristics, be they 
rural or urban, is a primary mission of our work rather than an 
afterthought.
    And finally, I am mindful that safety--on the road, on the rails, 
in the air, and on the water--has always been and must continue to be 
the central focus of the Department of Transportation. This goal must 
guide everything done by both the leadership of the Department and its 
work force, who will be our partners in everything we do. I know the 
Committee established this goal when it worked to create the Department 
and has been dedicated to the success of the safety mission throughout 
its history. If confirmed, you can rely on me for the same dedication.
    These four areas--economic health, sustainability, a focus on 
people and communities, and safety--will be major priorities for me if 
I am confirmed because I believe a transportation system that meets 
these goals is vital to our long term national interest. The tools the 
Congress has given to the Department vary--from grants, to regulation, 
to research and technology, to informing the public on issues. In every 
case, I will seek to use those tools to pursue these goals.
    But whatever our goals may be, we will not achieve them unless our 
policy and investment decisions are driven by outcomes. A key challenge 
for those who craft and manage the Nation's transportation programs--
that is, all of us here today--will be to link decision-making to 
performance at all levels. This will require a new commitment to 
measuring performance in real time, as was called for in the recent 
report of the National Surface Transportation Policy and Revenue 
Commission, and to adjusting our course where progress is not rapid 
enough. The practice of performance measurement will be key to assuring 
both that new money is invested wisely and that the public has the 
confidence to continue supporting continued investments.
    To conclude Mr. Chairman, thank you again for scheduling this 
hearing. I would like to reiterate my desire to work with this 
committee as policy and funding matters are debated, and I will be 
happy to respond to any questions you and the Members of the Committee 
may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Raymond ``Ray'' LaHood.
    2. Position to which nominated: Secretary of Transportation.
    3. Date of Nomination: January 20, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: December 6, 1945; Peoria, Illinois.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife: Kathy LaHood, Director of Finance, Goodwill Industries; 
        and Consultant, Council of American Overseas Research Centers.

        Children: Darin LaHood, 40; Amy LaHood, 38; Sam LaHood, 34; 
        Sara LaHood, 31.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Canton Junior College, 1963-65 (Spoon River College).
        Bachelor of Science in Education, 1971, Bradley University.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        St. Joseph School, Teacher.

        Holy Family School, Teacher.

        Oak Grove West School, Social Studies Teacher.

        Rock Island Youth Services Bureau, Executive Director, 1972-74.

        Bi-State Metropolitan Commission, Chief Planner, 1974-77.

        Congressman Tom Railsback, District Administrative Assistant, 
        1977-1982.

        Illinois House of Representatives, State Representative, 1982.

        Congressman Robert Michel, Chief of Staff and District 
        Administrative Assistant, 1983-1994.

        Member of Congress, 18th District of Illinois, 1995-2008.

    9. Attach a copy of your resume. See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Abraham Lincoln Bicentennial Commission, Co-Chair, 2000-1/3/
        2009.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board of Trustees, Bradley University, 1999-2006.

        Board of Trustees, Gallaudet University, 1997-1/3/2009.

        Co-Chair, International Maronite Foundation.

        Trustee, Arab American Fellowship, 2008-present.

        Honorary Chairman, Arab American National Museum, 2005-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club or other membership organization. 
Include dates of membership and an positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Creve Coeur Club, Peoria, Illinois, 1998-present.

        Rotary International, Peoria, Illinois, 1985-present.

        Knights of Columbus, Peoria, Illinois, 1985-present.

        Capitol Hill Club, Washington, D.C., 1990-present.

        Cathedral of St. Mary of the Immaculate Conception, Peoria, 
        Illinois, 2004-present.

        Chicago Executive Forum, Chicago, Illinois, 2003-2006.

        None of these restrict membership.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has an outstanding debt, the amount, and whether you are 
personally liable for that debt: Yes. There are no outstanding campaign 
debts.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    See Attachment B.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honorary Doctorate in Political Science, 2000, Lincoln College.

        Honorary Doctorate in Public Service, 2002, Eureka College.

        Honorary Doctorate in Humane Letters, 2004, Tri-State 
        University.

        Honorary Doctorate in Public Service, 2006, MacMurray College.

        Honorary Doctorate in Humane Letters, 2008, Milliken 
        University.

        Ellis Island Medal of Honor.

        Frank Bellrose Illinois River Valley Conservation Award, 2001, 
        Illinois Chapter of The Nature Conservancy.

        Charles B. Shuman Distinguished Service Award, 2005, Illinois 
        Farm Bureau.

        Ray A. Neumann Tri-County Citizen of the Year, 2001, Downtown 
        Kiwanis Club of Peoria.

        Spirit of Enterprise Award, the Chamber of Commerce.

        Friend of Agriculture, the Farm Bureau.

        Guardian of Small Business award, National Federation of 
        Independent Business.

        Guardian of Medicare Award, United Seniors Association.

        Manufacturing Legislative Excellence Award, National 
        Association of Manufacturers.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    This list includes speeches, columns and articles on topics 
relevant to the position.

        ``40th Anniversary of the Interstate Highway System,'' Speech 
        to the Tri-County Regional Planning Commission, June 29, 1996.

        ``Congress Scrutinizing Airline Safety,'' Daily Times, July 26, 
        1996.

        ``Article on Regional Airport,'' Illinois Business Journal, May 
        2001.

        ``A Sixth Central Illinois Airport Would Waste Tax Dollars,'' 
        The Pantagraph and Peoria Journal Star, May 13, 2001.

        ``Next Congress to Tackle Transportation,'' InterBusiness 
        Issues, December 2002 ``Capitol View,'' The Pantagraph, 
        February 2003.

        ``Route 336 A Priority,'' 336 Coalition Newsletter, Fall 2003.

        ``New Session Brings Both New and Old Issues,'' InterBusiness 
        Issues, January 2005.

        ``Transportation Bill Vital to Illinois Economy,'' 
        InterBusiness Issues, April 2005.

        ``Route 29 Expansion Will Create Jobs and Stimulate Economy,'' 
        Peoria Journal Star.

        ``River Issues are Critical to Upper Midwest,'' InterBusiness 
        Issues, July 2005.

        ``River Issues are Critical to Mississippi River Valley's 
        Future,'' UMIMRA, Summer 2005.

        ``Senate Must Act on Vital Water Resources Bill,'' 
        InterBusiness Issues, March 2006.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    This list includes testimony on topics relevant to the position.

        Remarks to the House Transportation and Infrastructure Aviation 
        Subcommittee, February 14 and 15, 1995.

        Statement before the House Transportation and Infrastructure 
        Aviation Subcommittee during Hearings on the Airport 
        Improvement Program, March 13, 1996.

        Statement on Introduction of a Bill to Eliminate the FAA's 
        Liaison and Familiarization Training Program, September 9, 
        1998.

        Statement before the House, ``Department of Transportation and 
        Related Agencies Appropriations Act,'' July 29, 1998.

        Statement before the House, ``Department of Transportation and 
        Related Agencies Act,'' July 24, 1995.

        Statement before the House, ``Air Service Negotiations Between 
        United States and Japan,'' September 17, 1997.

        Statement before the House, ``Building Efficient Surface 
        Transportation and Equity Act of 1998,'' April 1, 1998.

        Statement before the House, ``Transportation Equity Act: A 
        Legacy For Users,'' April 1, 2004.

        Statement before the House, ``Transportation, Treasury, and 
        Independent Agencies Appropriations Act, 2004,'' September 4, 
        2003.

        Served as Speaker pro tempore of the House, ``Department of 
        Transportation and Related Agencies Act, 1997,'' June 26, 1996.

        Served as Speaker pro tempore of the House, ``Aviation Security 
        Act,'' November 6, 2001.

        Served as Speaker pro tempore of the House, ``Small Airport 
        Safety, Security, and Air Service Improvement Act of 2002,'' 
        June 20, 2002.

        Served as Speaker pro tempore of the House, ``Small Airport 
        Safety, Security, and Air Service Improvement Act of 2002,'' 
        June 20, 2002.

        Served as Speaker pro tempore of the House, ``Providing for 
        Further Consideration of H.R. 3550, Transportation Equity Act: 
        A Legacy for Users,'' April 1, 2004.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been involved in the legislative process throughout much of 
my life, first as a staff member and then for many years as an elected 
official. I have seen how government programs can meet national 
objectives and improve the economy an quality of life at both the 
national and the local level. At the same time, I have learned through 
my interactions with constituents how these programs can fall short of 
their objectives when they become overly bureaucratic, or lose sight of 
the stakeholders that they are intended to serve. I also know from 
experience that Federal programs must collaborate with and support 
state and local agencies in order to be effective.
    During my time on the Transportation and Infrastructure Committee 
and then on the Appropriations Committee, I gained a thorough 
understanding of the Department of Transportation's programs and 
agencies. I also have served both on the Intelligence Committee and on 
the Homeland Security Appropriations Subcommittee, where I became 
familiar with potential terrorist threats facing the transportation 
system, and the countermeasures needed to ensure efficient 
transportation while enhancing security.
    I look forward to the challenge of leading the Department of 
Transportation at a time when it will play a fundamental role in 
supporting national objectives. Building and improving our Nation's 
transportation infrastructure has always been among my highest 
priorities, and over the next few years, the Department will be 
challenged to meet this objective to an unprecedented degree.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper, management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Management and accounting controls are critical to the success of 
any large organization, public or private, and I am committed to using 
my leadership in the Department of Transportation to assure that such 
controls are in place. It is my understanding that the Department, over 
the past decade or more, has been a leader in the use of performance 
management to set strategic objectives and measure progress toward 
meeting objectives. The Department's financial systems also enable it 
to obtain a clean and timely audit opinion on its annual financial 
statements. I expect to continue and expand these activities with the 
strong support of the Department's Inspector General, its Chief 
Financial Office and all of the members of the Agency's leadership 
team. These officials will clearly understand my high expectations for 
management performance, and will receive my full support for continued 
progress of the Department of Transportation as a recognized model for 
governmental management.
    While my personal experience does not include direct 
responsibilities for management in large organizations, my service in 
the Congress, particularly on the House Appropriations Committee, has 
given me the perspective to understand the importance of sound 
management and accountability in the use of public funds. I want the 
Department of Transportation to be seen as an agency that effectively 
serves the will of the public, and does so in a way that ensures 
transparency to those citizens who wish to understand its internal 
workings.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that the major challenges facing the Department of 
Transportation relate to its support of key national objectives. As I 
think about the department's future, I want its programs and activities 
to contribute to solutions in areas critical to the Nation's future.
    In the area of the economy, efficient and safe infrastructure is a 
fundamental requirement for recovery and growth. As a nation, we need 
to invest in our highways, bridges, ports, air and rail systems to 
strengthen user safety, bolster our long-term competitiveness and 
ensure that our economy achieves its growth potential. Through the 
Department of Transportation's programs, sound and well managed 
investments will move us in the right direction. An aviation system 
that works effectively is critical to the safe movement of people and 
goods in the conduct of our economic affairs. I believe we must support 
that system through the modernization of air traffic control and by 
working cooperatively with front line air traffic controllers and 
maintainers to restore morale and improve working conditions within the 
Federal Aviation Administration. We need also to get on with the 
development of a rail system that supports a growing economy with high-
speed passenger rail and a strengthened domestic freight rail system. 
Leadership in the Department of Transportation is needed to set the 
objectives in these are gain support for the resources needed and 
provide benchmarks to gauge progress.
    In the area of energy, the transportation system must play a 
central role in conservation and sound development of energy resources. 
Department of Transportation programs play a major role here as well. 
The fuel economy of nation's automobile fleet must continue to improve, 
and I look forward to working within the Administration and with the 
auto industry to achieve this goal. Beyond this, it is time to move to 
a new generation of vehicles with dramatic improvement in energy use. 
Investing in advanced vehicle technology and development of supportive 
policies for such vehicles, including their safety and the support 
infrastructure will be an important contribution to the national goals. 
So will the Department's support of efficient transportation modes--
effective public transportation in our cities and an intercity 
passenger rail system that revitalizes Amtrak as the foundation for 
high-speed rail connections among our regions. Making these initiatives 
happen is a key challenge, involving both resources and hands-on 
management and the revitalization of the Department's research and 
development skills.
    Environment is another area where the Department contributes to 
national goals and where I see a key set of challenges. Making global 
warming a top priority as well as dealing with other environmental 
concerns will require a new level of attention for our transportation 
systems as well as a new mindset for the Department's leadership. 
Increased energy efficiency in our vehicles and our passenger and 
freight transportation systems will significantly alleviate the problem 
of greenhouse gases. But for the long term, we also need to encourage 
more livable and sustainable communities, using the resources of 
Departmental programs to new ends. For too long, our patterns of urban 
development have been organized around the principle of cheap gasoline. 
As we invest wisely in the repair and development of our 
infrastructure, we must devote significantly more attention t 
investments that will make it easier for us to walk, bicycle and access 
other transportation alternatives. Among the key challenges here is the 
development of close working relationships with other Cabinet agencies 
whose goals and programs overlap with those of the Department of 
Transportation.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have been a Member of Congress and have worked on many 
legislative initiatives over the course of my fourteen year tenure, 
including introduction, sponsorship and passage of numerous bills.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethic official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official.

                            C. LEGAL MATTERS

    I. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment A
                   Congressman Ray LaHood (R-Peoria) 
                    Eighteenth District of Illinois

    Congressman Ray LaHood is serving his seventh and final term 
representing the 18th District of Illinois. First elected in 1994, Ray 
was re-elected to Congress on November 7, 2006, with over 67 percent of 
the vote.
    Ray is a former schoolteacher, a long-time community leader, and 
has extensive legislative experience, all of which combine to give him 
a unique perspective on his job as a Congressman.
    The district Ray represents includes the hometowns of several 
significant American leaders, such as Abraham Lincoln, Everett Dirksen, 
and Bob Michel. In fact, the 20 counties of the 18th District contain 
the same 11 counties Lincoln represented as a Congressman.

    Ray serves on the House Appropriations Committee, the panel that 
oversees Federal discretionary spending.
    Appropriations Committee Subcommittee Assignments:

  <bullet> Select Intelligence Oversight Panel, Ranking Member.

  <bullet> Subcommittee on Agricultural, Rural Development, Food and 
        Drug Administration, and Related Agencies.

  <bullet> Subcommittee on Legislative Branch.

    Since his first election, agriculture has been one of Ray's top 
priorities. With some of the finest farmland in the world, the 18th 
Congressional District has a tremendous farming heritage. Ray has been 
a leader in the promotion of ethanol and has supported policies which 
are allowing unprecedented expansion of ethanol production in Illinois. 
The Illinois Farm Bureau recognized Ray's leadership on agriculture 
issues y awarding him their highest honor in 2005, the Charles B. 
Shuman Distinguished Service Award.
    Ray has taken great pride in the 18th District's ties to Abraham 
Lincoln, and he has been an advocate for advancing the legacy of the 
16th President. Ray authored the law establishing the Abraham Lincoln 
Bicentennial Commission to lay the groundwork for celebrating Lincoln's 
200th birthday in 2009. He has also led efforts to establish the 
highly-successful Abraham Lincoln Presidential Library and Museum in 
Springfield.
    Ray is viewed as a leading proponent for preserving the Illinois 
River. He led efforts to secure Illinois' inclusion in the Conservation 
Reserve Enhancement Program, a unique and highly successful 
environmental program for the Illinois River, which has allowed over 
100,000 acres to be put into conservation easements. He has supported 
efforts to enhance the Chautauqua National Wildlife Refuge in Mason 
County, expand the Emiquon National Wildlife Refuge in Fulton County, 
and create the Hennepin-Hopper Lakes backwater restoration project. In 
recognition of his efforts for the river, Ray was awarded the Frank 
Bellrose Illinois River Valley Conservation Award in 2001 from the 
Illinois Chapter of The Nature Conservancy.
    Ray has led efforts to enhance Illinois' infrastructure. He has 
worked to secure funds to improve local highways, such as the 
reconstruction of Interstate 74 in Peoria, the expansion of U.S. Route 
67, and completion of Route 336. Ray has been a proponent for improving 
local airports through securing new construction and expansion, while 
also working with officials to increase air service.
    Over the years, Ray has been lauded by many for his leadership on 
the local, state, and national levels. He is widely viewed as someone 
who has a deep respect for the institution of Congress and who works 
across party lines to achieve policy goals.
    He has led efforts to establish a higher level of civility, 
decorum, and bipartisanship in the House of Representatives.
    His knowledge of Congress and his fair-handed demeanor have enabled 
him to be called upon many times to chair the House of Representatives 
during proceedings on contentious issues including the impeachment 
debate in 1998.
    Locally, Ray has led efforts to work with officials in a 
collaborative manner to address various issues facing the communities 
of the 18th District. He regularly convenes bipartisan meetings with 
the area's state representatives and senators and often meets with 
local mayors and other elected officials. Ray's greatest collaborative 
achievements include the establishment of a Federal health clinic in 
Peoria, the creation of the Peoria/NEXT business incubator, and moving 
forward with the-construction of the Peoria Riverfront Museum.
    Among Ray's highest priorities is helping focal communities with 
various efforts to attract industry and increase employment 
opportunities. Ray has particularly emphasized rural development 
through assisting economic efforts and infrastructure improvements in 
the many rural communities he represents.
    Ray LaHood was born December 6, 1945, and is a native of Peoria. He 
is the grandson of an immigrant from Lebanon and the son of a 
restaurant manager. Ray worked his way through school attending 
Spalding Institute high school, Canton Junior College, and Bradley 
University. He earned a B.S. degree in Education and Sociology from 
Bradley in 1971. In 2000, Ray received an honorary doctorate in 
Political Science from Lincoln College. In 2002, Ray received an 
honorary doctorate in Public Service from Eureka College. In 2004, Ray 
received an honorary doctorate in Humane Letters from Tri-State 
University; and in 2006 Ray received an honorary doctorate in Public 
Service from MacMurray College.
    A teacher by training, Ray started his career teaching junior high 
school students in Catholic and public schools. He then moved to Rock 
Island where he served as the Chief Planner for the Bi-State 
Metropolitan Commission, Director of the Rock Island Youth Services 
Bureau, and as District Administrative Assistant for Congressman Tom 
Railsback.
    After serving in the Illinois State House of Representatives in 
1982, Ray worked for U.S. House Republican Leader Robert Michel as 
District Administrative Assistant and, for 4 years, as Chief of Staff. 
He succeeded Mr. Michel upon his retirement in January 1995.
    Ray was named the 2001 Ray A. Neumann Tri-County Citizen of the 
Year by the Downtown Kiwanis Club of Peoria. In 1999, Ray received 
Peoria Notre Dame High School's Distinguished Alumnus award.
    Other awards Ray has received include: the Ellis Island Medal of 
Honor; the Chamber of Commerce's Spirit of Enterprise award; the Farm 
Bureau's Friend of Agriculture award; the Guardian of Small Business 
ward from the National Federal of Independent Business; the Guardian of 
Medicare Award from the United Seniors Association; the Tax Fighter 
Award from the National Tax-Limitation Committee; and the Manufacturing 
Legislative Excellence Award from the National Association of 
Manufacturers.
    Ray is married to Kathy and they have four children: Darin (wife: 
Kristen), Amy (husband: Kevin) Sam, and Sara (husband: Brian). They 
also have seven grandchildren (Ella, McKay, Henry, Luke, Oliver, 
Theodore, Brogan). Ray and Kathy are Roman Catholic and are members of 
Peoria's Cathedral of St. Mary of the Immaculate Conception.
                                 ______
                                 
                              ATTACHMENT B

                       Friends of Ray LaHood, 2000
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
10-May-97        Baker For Congress                  500
11-Aug-97        Baker For Congress               237.79
16-Oct-98        Baker For Congress               254.38
22-Feb-00        Baker For Congress                1,000  Primary
01-Jun-00        Baker For Congress                1,000  General
17-Oct-00        Ewing for Congress                  500  General
17-Oct-00        Ferguson for Congress               500  General
16-Oct-00        Fletcher for Congress             1,000  General
16-Oct-00        Friends of Clay Shaw              1,000  General
20-Sep-06        Friends of Clay Shaw              1,000  General
16-Oct-00        Friends of Nethercutt             1,000  General
16-Sep-98        Friends Of John Hostetler           500
16-Oct-00        Friends Of John Hostetler         1,000  General
20-Sep-06        Friends Of John Hostetler         1,000  General
17-Oct-00        Friends of Phill                    500  General
16-Oct-00        Friends of Don Sherwood           1,000  General
12-Jun-00        Friends of Tim Johnson            1,000  General
03-Apr-00        George W. Bush for President      1,000  General
17-Oct-00        Graves for Congress                 500  General
16-Oct-00        Hayes for Congress                1,000  General
31-Oct-07        Hayes for Congress                1,000  Primary 2008
20-Jun-00        Illinois Republican Party           500  General
24-Oct-02        Illinois Republican Party        15,500  General
12-May-04        Illinois Republican Party           100  General
20-Feb-08        Illinois Republican Party         2,000  General 2008
08-May-08        Illinois Republican Party            75  General 2008
17-Apr-08        Illinois Republican Party            50  General 2008
27-Jun-08        Illinois Republican Party           600  General 2008
24-Oct-00        Jay Dickey for Congress           1,000  General
17-Oct-00        John Koster for Congress            500  General
17-Oct-00        Johnson for Congress 2000           500  General
17-Oct-00        Keller for Congress                 500  General
17-Oct-00        Kline for Congress                  500  General
16-Oct-00        Kuykendall Cong. Committee        1,000  General
05-Jun-00        Lazio 2000                        1,000  General
12-Jun-00        Mark Kirk for Congress            1,000  General
02-Nov-06        Mark Kirk for Congress            1,000  General 2006
16-Sep-04        Mark Kirk for Congress            1,000  General
20-Sep-06        Mark Kirk for Congress            1,000  General
30-Aug-07        Mark Kirk for Congress            2,000  Primary 2008
15-Sep-08        Mark Kirk for Congress            1,000  General 2008
17-Oct-00        McDonald for Congress               500  General
27-Mar-00        National Republican Club of       74.88  Primary
                  Capitol Hill
30-Mar-00        National Republican Club of    1,571.82  Primary
                  Capitol Hill
01-Jun-00        National Republican Club of      458.49  General
                  Capitol Hill
26-Nov-01        National Republican Club of      941.82  Primary
                  Capitol Hill
02-May-02        National Republican Club of    1,425.60  General
                  Capitol Hill
16-Oct-00        Northup for Congress              1,000  General
27-Mar-02        Northup for Congress              1,000  General
17-Oct-00        Pence for Congress                  500  General
13-Feb-97        Peoria County Republican            320
                  Central Comm
18-Feb-97        Peoria County Republican             80
                  Central Comm
23-Jun-97        Peoria County Republican            120
                  Central Comm
04-Sep-97        Peoria County Republican            240
                  Central Comm
23-Feb-98        Peoria County Republican            100
                  Central Comm
20-Oct-98        Peoria County Republican         600.15
                  Central Comm
05-Nov-98        Peoria County Republican         208.64
                  Central Comm
24-Nov-98        Peoria County Republican            240
                  Central Comm
04-Feb-99        Peoria County Republican            100  Primary
                  Central Comm
08-Feb-99        Peoria County Republican            320  Primary
                  Central Comm
27-Jul-99        Peoria County Republican            100  Primary
                  Central Comm
27-Jan-00        Peoria County Republican            650  Primary
                  Central Comm
07-Feb-00        Peoria County Republican            100  Primary
                  Central Comm
31-Jul-00        Peoria County Republican            300  General
                  Central Comm
18-Oct-00        Peoria County Republican            500  General
                  Central Comm
08-Feb-01        Peoria County Republican            100  Primary
                  Central Comm
09-Feb-01        Peoria County Republican            400  Primary
                  Central Comm
21-Feb-01        Peoria County Republican            400  Primary
                  Central Comm
07-Aug-01        Peoria County Republican            100  Primary
                  Central Comm
10-Feb-02        Peoria County Republican            400  Primary
                  Central Comm
23-Jul-02        Peoria County Republican            100  General
                  Central Comm
20-Feb-03        Peoria County Republican          1,000  Primary
                  Central Comm
24-Feb-04        Peoria County Republican            400  Primary
                  Central Comm
26-Feb-04        Peoria County Republican            600  Primary
                  Central Comm
07-Apr-04        Peoria County Republican          3,500  General
                  Central Comm
16-Sep-04        Peoria County Republican            250  General
                  Central Comm
24-Feb-05        Peoria County Republican            400  Primary 2006
                  Central Comm
01-Mar-06        Peoria County Republican          1,000  Primary 2006
                  Central Comm
01-Jul-06        Peoria County Republican            800  General
                  Central Comm
25-Jul-06        Peoria County Republican            141  General
                  Central Comm
14-Feb-07        Peoria County Republican          1,000  Primary 2008
                  Central Comm
20-Sep-07        Peoria County Republican          3,500  Primary 2008
                  Central Comm
29-Nov-07        Peoria County Republican          1,000  Primary 2008
                  Central Comm
17-Oct-00        Rehberg for Congress                500  General
16-Oct-00        Re-elect Brian Bilbray to         1,000  General
                  Congress
16-Oct-00        Rogan Campaign Committee          1,000  General
20-Oct-00        Sessions for Congress             1,000  General
12-Mar-04        Sessions for Congress             1,000  Primary
17-Oct-00        Shelly Moore Capito for             500  General
                  Congress
17-Oct-00        Smith for Congress                  500  General
24-Oct-00        Tiberi for Congress                 500  General
16-Oct-00        Tom Tancredo for Congress         1,000  General
------------------------------------------------------------------------


                       Friends of Ray LaHood, 2002
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
07-Aug-02        Activator Federal Fund         1,679.95  General
02-Oct-02        Activator Federal Fund         2,129.73  General
30-Oct-02        Bob Ehrlich for Maryland          1,000  General
25-Jul-01        Buyer for Congress                1,000  Primary
02-Nov-01        Chambliss for Senate              1,000  Primary
09-May-02        Citizens for Jim Ryan             1,000  General
29-Jul-02        Citizens for Jim Ryan             1,000  General
21-Mar-02        Citizens for Jon Porter           1,000  General
23-Oct-02        Citizens for Justice Garman       1,000  General
23-Oct-02        Committee to Elect Jon            1,000  General
                  Turner
24-Oct-02        Illinois Republican Party        15,500  General
21-Feb-02        Latham for Congress               1,000  Primary
25-Feb-02        Lindsay Graham for Senate         1,000  Primary
19-Dec-00        Bill McCollom                     1,000  Primary
26-Nov-01        National Republican Club of      941.82  Primary
                  Capitol Hill
02-May-02        National Republican Club of    1,425.60  General
                  Capitol Hill
04-Oct-02        National Republican              78,000  General
                  Congressional Comm
07-Nov-02        National Republican              709.68  Primary
                  Congressional Comm
16-Oct-00        Northup for Congress              1,000  General
27-Mar-02        Northup for Congress              1,000  General
29-Jan-01        Sangamon County Republican          500  Primary
                  Central Comm
21-Jun-01        Sangamon County Republican          100  Primary
                  Central Comm
11-Feb-02        Sangamon County Republican          700  Primary
                  Central Comm
11-Dec-01        Sununu for Senate                 1,000  Primary
01-Nov-02        Taff for Congress                 1,000  General
20-Dec-01        Volunteers for Shimkus            1,000  Primary
------------------------------------------------------------------------


                       Friends of Ray LaHood, 2004
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
05-May-04        Andrea Lane Zinga for               250  General
                  Congress
30-Jul-04        Andrea Lane Zinga for               750  General
                  Congress
20-Nov-03        Bill Shuster for Congress         1,000  Primary
25-Jun-03        Bush Cheney '04, Inc.             1,000  Primary
28-Apr-03        CNA Citizens for Good             1,000  Primary
                  Government
14-Oct-04        Citizens for Judge Holdridge      1,000  General
02-Sep-04        Citizens for Karmeier               500  General
11-Dec-03        Citizens for Schock               1,000  Primary
20-Sep-04        Citizens for Schock               5,000  General
18-Nov-04        Citizens for Schock                 500  Primary
17-Jun-04        Crane for Congress                1,000  General
10-May-04        Cubin for Congress                1,000  General
12-Mar-04        David Vitter for U.S. Senate      1,000  Primary
11-Mar-04        Diedrich for Congress             1,000  Primary
11-Feb-03        Friends of Gwen Klingler            500  Primary
17-Jun-04        Friends of Jack Quinn             1,000  General
20-Mar-03        Friends of John Boehner           1,000  Primary
11-Mar-04        Friends of Mike Ferguson          1,000  Primary
20-Oct-04        Friends of Paul Palazzolo           500  General
25-Jun-03        Friends of Tim Johnson            1,000  Primary
10-May-04        Friends of Tim Johnson            1,000  General
01-Oct-03        George Nethercutt for U.S.        2,000  Primary
                  Senate
16-Sep-04        George Nethercutt for U.S.        1,000  General
                  Senate
23-Sep-04        Georgians for Isakson             1,000  General
02-Jul-04        Greg Dority for Congress          1,000  General
16-Sep-04        Hastert for Congress              1,000  General
16-Sep-04        Hyde for Congress                 1,000  General
11-Feb-03        Illinois Corn Growers Assn.       2,000  Primary
                  PAC
23-Sep-04        Jerry Weller for Congress         1,000  General
11-Feb-04        Jim Hansen for Governor           1,000  Primary
16-Sep-04        Judy Biggert for Congress         1,000  General
11-Feb-04        Kerr for Congress                 1,000  Primary
08-Apr-03        Knox County Republican Party        500  Primary
17-Apr-03        Macon County Republican             100  Primary
                  Central Comm
22-Jul-04        Macon County Republican           2,000  General
                  Central Comm
16-Sep-04        Manzullo for Congress             1,000  General
20-Sep-06        Manzullo for Congress             1,000  General
12-Jun-00        Mark Kirk for Congress            1,000  General
16-Sep-04        Mark Kirk for Congress            1,000  General
08-Jan-04        Mitch Daniels for Governor        1,000  Primary
                  Campaign Comm
24-Feb-03        Musgrave for Congress             1,000  Primary
                  Committee
01-Jul-03        Musgrave for Congress             1,000  Primary
                  Committee
12-Nov-02        National Assn. of Postal          1,000  Primary
                  Unions PAC
07-Nov-02        National Republican              709.68  Primary
                  Congressional Comm
22-May-03        National Republican            3,389.50  Primary
                  Congressional Comm
26-Nov-03        National Republican            1,252.56  Primary
                  Congressional Comm
12-Aug-04        National Republican              83,500  General
                  Congressional Comm
30-Aug-06        National Republican             100,000  General
                  Congressional Comm
23-Sep-04        Nussle for Congress               1,000  General
20-Feb-03        Peoria County Republican          1,000  Primary
                  Central Comm
24-Feb-04        Peoria County Republican            400  Primary
                  Central Comm
26-Feb-04        Peoria County Republican            600  Primary
                  Central Comm
07-Apr-04        Peoria County Republican          3,500  General
                  Central Comm
16-Sep-04        Peoria County Republican            250  General
                  Central Comm
15-Mar-04        Petroleum Marketers PAC           1,000  Primary
23-Jan-03        Sangamon County Republican          500  Primary
                  Central Comm
30-Jan-03        Sangamon County Republican          100  Primary
                  Central Comm
02-Feb-04        Sangamon County Republican          600  Primary
                  Central Comm
12-Mar-04        Sessions for Congress             1,000  Primary
15-Oct-03        The Richard Burr Committee        2,000  Primary
16-Sep-04        The Richard Burr Committee        1,000  General
01-Sep-04        Tom Ernst for Senate              1,000  General
16-Sep-04        Volunteers for Shimkus            1,000  General
------------------------------------------------------------------------


                       Friends of Ray LaHood, 2006
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
21-Sep-06        Bass Victory Committee            1,000  General 2006
19-Jan-06        Brian Bilbray for Congress        2,000  Primary 2006
30-Oct-06        Brian Bilbray for Congress        1,000  General 2006
21-Sep-06        Cathy McMorris For Congress       1,000  General 2006
21-Sep-06        Chocola For Congress              1,000  General 2006
22-Mar-06        Cubin for Congress                1,000  General 2006
30-Oct-06        Cubin for Congress                1,000  General 2006
14-Sep-05        David McSweeney for Congress      2,000  Primary 2006
03-Apr-06        David McSweeney for Congress      2,000  General
22-Mar-06        Friends of Ernest Istook            500  General 2006
22-Mar-06        J.D. Hayworth for Congress        1,000  General 2006
02-Nov-06        J.D. Hayworth for Congress        1,000  General 2006
08-Feb-06        Jim Gerlach for Congress          1,000  Primary 2006
21-Sep-06        Jim Gerlach for Congress          1,000  General
02-Nov-06        Mark Kirk for Congress            1,000  General 2006
20-Sep-06        Mark Kirk for Congress            1,000  General
30-Aug-07        Mark Kirk for Congress            2,000  Primary 2008
02-Sep-05        National Republican              25,000  Primary 2006
                  Congressional Comm
30-Aug-06        National Republican             100,000  General
                  Congressional Comm
24-Feb-05        Peoria County Republican            400  Primary 2006
                  Central Comm
01-Mar-06        Peoria County Republican          1,000  Primary 2006
                  Central Comm
01-Jul-06        Peoria County Republican            800  General
                  Central Comm
25-Jul-06        Peoria County Republican            141  General
                  Central Comm
03-Feb-05        Ray LaHood for Illinois          50,000  Primary 2006
08-Mar-06        Roskam Illinois Victory           1,000  Primary 2006
                  Committee
13-Jan-05        Sangamon County Republican          600  Primary 2006
                  Central Comm
26-Jan-06        Sangamon County Republican          600  Primary 2006
                  Central Comm
08-Feb-06        Schwarz for Congress              1,000  Primary 2006
03-Oct-05        Van Hilleary for Senate           1,000  Primary 2006
30-Nov-05        Wine Institute PAC                1,000  Primary 2006
07-Dec-05        Zinga for Congress                1,000  Primary 2006
03-Apr-06        Zinga for Congress                2,000  General 2006
------------------------------------------------------------------------


                       Friends of Ray LaHood, 2008
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
07-Feb-07        Adams County Republican             375  Primary 2008
                  Central Comm
07-Mar-07        Brown County Republican CC          100  Primary 2008
02-Mar-07        Capitol GA-10 Congressional       2,000  Primary 2008
                  Victory Comm
02-Nov-07        Cindy Ardis Jenkins for           1,000  Primary 2008
                  State Rep.
29-Nov-07        Citizens for Ardis                  250  Primary 2008
24-May-07        Citizens for Chris Reif             100  Primary 2008
12-Sep-07        Citizens for Leitch                 250  Primary 2008
15-Sep-08        Citizens for McCoy                  150  General 2008
26-Mar-07        Citizens for Unes                   400  Primary 2008
15-Jun-07        Committee to Elect David          2,000  Primary 2008
                  Cappiello
20-Sep-07        Committee to Elect McHugh         2,000  Primary 2008
15-Jun-07        Dan Burton for Congress           2,000  Primary 2008
05-Feb-07        David McSweeney for Congress      1,000  Primary 2008
31-Oct-07        Dennis Conover for Tazewell         100  Primary 2008
                  Cty Coroner
20-Sep-07        Duncan D. Hunter for              1,000  Primary 2008
                  Congress
31-Oct-07        Fed. of IL Young Republicans        250  Primary 2008
12-Feb-07        The Freedom Project               5,000  Primary 2008
28-Jan-08        The Freedom Project               5,000  Primary 2008
20-Jun-08        Friends for Joan Krupa            5,000  General 2008
07-Jan-08        Friends of Sally & Carla            250  Primary 2008
30-Aug-07        Friends of Tim Johnson            2,000  Primary 2008
15-Sep-08        Friends of Tim Johnson            1,000  General 2008
10-Oct-07        Friends of Zach Wamp              2,000  Primary 2008
14-Jan-08        Gary Joseph for Woodford            150  Primary 2008
                  County Board
20-Sep-07        Gilchrest for Congress            1,000  Primary 2008
31-Oct-07        Hayes for Congress                1,000  Primary 2008
20-Feb-08        Illinois Republican Party         2,000  General 2008
08-May-08        Illinois Republican Party            75  General 2008
17-Apr-08        Illinois Republican Party            50  General 2008
27-Jun-08        Illinois Republican Party           600  General 2008
21-Sep-07        Jim McConoughey for Congress      2,000  Primary 2008
20-Mar-07        John McCain 2008                  2,000  Primary 2008
20-Feb-08        John McCain 2008                  2,000  General 2008
12-Sep-07        John Morris for Congress          2,000  Primary 2008
01-May-08        John Stephen for Congress           500  General 2008
20-Feb-08        Johnna Ingersoll Coroner            250  General 2008
30-Aug-07        Judy Biggert for Congress         2,000  Primary 2008
15-Sep-08        Judy Biggert for Congress         1,000  General 2008
12-Dec-07        Knollenberg for Congress          2,000  Primary 2008
15-Sep-08        Lincoln Diaz-Balart for             500  General 2008
                  Congress
07-Feb-07        Logan County Republican             100  Primary 2008
                  Central Comm
28-Jan-08        Logan County Republican             100  Primary 2008
                  Central Comm
20-Jun-08        Macon County Republican             625  General 2008
                  Central Comm
30-Aug-07        Manzullo for Congress             2,000  Primary 2008
15-Sep-08        Manzullo for Congress             1,000  General 2008
05-Nov-08        Manzullo for Congress             1,000  Primary 2010
15-Sep-08        Mario Diaz-Balart for               500  General 2008
                  Congress
02-Nov-06        Mark Kirk for Congress            1,000  General 2006
30-Aug-07        Mark Kirk for Congress            2,000  Primary 2008
15-Sep-08        Mark Kirk for Congress            1,000  General 2008
14-Feb-07        Marshall County Republicans         100  Primary 2008
16-Feb-07        Mary Bono Mack Committee          2,000  Primary 2008
14-Feb-08        Mary Bono Mack Committee          2,000  General 2008
14-Mar-07        Mason County Republican             100  Primary 2008
                  Central Comm
07-Nov-07        Menard County Republican            100  Primary 2008
                  Central Comm
20-Feb-08        Menard County Republican            500  General 2008
                  Central Comm
31-Oct-07        Mike Stroh for State's              500  Primary 2008
                  Attorney
30-Aug-07        Minn-Dak Farmers Cooperative      1,000  Primary 2008
                  PAC
30-Apr-07        Mitch Daniels for Governor        1,000  Primary 2008
                  Campaign Comm
25-Apr-07        Morgan County Republican            150  Primary 2008
                  Central Comm
01-May-08        Morgan County Republican            150  General 2008
                  Central Comm
11-Jan-07        National Republican              25,000  Primary 2008
                  Congressional Comm
09-Mar-07        National Republican              30,000  Primary 2008
                  Congressional Comm
08-Sep-07        National Republican              50,000  Primary 2008
                  Congressional Comm
29-Nov-07        OH-5 Congressional Victory        2,000  Primary 2008
                  Committee
01-Oct-07        Oberweis for Congress             2,000  Primary 2008
01-Oct-07        Ogonowski for Congress            2,000  Primary 2008
12-Aug-07        People with Hart                  2,000  Primary 2008
12-Jul-07        People's Party of Peoria            250  Primary 2008
                  Heights
07-Feb-07        Peoria Co. Republican               125  Primary 2008
                  Women's Club
06-Aug-07        Peoria Co. Republican               100  Primary 2008
                  Women's Club
28-Feb-08        Peoria Co. Republican               125  General 2008
                  Women's Club
14-Feb-07        Peoria County Republican          1,000  Primary 2008
                  Central Comm
20-Sep-07        Peoria County Republican          3,500  Primary 2008
                  Central Comm
29-Nov-07        Peoria County Republican          1,000  Primary 2008
                  Central Comm
26-Sep-07        Pete King for Congress            2,000  Primary 2008
30-May-07        Pike County Republican              100  Primary 2008
                  Committee
14-Feb-07        Putnam County Republican            100  Primary 2008
                  Central Comm
19-Nov-07        Republican Main Street PAC        5,000  Primary 2008
30-Aug-07        Roskam for Congress               2,000  Primary 2008
15-Sep-08        Roskam for Congress               1,000  General 2008
24-Jan-07        Sangamon County Republican        1,000  Primary 2008
                  Central Comm
20-Sep-07        Sangamon County Republican        2,500  Primary 2008
                  Central Comm
14-Jan-08        Sangamon County Republican        1,100  Primary 2008
                  Central Comm
31-Oct-07        Sangamon Cty Board Repub            500  Primary 2008
                  Election Comm
25-Oct-07        Schock for Congress               2,000  Primary 2008
12-Feb-07        Sweeney for Congress, Debt        2,000  Primary 2008
                  Retirement
12-Nov-07        Team Sununu                       2,000  Primary 2008
30-Aug-07        Volunteers for Shimkus            2,000  Primary 2008
15-Sep-08        Volunteers for Shimkus            1,000  General 2008
30-Aug-07        Walsh for Congress                2,000  Primary 2008
14-Feb-07        Woodford County Republican          275  Primary 2008
                  Central Comm
15-Aug-07        Woodford County Republican          100  Primary 2008
                  Central Comm
------------------------------------------------------------------------


                     Abraham Lincoln Leadership PAC
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
22-Mar-06        Brian Bilbray for Congress        1,000  General
15-Jul-05        Citizens for Frank Watson         1,000  Primary
02-Oct-06        Fitzpatrick for Congress          1,000  General
04-May-06        Friends of Ernest Istook            500  General
15-Jul-05        Friends of Peter Roskam           1,000  Primary
02-Oct-06        McSweeney for Congress 2006       1,000  General
17-Aug-05        Otter for Idaho                   1,000  Primary
02-Oct-06        Roskam for Congress               1,000  General
02-Oct-06        Whalen for Congress               1,000  General
02-Oct-06        Zinga for Congress                1,000  General
04-Oct-02        Bass for Congress                 1,000  General
04-Oct-02        Bentley for Congress                500  General
15-Oct-02        Bob Beauprez for Congress           500  General
19-Oct-04        Bob Beauprez for Congress         1,000  General
19-Oct-02        Cass Ballenger for Congress         500  General
06-Sep-02        Chris Chocola for Congress          500  General
15-Oct-02        Cole for Congress                   500  General
30-Oct-02        Friends of Clyde Holloway           500  Primary
06-Sep-02        Friends of Connie Morella         1,000  General
19-Oct-02        Friends of Marilyn F O'Grady        500  General
27-Sep-02        Friends of Sheri Boehlert           500  General
15-Oct-02        Ganske for Senate                   500  General
06-Sep-02        Gekas for Congress                1,000  General
06-Sep-02        Hayes for Congress                1,000  General
06-Sep-02        Heather Wilson for Congress       1,000  General
19-Oct-04        Heather Wilson for Congress       1,000  General
04-Oct-02        Jeb Bradley for Congress            500  General
                  Committee
15-Oct-02        Jim Gerlach for Congress            500  General
13-Oct-04        Jim Gerlach for Congress          1,000  General
19-Oct-02        Jo Bonner for Congress            1,000  General
15-Oct-02        John Thune for South Dakota       1,000  General
27-Sep-02        Kennedy 2002                        500  General
01-Aug-02        Knollenberg for Congress            500  General
                  Committee
15-Oct-02        McCotter Congressional              500  General
                  Committee
19-Oct-02        Musgrave for Congress               500  General
19-Oct-04        Musgrave for Congress             1,000  General
25-Jun-02        Nussle for Congress               1,000  Primary
19-Oct-02        Nussle for Congress               1,000  General
14-Mar-02        Pat Toomey for Congress           1,000  Primary
15-Oct-02        Pearce for Congress                 500  General
06-Sep-02        Pickering for Congress            1,000  General
15-Oct-02        Raye for Congress                   500  General
06-Sep-02        Re-elect Nancy Johnson to         1,000  General
                  Congress Comm
15-Oct-02        Renzi for Congress                  500  General
15-Oct-02        Richard Pombo for Congress        1,000  General
06-Sep-02        Shelly Moore Capito for           1,000  General
                  Congress
06-Sep-02        Simmons for Congress              1,000  General
19-Sep-02        Taff for Congress                 1,000  General
22-Oct-02        Texans for Henry Bonilla          1,000  General
15-Oct-02        Thousands of South Dakotans         500  General
06-Sep-02        Tom Feeney for Congress             500  General
27-Sep-02        Volunteers for Shimkus            1,000  General
20-Sep-04        Andrea Lane Zinga for             1,000  General
                  Congress
13-Oct-04        Andrea Lane Zinga for             1,000  General
                  Congress
15-Oct-02        Bob Beauprez for Congress           500  General
19-Oct-04        Bob Beauprez for Congress         1,000  General
19-Jun-04        Crane for Congress                1,000  General
19-Oct-04        Crane for Congress                1,000  General
06-May-04        Curt Bromm for Congress           1,000  Primary
21-Oct-03        Fletcher for Governor             1,000  Primary
29-Jul-04        Friends of Sherwood Boehlert      1,000  General
06-Sep-02        Heather Wilson for Congress       1,000  General
19-Oct-04        Heather Wilson for Congress       1,000  General
19-Oct-04        Illinois Republican Party        10,000  General
14-Jan-08        Illinois Republican Party         4,300  Primary
15-Oct-02        Jim Gerlach for Congress            500  General
13-Oct-04        Jim Gerlach for Congress          1,000  General
20-Nov-02        Lee Fletcher for Congress         1,000  General
13-Oct-04        Mark Kennedy for Congress         1,000  General
19-Oct-02        Musgrave for Congress               500  General
19-Oct-04        Musgrave for Congress             1,000  General
19-Oct-04        Nancy Naples for Congress         1,000  General
19-Oct-04        Rick Renzi for Congress           1,000  General
19-Oct-04        Rob Simmons for Congress          1,000  General
------------------------------------------------------------------------


                         Ray LaHood for Illinois
Contributions to individuals, campaign organizations, political parties,
            political action committees, or similar entities
------------------------------------------------------------------------
                                                 Amount
      Date                   Name                (in $)       Period
------------------------------------------------------------------------
01-Sep-06        Citizens for McCoy                  500  General
21-Sep-06        Citizens for McCoy                  500  General
30-Aug-07        Citizens for McCoy                  500  Primary
30-Aug-07        Citizens for McCoy                  500  Primary
25-Aug-08        Citizens for McCoy                  500  General
15-Sep-08        Citizens for McCoy                  500  General
15-May-06        Citizens for McGlynn                500  General
26-Oct-06        Citizens for Myers                  500  General
08-Jun-06        Citizens for Peraica                500  General
03-Aug-06        Citizens for Peraica                500  General
04-May-06        Citizens for Radogno                500  General
15-Aug-06        Citizens for Radogno                500  General
06-Oct-05        Citizens for Schock                 500  Primary
12-Dec-05        Citizens for Schock                 500  Primary
01-Mar-06        Citizens for Schock                 500  Primary
22-Sep-06        Citizens for Schock                 500  General
12-Oct-06        Citizens for Schock                 500  General
26-Oct-06        Citizens for Schock                 500  General
10-Jul-06        Citizens to Elect Jil Tracy         500  General
15-Aug-06        Citizens to Elect Jil Tracy         500  General
22-Sep-06        Citizens to Elect Jil Tracy         500  General
15-Jun-06        Citizens to Elect Joe               500  General
                  Birkett
28-Nov-05        Committee to Elect Steve            500  Primary
                  Haring
06-Mar-06        Daryl Dagit for State               500  Primary
                  Representative
21-Sep-06        Daryl Dagit for State               500  General
                  Representative
26-Oct-06        Daryl Dagit for State               500  General
                  Representative
23-Feb-05        Douglas County RCC                  600  Primary
13-Apr-05        Douglas County RCC                1,000  Primary
01-Apr-05        Douglas County RCC                1,000  Primary
01-Jul-06        Ernie Russell for State           1,000  Primary
                  Senate
22-Mar-06        Friends for Jeff Richey           1,000  General
22-Sep-06        Friends for Jeff Richey           1,000  General
26-Oct-06        Friends for Jeff Richey           1,000  General
03-Oct-05        Friends for Poe                   1,000  Primary
27-Oct-05        Friends for Richard Brauer        1,000  Primary
30-May-06        Friends for Richard Brauer        1,000  General
11-Jan-07        Friends of George Jacob           1,000  Primary
13-Oct-05        Friends of Jack Quinn             1,000  Primary
14-Jul-06        Friends of Jack Quinn             1,000  General
11-Oct-06        Friends of Judge Bordner          1,000  General
21-Jan-07        Friends of Ryan Spain             1,000  Primary
11-Apr-07        Friends of Ryan Spain             1,000  Primary
16-Nov-05        Friends of Stu Umholtz            1,000  Primary
03-Apr-06        Friends of Stu Umholtz            1,000  General
15-Aug-06        Friends of Stu Umholtz            1,000  General
12-Jan-06        GIPAC, Illinois Nurserymen's      1,000  Primary
                  Association
13-Mar-06        Citizens for Gambill              1,000  Primary
04-May-06        Gary Dahl for State Senate        1,000  General
21-Sep-05        Gibbons for Governor              1,000  Primary
12-Aug-07        Illinois Republican Party         1,000  Primary
15-Aug-06        Illinois Republican Party         1,000  General
15-Sep-05        Iowans for Nussle                 1,000  Primary
28-Sep-05        Jim Durkin Campaign               1,000  Primary
                  Committee
19-Oct-05        Knox County RCC                   1,000  Primary
19-Oct-05        Logan County RCC                  1,000  Primary
19-Oct-05        Macon County RCC                  1,000  Primary
19-Oct-05        Marshall County RCC               1,000  Primary
19-Oct-05        Mason County RCC                  1,000  Primary
17-Mar-05        Menard County RCC                 1,000  Primary
19-Oct-05        Menard County RCC                 1,000  Primary
02-Nov-06        Menard County RCC                 1,000  General
16-Nov-05        Mitzelfelt for County Clerk       1,000  Primary
04-May-06        Mitzelfelt for County Clerk       1,000  General
15-Aug-06        Mitzelfelt for County Clerk       1,000  General
01-Sep-06        Mitzelfelt for County Clerk       1,000  General
02-Nov-06        Mitzelfelt for County Clerk       2,000  General
19-Oct-05        Morgan County RCC                 2,000  Primary
16-Aug-06        Otter for Idaho                   2,000  General
15-Aug-06        People for Pankau                 2,000  General
06-Oct-05        Peoria County RCC                 2,000  Primary
19-Oct-05        Peoria County RCC                 2,000  Primary
19-Oct-05        Pike County RCC                   2,000  Primary
02-Oct-06        Pike County RCC                   2,000  General
19-Oct-05        Putnam County RCC                 2,500  Primary
28-Sep-05        Rutherford Campaign               2,500  Primary
                  Committee
16-Nov-05        Rutherford Campaign               2,500  Primary
                  Committee
15-Aug-06        Rutherford Campaign               3,000  General
                  Committee
16-Oct-06        Rutherford Campaign               4,000  General
                  Committee
10-Jul-06        Sangamon County Republican        4,000  General
                  Election Comm
19-Oct-05        Sangamon County RCC               4,500  Primary
27-Jul-06        Sangamon County RCC               5,000  General
02-Oct-06        Sangamon County RCC               5,000  General
16-Feb-05        Schuyler County RCC               5,000  Primary
19-Oct-05        Schuyler County RCC               5,000  Primary
19-Oct-05        Scott County RCC                  5,000  Primary
19-Oct-05        Stark County RCC                  5,000  Primary
01-Sep-06        Stark County RCC                  5,000  General
19-Oct-05        Tazewell County RCC               5,000  Primary
01-Sep-05        Todd Smith--County Board         10,000  Primary
17-Jul-06        Todd Smith--County Board         10,000  General
15-Sep-05        Tom Osborne for Governor         10,000  Primary
30-Mar-05        Will County RCC                  10,000  Primary
15-Sep-05        Will County RCC                  10,000  Primary
19-Oct-05        Woodford County RCC              10,000  Primary
14-Jul-06        Woodford County RCC              25,000  General
------------------------------------------------------------------------


    The Chairman. Thank you very much. There are so many 
questions to answer. And maybe I will just start with what has 
already been discussed by the distinguished Ranking Member and 
others. And that is the whole question of our air traffic 
control system, funding for the FAA, getting a reauthorization 
bill out in time.
    I have always been stunned. I have a new trick which I use 
which actually works, and that is I say that Mongolia has a 
more modern air traffic control system than we do. It happens 
that they don't have any at all right now, but they're building 
one and it's digitalized and it runs on GPS.
    We have our old system which we blithely accept. As we 
accept enormous delays knowing perfectly well that if you could 
reconfigure runways at O'Hare, which has been done to some 
extent, if you had an air traffic control system that was 
digitalized under GPS, you'd probably have a one-third 
efficiency pick up in the skies.
    Well, to do that it costs money. And in order to build the 
new air traffic control system it obviously requires new money. 
Also, you have to maintain the old one as you're building the 
new one. So that's a double hit.
    Traditionally the FAA has been underfunded. And 
traditionally many of our programs, which we'll be discussing 
over the coming months, have been underfunded. But I'm just 
interested in your attitude, Representative LaHood as to this 
question of NextGen and efficiency in our skies.
    Mr. LaHood. Mr. Chairman, my top priorities is to find the 
most talented FAA Administrator that we can find, and then 
recommend that person to President Obama so he can recommend 
that person to the Senate for confirmation. The FAA 
administrator is one of the most important positions in the 
Department, and we've talked a lot about that position during 
my transition.
    We need someone who can help resolve some of these disputes 
that have taken place between the controllers and the agency. 
That has to be a priority. We have to have people in these 
TRACONs. We have to have FAA employees that like going to work 
every day because they have very important jobs. All of us that 
fly as often as we do want to make sure that people who are 
controlling aircraft are satisfied with their work.
    So I'm trying to find somebody, who is willing to come into 
the job, work with the controllers to resolve the dispute and 
get that issue off the table so that it does not become 
something that we or the President is going to have to deal 
with. That is a top priority.
    The next priority in the FAA is obviously NextGen.
    The Chairman. Can I interrupt for one second?
    Mr. LaHood. Yes, sir.
    The Chairman. One of the problems, and you brought it up 
very distinctly, is how we fund the new air traffic control 
system. We have a system now wherein, so called legacy 
airlines--and there used to be so many just like trains, and 
now there are many fewer--are bearing 92 percent of the cost of 
running our analog air traffic control system.
    Whereas the great majority of airplanes, and I don't 
include crop dusters or King Airs or anything in that category, 
but private jets, things of this sort have to be treated the 
same way by an air traffic controller, same attention, and 
they're paying for about 8 percent of the cost. That doesn't 
strike me as entirely fair.
    Do you have thoughts on this?
    Mr. LaHood. I do, Mr. Chairman. My thought is that when we 
look at NextGen, we need to look at a bigger picture of how we 
get to where we want to be. But then we need to set a very 
realistic benchmark.
    Based on what I've been able to learn from the experts, we 
need to look at how we get the next five to 8 years out in 
terms of really getting to NextGen with the idea that it's 
going to take much longer than that. So that everybody in the 
industry, everybody that uses the equipment, everybody that's 
involved in this, realizes that we have an attainable short-
term goal that fits into the longer-term goal of getting to the 
implementation of NextGen. But this idea of having some kind of 
pie in the sky idea for getting to NextGen without an avenue to 
do it, and I think the avenue is in the next 5 to 8 years, the 
industry, the controllers, everybody knows this is where we're 
going. This is the road map.
    Then the overall goal is to complete that. That's my idea 
on it. I know this NextGen-technology is not inexpensive, but 
we have to do it. There has to be a commitment from the 
Congress, from the FAA, and from all the stakeholders, to get 
this done. The flying public deserves it.
    The Chairman. I thank you, sir. And I'll just close for 
yielding to Senator Hutchison that we had a number of these 
meetings where we asked the legacy airlines, the general 
aviation community, and the various unions involved to get 
together and figure out what would be a fair way to fund a 
modern air traffic control system and yet have it reflect in 
some way, the usage of that system. And we got nowhere, as you 
know.
    So I just put that on your plate with some feeling and call 
on Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. Representative 
LaHood, do you support the full national Amtrak system?
    Mr. LaHood. Well, the bill that Congress passed last year 
is a very good bill and I fully intend on working with Congress 
to implement it. I think it's the way forward to get us a 
comprehensive Amtrak system in this country. I'm not an 
independent operator anymore because I didn't get elected to 
anything last November but, during my 14 years in Congress, 
I've been a strong supporter of Amtrak. It's the life blood for 
many, many communities around the country. And I will work with 
all of you to implement the Amtrak bill. I think it's a good 
bill.
    Senator Hutchison. Thank you. Toll roads. Recently I think 
we have focused really too strongly, in my opinion, on 
privately-financed toll roads to solve the problems of urban 
congestion.
    And in many instances this has taken on, I think, 
abdication of private property rights. I am very concerned 
about our Federal Government giving incentives to promote these 
and in some instances allowing tolls over every lane of a 
Federal highway that the taxpayers have already built. What is 
your position on tolling Federal highways that have already 
been paid for by the taxpayers for as many as 10 and 12 miles 
every lane?
    I think it is breaking our contract with the people that we 
would have a Federal highway system that would promote commerce 
because they are freeways. And I would like to see what your 
position is. And what this Administration will do in regard to 
these massive toll roads.
    Mr. LaHood. One of our big challenges, Senator, is to find 
ways to plus up the Highway Trust Fund. All of us who were 
around here last year know that we had to provide $8 billion to 
plus it up. We're going to reauthorize the surface 
transportation bill this year. And there's not going to be 
enough money to do all the things that we all want to do.
    So, I think we do have to think outside of the box, and 
part of thinking outside of the box is the idea that, in 
building new lanes, adding lanes on, or building additional 
roadways, we would have tolling pay for part of that. Now, 
taking a part of the existing interstate highway, that people 
are already using and putting tolls on that, I personally do 
not think that is a good idea. Obviously, it's something that 
people will talk about. But it's not something that I 
personally think is a good idea.
    But I do think the idea if you want to add an additional 
lane to a road and you want to toll it. If you want to build a 
bridge, which costs an enormous amount of money, I think people 
ought to think about tolls on the bridge as a way to pay for it 
and as a way to maintain it. But the idea of taking an 
interstate road and putting a toll booth on it, I think is not 
a good idea, Senator.
    Senator Hutchison. Well thank you. That's the answer. I 
have said that I agree. We should be able to toll a lane to 
build another lane. But that doesn't close the free lanes that 
are there. And you're keeping the same number of free lanes.
    And I also think with local input and approval tolling a 
bridge is fine. I think the key though is that we don't have a 
policy in this country of breaking the phase with the taxpayers 
who have built a Federal highway system and it has taken, what, 
60 years to do it. And then we stop the freeway and all of a 
sudden toll.
    It's just the wrong public policy. So I think you have said 
you agree with that. And I certainly agree with you on the 
distinction between closing a lane with tolls and adding 
another lane.
    Last question. Slot auctions. This Department of 
Transportation has gone out with requests for proposed 
rulemaking to auction slots that have been already paid for by 
different airlines, particularly in the New York area, 
LaGuardia and then reselling them without the consent of the 
airline that has already purchased them.
    What is your position on that? And are you looking at 
stopping those auctions or going forward with them? I'd like to 
have your input.
    Mr. LaHood. Senator, I think that, if the idea is to 
relieve congestion at a place like LaGuardia, and one way to do 
it is to eliminate slots, I think it kind of defeats the 
purpose then to go back and say that you're going to auction 
those off. Personally, again, I don't like that idea. I think 
it defeats what you're trying to do. If you're really trying to 
cut down congestion then eliminate the slots. But the idea of 
then going back and re-auctioning them doesn't make any sense 
to me.
    Senator Hutchison. Thank you. I agree with you. And I 
appreciate that answer. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison. Senator 
Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman. Again, 
Representative LaHood, soon to be, well I won't preempt the 
Committee, but so far you're doing pretty good.
    [Laughter.]
    Senator Lautenberg. Last year you voted as a House member 
for my $13 billion Amtrak bill which would greatly expand rail 
service throughout our country. Ray, can we count on you to 
fight to get us the full funding to meet this law, to meet the 
increased demand for rail travel that we're seeing?
    Mr. LaHood. Senator Lautenberg, as a 14 year member of the 
House, I've been a strong supporter of Amtrak. It's the life 
blood of so many communities around America. I will do all that 
I can to be helpful to you, and to the Congress to find the 
funding to implement what I think is a very good bill that we 
all voted for last year.
    Senator Lautenberg. I just wanted to remind you.
    [Laughter.]
    Senator Lautenberg. Anyway approximately $5 billion from 
the Federal New Starts program are expected to be needed for 
transit projects around the country in the coming year. But the 
FTA, Federal Transit Administration, only has less than $1 
billion as a ceiling to commit to these projects. As Secretary 
would you support increasing this authority so that these 
projects, including a new rail tunnel under the Hudson River--
and I want to point out to those who hear this that this is not 
a commuter tunnel. Commuters use it.
    This is a national priority. It attaches the financial 
center of the world with the rest of the country with ease and 
reliability. And we've got to make sure that we continue to 
expand that need.
    I remind everybody that on 9/11, when few things were 
operating to enable people to get from place to place, it was 
Amtrak that brought people up from Washington so that they 
could see what was happening and act accordingly. So as 
Secretary can we count on you to support increasing this 
authority so that these projects, including the new rail tunnel 
under the Hudson River can move without delay?
    It's going to provide immediately 6,000 jobs which is a 
mission that this wonderful President of ours has chosen to do 
and that is to build employment. So can we count on you?
    Mr. LaHood. You can count on me, Senator.
    Senator Lautenberg. The current FAA tried to redesign the 
air routes over our region, New York, New Jersey. These changes 
have created problems including some confusion between pilots 
and controllers and many instances of planes going the wrong 
way after takeoff. I'd like your commitment to look at this 
problem and try to halt the use of these new routes until the 
potentially dangerous situation is resolved.
    Mr. LaHood. Senator, you have my commitment to look at it 
and to instruct the FAA to do all they can to meet with you, 
your staff and other people in the region to try and figure out 
a solution to the problem.
    Senator Lautenberg. OK, safety you said was a principal 
factor.
    Mr. LaHood. Absolutely.
    Senator Lautenberg. In your view. Now I don't know whether 
this question was asked, Mr. Chairman, while I was out, but the 
air traffic controllers have been without a collective 
bargaining contract since 2005. We're going to count on you. 
Tell me if you will work with the air traffic controllers, 
other FAA unions, to get a collective bargaining agreement on 
pay and working conditions in place.
    Mr. LaHood. Senator, I think two of the most important 
things that the FAA Administrator needs to do is to resolve the 
dispute and get it off the table for President Obama and for 
all of us and get it behind us. I think it's very important. I 
think it's very doable. I really do, based on everything I've 
heard.
    Then of course, the second most important part of that job 
is to get to NextGen. We're going to be committed to getting an 
agreement that people feel they can live with.
    Senator Lautenberg. Well one of the things that I sense, 
and I hope that I'm correct in my analysis, is that you're 
going to be an active Secretary of Transportation.
    Mr. LaHood. Yes, sir.
    Senator Lautenberg. And that's what we want. We don't like 
spectators doing these jobs. We don't like second guessers 
doing these jobs. We like leadership.
    I commend you. And I look forward to your continuing to 
move through the process. Thanks, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lautenberg. 
Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman. When 
we met last week, Representative LaHood, we talked about our 
transportation needs. We talked about thinking outside the box 
when it came to financing and as Rahm Emanuel, I know you 
wanted me to quote him in your confirmation hearing here, has 
said, ``We shouldn't waste a good crisis.''
    Can you give me some out-of-the-box ideas or things that 
are on your mind, for instance for replenishing the Highway 
Trust Fund, how we're going to do that? That would be a start.
    Mr. LaHood. First of all, I think what Senator Warner said 
about public-private partnerships is thinking outside the box. 
Tolling of new highway lanes is a different way of thinking 
about it. I think of tolling bridges if people need a new 
bridge.
    We need to think about the kinds of opportunities that 
would help us pay for the infrastructure needs that we all know 
are very, very important. And we can perhaps use the Highway 
Trust Fund to maintain some of the highways that we've built. 
But if we're going to think innovatively in the 
reauthorization, then those are some of the ways that we need 
to think about these things, differently than just the gasoline 
tax.
    We know that Amtrak ridership is still way up even though 
gasoline prices have come down. We know, in places like 
Chicago, that people are still using a lot of mass transit even 
though gasoline prices have come down. And we know that people 
are still going to drive, but the resources to pay for it 
through the Highway Trust Fund is a dinosaur, if you'll excuse 
the expression.
    It was developed when Eisenhower and the Congress came up 
with the idea of developing an interstate system. We've come 
far afield of that now. And so I'm willing to listen to all 
these ideas.
    Senator Klobuchar. OK.
    Mr. LaHood. We need to really be creative about this, and I 
think we can be.
    Senator Klobuchar. Very good. Thank you.
    The bridge Bailey and I discussed. I don't need you to 
comment exactly on it, but the issue is that not enough money 
has been focused in the states on maintaining bridges because 
it's always fun to build new bridges and have a ribbon cutting 
and things like that. And both Congressman Oberstar and I have 
been concerned about the fact that not enough of the bridge 
repair, bridge maintenance money goes into bridge maintenance. 
Do you want to comment on that?
    Mr. LaHood. Well, you obviously pointed that out very well 
to me. I'm certainly willing to look at it and work with you to 
figure out ways to make sure that we maintain not only the 
bridges, but also the interstate system, which is a very 
comprehensive system; it is one of the best in the world, if 
not the best.
    Senator Klobuchar. Right. Another topic, a little 
different. I'm a strong proponent of high-speed Internet in the 
economic recovery package that we're considering right now and 
there are obvious issues of people in rural areas not having 
access. But I understand that laying fiber is an expensive 
undertaking.
    And so it seems to me when we embark on increased spending 
on highway projects, we would also be wise to consider ways to 
couple road construction and maintenance projects with the 
laying of fiber. In other words why dig up roads twice in this 
difficult economic time when you can kill two birds with one 
stone. Do you see any kind of potential for partnership in this 
area in the near term in the Economic Recovery package, but 
more likely with the Highway bill as we look at transit funding 
and how we can couple this with incentives to lay the fiber at 
the same time?
    Mr. LaHood. Again, as we consider reauthorization, we have 
to think outside the box and in ways that we haven't thought 
about these issues. I've been a strong supporter because I come 
from a state like Illinois, where it is very rural once you get 
south of Interstate 80. Broadband is very important.
    As we build roads into rural parts of states like Illinois, 
Minnesota, or Virginia, we need to figure out ways to make sure 
that people have access to the world. I think that's what we 
really ought to be thinking about in the reauthorization.
    Senator Klobuchar. Thank you very much.
    Mr. LaHood. Thank you.
    The Chairman. Thank you, Senator Klobuchar. Senator Snowe?
    Senator Snowe. Thank you. Returning to the question on the 
CAFE standards because that clearly is going to be one of the 
major issues that you'll be confronting. As you know that the 
previous Administration did not issue the ruling for the model 
year 2011. Have you had a chance to evaluate this issue?
    And I say this because I know that there will be concerns 
raised well you know this maybe not the appropriate time given 
where the state of the auto industry. But that's just precisely 
what got the auto industry in trouble. Financially were not 
prepared. You know, they weren't on the vanguard of change in 
innovation technologically to respond to the marketplace when, 
you know, prices of gasoline skyrocketed and didn't have the 
available models for hybrid technology to any great extent to 
fuel efficient vehicles.
    So we received cost-benefit ratios from the National 
Highway Transportation Safety Administration yesterday both the 
light truck and automobiles and clearly an indication that the 
benefits outweigh the cost through the model year 2015. And I 
certainly would like to share this information as something 
that you all be able to receive. But would like to get your 
input in terms of how you view this issue and how you're 
prepared to address it as the next Secretary of Transportation.
    Mr. LaHood. Senator Snowe, when I was in the House I 
probably voted maybe eight or ten times on amendments to raise 
the CAFE standards. I think it is one way for us to really 
overcome some of the pollution that exists around the country. 
However, what is more important than my own votes, is that 
President Obama, as you know, is very strong in this area and 
has spoken out on it on a number of occasions. They're not 
going to have to push me very hard from the White House to do 
this, but I assume that I'll be hearing from them very soon.
    We're going to meet the standard. And we should. It has to 
be a part of the overall plan here to eliminate pollution, the 
greening of America and get the American car manufacturers in 
the game here, with the reality that they need to be producing 
American cars and that get much better mileage.
    Senator Snowe. Well, I appreciate that because it is true. 
I mean when you weigh the benefits to the cost whether it's 
the, you know, climate change effect or reducing gasoline 
consumption or carbon dioxide emissions collectively truly do 
provide tremendous benefits and outweigh the cost. And I 
appreciate that because the schedule for issuing the deadlines 
has to be by April 1.
    Mr. LaHood. That's correct.
    Senator Snowe. As you well know and I just hope that that 
will be the case. Frankly continuing to defer doesn't help the 
industry. They need to have certainty in addition to the fact 
that we have to be on the cutting edge of change and be 
prepared for the future given the state of energy today.
    And putting themselves at risk, as we found when the 
consumers were not in a position to be able to purchase 
vehicles that were fuel efficient. And they weren't prepared to 
sell them. So it's in our national interest, frankly, the final 
analysis.
    And I think that these statistics certainly underscore the 
value of the CAFE standards and how we must meet to achieve 
them and meet the deadline that's created in the law.
    Mr. LaHood. Senator Snowe, I'm going to do everything I can 
to try and meet the deadline.
    Senator Snowe. I appreciate that very much. Incidentally on 
Essential Air Service again, it's a critical issue as I 
mentioned earlier. And I hope that you would take a look at 
this legislation that Senator Bingaman and I have introduced 
particularly providing some flexibility in the contracts 
between the Essential Air Service communities, the small 
communities and the airlines to extend those contracts from two 
to four years.
    Again I think it's much more cost efficient. It certainly 
is for the communities that have certainty and stability and to 
be able to negotiate cost-efficient contracts. And it's 
certainly something that is truly necessary if we're going to 
do anything to rebuild rural communities across this country.
    And frankly they've been shortchanged in the promises of 
deregulation in 1978. They were supposed to be part of a 
national plan, a national infrastructure system and they truly 
have been left behind. So I hope that you will evaluate that as 
well.
    Mr. LaHood. Senator Snowe, I know that Chairman Rockefeller 
is keenly interested in this. Again, during 14 years I served 
in the House, so many of my district's small communities were 
lacking in air service, and we worked very hard to get 
Essential Air Service in these communities.
    It's important. It can be an economic engine for these 
communities and it's an opportunity, really for people in these 
communities to have service. I will work very hard with you and 
others who want to make this happen.
    Senator Snowe. I appreciate that. Thank you very much. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe. Before I make--just 
make a suggestion. I'd just like to say that I think our 
posture as a committee should not be to figure out, ``gee we're 
not going to have the money to pay for this.''
    I think our, you know, because of whatever size the 
stimulus package or our national debt is going to be, I think 
our posture ought to be that we need to do everything that we 
need to do to fulfill the mandate of this committee and protect 
the safety and prosperity of the American people. And that's 
the way I intend to look at it so that it will land squarely on 
your shoulders should you be confirmed, all the hard decisions.
    Now having said that----
    [Laughter.]
    The Chairman. Having said that and before calling on 
Senator Warner and Senator Begich, it is the desire of the 
majority party to try and get all nominees approved this 
afternoon, if possible. And there is a way that we can do that 
and meet the four o'clock deadline.
    [Laughter.]
    The Chairman. And that is by asking, in that I sense 
nothing but approval and willingness to work with you from our 
point of view and from your point of view exactly the same view 
toward us. I would suggest--I would ask if the members of the 
Committee, voting members of the Committee, would give Kay 
Bailey Hutchison and I the right to simply inform the floor 
that if they want to run a UC on you at 1 minute of four and 
get you nominated by four o'clock, the Committee will not be 
unhappy. The Chairman will be happy.
    Senator Hutchison. Mr. Chairman, let me just say that I 
agree with that. I think 4:30 was the deadline.
    The Chairman. 4:30?
    [Laughter.]
    Senator Hutchison. So we'll----
    The Chairman. A little pressure----
    Senator Hutchison. You know, the realistic responsible 
Republican here.
    [Laughter.]
    Senator Hutchison. But seriously, I think this is a very 
good idea of yours. I appreciate your leadership. Because I 
think it is fair for all of us and right for all of us that Mr. 
LaHood become the Secretary and go over there and start doing 
so many of the things that we have just asked him to address. 
And so I would approve of that.
    We will also notify our side that it's going to happen. And 
if they want to object they will have the right to object. But 
I don't see anyone doing that.
    I think that you have done a very good job. And I look 
forward to working with you. And I hope we can do that this 
afternoon, by 4:30.
    The Chairman. And that means that a unanimous consent 
agreement will be run through the telephones on each side and 
if anybody objects then that ends that. And then we hope that 
nobody objects. And then that will end that. And we'll have a 
new Secretary of Transportation.
    So that will proceed. And then in order of membership on 
the Committee I need to call on Senator McCaskill. And just so 
that Senator Warner and Senator Begich don't feel mistreated, 
it's just a problem of one day.
    So Senator McCaskill, you have what you have to say and ask 
and then Senator Warner, then Senator Begich.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. I will be very brief, Mr. Chairman. 
Thank you. I know there was some discussion earlier, 
Representative LaHood, about earmarks. I tried to research 
earmarks in the Transportation budget. And found out that one 
of the reasons it has flourished is because it's so darn 
complicated.
    Most members probably don't even understand the difference 
between an ``above the line'' and a ``below the line.'' Many of 
them don't understand that--in fact when I talked to CRS about 
it trying to figure it out they told me to find an easier issue 
to work on. Clearly it is not a matter of bringing extra money 
into a state. Clearly there is some ``robbing Peter to pay 
Paul'' that goes on with the earmarking process.
    My state has an extensive planning process both through 
metropolitan planning organizations and through our state 
highway department. Lots of input, a regional approach, cost-
benefit analysis and their STIP program is well thought out and 
with all the kind of input that you would ever want for a 
public infrastructure project. When we are earmarking around 
here, many times we are just putting projects upon these state 
agencies that they, frankly, don't even want to do because they 
have other projects that have in fact had this kind of public 
transparency analysis.
    And in Fiscal Year 2008, for example $340 million of the 
$600 million that was going to be extra money that could have 
gone into core funding programs was skimmed off for earmarking. 
And one of the things that's most frustrating is even what you 
have above the line that may be extra money, that money doesn't 
go to the most valuable projects in terms of needs in our 
country. It goes to who's most senior. It goes to the member 
that is most politically vulnerable. It goes to people that 
serve on certain committees. It doesn't go based on some kind 
of analysis as to what is the best use of that money in a macro 
sense.
    I would like your answer today about what I just said and 
how you view your job as the Secretary of Transportation to 
have a more transparent and open process including local 
planning for the way we fund infrastructure in this country.
    Mr. LaHood. Well thank you, Senator. You know this because 
you, like all of us, have followed the campaign and followed 
the rhetoric. President Obama has made it very clear that, in 
the Stimulus bill, the lion's share, which will come through 
the Department of Transportation, will not be earmarked money.
    We're going to do everything we possibly can to make sure 
his mandate and his direction is carried out in our part of the 
stimulus. So we're going to work with the Governors. And we're 
going to tell the Governors that this money can come to your 
state, but it has to be for projects that have been planned, 
organized, and have met all of the requirements, because we 
want people working this summer, building roads, building 
bridges and doing infrastructure work.
    We're going to hold Governors accountable. And we're going 
to make sure that there are no earmarked dollars. That's the 
mandate that I believe we have from President Obama on this.
    Senator McCaskill. Well----
    Mr. LaHood. Now when it comes to reauthorization, we're 
going to have to work with all of you. I was on the 
Transportation and Infrastructure Committee for 6 years. I'm 
not going to describe in detail all the stories that went on 
over there about when a bill like ISTEA was marked up.
    The point is, it's up to the members to decide there aren't 
going to be earmarks. And it's up to the members to decide that 
this money is going to be spent in a certain way. And we'll 
help you with that. But when we get a mandate from the Congress 
that x amount of dollars has to be spent on x amount of 
project--or this project in a certain area, that's the law.
    President Obama wants to eliminate earmarks, particularly 
in the stimulus. I think that idea will carry over to the 
reauthorization of the surface transportation bill. And I----
    Senator McCaskill. I know that President Obama wants to 
eliminate earmarks. I want to make sure the Secretary of 
Transportation also wants to eliminate earmarks.
    Mr. LaHood. Let me just repeat what I said, Senator. I work 
for President Obama. I work for the American people. And I'm 
going to work in collaboration with the Congress. Nobody has 
more of a healthy respect for Congress than Ray LaHood.
    I was a member for 14 years. I served as a staffer for 17 
years. I have over 30 years working for Congress and I have a 
healthy regard for what all of you do. I know how it works. 
It's hard work.
    I'm going to work with you. And I'm going to work with the 
Chairman. I'm going to work with the Committee to fashion a 
bill that makes sense for America, that funds the 
infrastructure needs of America. And if it doesn't have one 
earmark, that's not going to cause me any heartburn.
    Senator McCaskill. Good. Good. I think you're a terrific 
choice. I think it's great that President Obama selected you 
because I spent a lot of time telling America that we were 
going to have a bipartisan Cabinet. And I'm glad we do.
    And I hope that you will forgive me that my first question 
felt confrontational, but it's something I feel very strongly 
about. And I look forward to working with you and the 
Administration in the weeks to come on eliminating this. Let 
the strongest be the most powerful when it comes to spending 
public money.
    Mr. LaHood. Well, thank you, Senator. I certainly wasn't 
offended by it at all. And I meant what I said. I have the 
highest regard for the Congress and what you all do, and I 
always will. You'll always be a priority, always.
    Senator McCaskill. Thank you.
    Mr. LaHood. Thank you.
    Senator McCaskill. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Senator Warner?
    Senator Warner. Thank you, Mr. Chairman. I want to go back 
to the three points that I'd raised earlier, Representative 
LaHood. And first of all let me acknowledge this first question 
is more--you haven't gotten there yet, you've got your arms 
around a very, very large department--but again, my prior 
experience as Governor and working somewhat over the last 
couple years on this issue, the complexity of the 11 agencies 
that fall within DOT. That structure seems to be pretty much 
set up in a 20th century structure.
    And as we move particularly toward this, in what I hope 
will be one of the directions of more looking at a project on a 
multi-modal basis, the funding streams and the revenue streams 
that come out of these specific agencies don't always 
intertwine. As you look in your term as Secretary will you look 
at the structure of the Department in terms of how we can 
advance these more 21st century goals like multi-modal?
    Mr. LaHood. Absolutely, Senator. I think what you're going 
to find is that I'm going to be a very hands on. And the 
Department will know I'm going to be very hands on.
    I'm going to get all these modal Administrators together 
and I'm going to explain to them very clearly that we have a 
mandate from President Obama to get things done. We want less 
bureaucracy and less red tape, and we want to put people to 
work. We want to make sure that we carry out the mandates of 
Congress on Amtrak and on FAA.
    I'm going to pull people together and I'm going to make 
them work hard. And we are going to work hard. And if it means 
eliminating something here or there, or combining a few things 
it'll be done.
    Senator Warner. Thank you. The second part kind of goes 
from the structure to the metrics and again I think Senator 
McCaskill, Senator Wicker was raising issues about 
accountability. I do think there's oftentimes a lack of 
knowledge at a lot of policymaker's levels on what the metrics 
of evaluation are going to be.
    Again I think back about the old VMT standards and others. 
You've talked about a livability standard. There's 
conversations about a mobility standard. My hope, and this 
would have to be done fairly quickly, but as you look at some 
of the projects that are going to come out of the President's 
Reinvestment Act, I would love that some of those projects on 
almost a beta test model might be evaluated on some of these 
new metrics. So that as you get to the Reauthorization bill 
later in the year, you had some new metrics out there that are 
going to take into accountability. They're going to take into 
account, livability, mobility, these, I think again, are more 
21st century ways we're going to measure our infrastructure 
investment.
    Mr. LaHood. You have my commitment to do that, Senator. I 
think it's very important. We need to really move into the 21st 
century on some of these things. And I think the 
Reauthorization bill is going to allow us to do some of these--
--
    Senator Warner.--Looks at a whole new way of looking at 
projects----
    Mr. LaHood. Absolutely. Absolutely.
    Senator Warner. I mean that we've got more agreement.
    Mr. LaHood. Get more value.
    Senator Warner.--Policymakers in terms of value.
    Mr. LaHood. Yes.
    Senator Warner. And you've raised the issue. And I 
appreciate your comments and Senator Hutchison's comments about 
the tolling. I do think public/private is going to have to be a 
piece of this.
    And I would add Senator Klobuchar's idea of laying dark 
fiber while you're putting in the roads is something we've 
tried in Virginia with some mixed success. But it makes an 
enormous amount of sense. And is one of those areas of public/
private.
    But my hope, as a state that's been kind of out there on 
the leading edge of public/private partnerships in 
transportation for more than a decade, that as we look at these 
initiatives on the public/private side, that we make sure that 
the private party has actually got capital at risk and stays in 
the game. And there have been too often proposals that came by 
my desk as Governor that had a private partner looking good at 
the first blush, but taking none of the risk and getting all 
the rewards in the back end.
    Mr. LaHood. Certainly.
    Senator Warner. As we look at public/private which often 
times involves tolling, making sure that they've got to stay in 
the game is very important.
    Mr. LaHood. I'd like to use your expertise on that and see 
if we can make it happen. And since you are a part of this 
committee, I think it will be a priority.
    Senator Warner. Thank you, sir.
    Mr. LaHood. Thank you.
    The Chairman. Thank you, Senator. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I have 
one, kind of parochial for Alaska and then I just have some 
general ones I added as a couple more questions. But you know 
the big project for Alaska and for this country, I believe and 
actually President Obama has put it on his top five list, of 
the green job creations in the future is the Alaska Natural Gas 
Pipeline which will be thousands of jobs, a lot of investment, 
but will benefit this country greatly.
    With that project there's about $2 billion worth of road 
projects--infrastructure that's necessary to construct that 
project and get material to the sites. Is that something that 
you'd be willing to work with the Alaska delegation to figure 
out how to solve that first piece so that we can then move to 
this larger $40 billion project?
    Roads and bridges are part of the equation. We can't get 
the project moving without those reconstructions or new 
constructions to move the equipment, move the construction 
material. Is that something that you'd be willing to work with 
us on to get this mega-project forward?
    Mr. LaHood. Yes, sir. I don't know if you are in a position 
now to say that it's ready to go and could be a part of the 
stimulus, but if it is----
    Senator Begich.--Bid-ready.
    Mr. LaHood. Well.
    Senator Begich. Then we'll talk.
    Mr. LaHood. Absolutely.
    Senator Begich. OK. I'll leave it at that. I'll take it 
because you're half way there so I don't want to blow it, so 
I'll take it.
    [Laughter.]
    Mr. LaHood. I guarantee you won't blow it, Senator.
    Senator Begich. OK, good. Well they are bid-ready.
    Mr. LaHood. Yes, good.
    Senator Begich. Good jobs. The other one, just to put it on 
the record for you. I'm probably not one of those big fans for 
tolling, but we can have that discussion. I think it hurts the 
working people the most when they go on toll roads.
    But I know that we have to be innovative in the future in 
how we deal with roads. And I would like, maybe in the 
Reauthorization--you know as we look at this Economic Recovery 
bill one of the big problems is going to be and I noted when 
you mentioned Governors, as a former mayor we love the state, 
but we love local governments. Because we can deliver projects 
faster, more efficient and we know exactly what project is 
going to be done as quickly as possible.
    My biggest concern with the Economic Recovery bill is just 
that. It's going so much to the state bureaucracy that the 
amount that they take on the DOT on the state level will knock 
15, 20 maybe as much as 30 percent out of project for just 
adding an overhead. And then it will trickle down to local 
governments who then have to deliver these projects. So I have 
some great concerns over that in the sense of how the Economic 
Recovery bill is moving forward.
    But in the longer term when the reauthorization of the 
Highway bill comes up, I honestly think the system is broken in 
the sense of deliverability of these projects. I'll just give 
you one. In Alaska it was a pretty significant project because 
we did it with our money, went through wetlands, did a lot of 
things that met all the environmental requirements. The 
environmental community was very satisfied with the end 
project. We shaved off a year and a half of that project, saved 
$2 million because of the difference in the regulatory process.
    And I would like to work with you and whoever to try to 
figure out how we solve this problem. Because if you talk to 
any mayor and I talked to 200 of them on Monday across this 
country, this is a significant problem in how to deliver money 
in regard to the highway funds. As we reform it, we have to 
reform the ability to deliver these projects in a timely 
manner. And the Federal system just doesn't do it.
    And that's just from 6 years of a mayor and meeting with 
200 mayors this week. It's a big message. And I hope you will 
look toward mayors also for your advice and get some good ideas 
about how to deliver those projects.
    Mr. LaHood. Can I just say something about local 
government?
    Senator Begich. Sure.
    Mr. LaHood. You may know this, but in Los Angeles County 
they just passed a referendum. The voters passed a referendum 
to provide an enormous amount of money for infrastructure in 
Los Angeles County. Now to me that's thinking outside the box. 
Obviously, the local government leaders have a lot of 
credibility with local tax-payers, and they're willing to raise 
their taxes because of the very point that you're making. The 
money never gets there because places like California and every 
state has huge financial problems.
    So the point is that--I know the Mayors and local elected 
officials. We've heard from them and we know they're not happy. 
But, as you know, President Obama wants to get this money out. 
There is a mechanism to do that. It goes back to what Senator 
Warner said we have to get the bureaucracy at DOT to make sure 
that people are held accountable, that the money is spent 
properly and it can get out the door and the people can be 
working this summer.
    And I know what you're saying though, Senator.
    Senator Begich.--Watching the clock tick here. But we're 
doing the largest in Anchorage, Alaska, the largest light 
conversion project for street lights in the country. It will 
save us about $1.6 million, a year in energy cost. The 
investment will be paid back in 5 to 7 years. And would you be 
willing to look at a national standard because the DOT's don't 
do that. And there's a huge consumption of energy with street 
lights throughout this country with Federal highway systems.
    Would you be willing to look at a national standard that we 
can consider implementing to create energy efficient lights on 
all the highway systems?
    Mr. LaHood. Yes, sir.
    Senator Begich. Great. That's all. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Begich. I'm going to close 
this now for two reasons. One, a vote started. The vote 
incidentally is on the nomination of Senator Clinton who 
evidently isn't going to get the same treatment that you are.
    [Laughter.]
    The Chairman. And I want to say in my first opportunity to 
chair at the Commerce Committee hearing, I could not be more 
proud to have done so with you as the witness. You have an 
ability to answer questions in such a straight ahead way. 
You've been through it already. You understand in a cooperative 
way because of the 30 years of experience with the legislature. 
And I expect probably because of your own good DNA and good 
humor and a lot of experience. I'm tremendously pleased about 
you having been our first nominee.
    Mr. LaHood. So am I, Senator. Thank you for the courtesies.
    [Laughter.]
    The Chairman. OK. And with good luck you're already in 
there.
    [Laughter.]
    Mr. LaHood. I like those words too, Mr. Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 4:16 p.m. the hearing was adjourned.]

                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Hon. Ray LaHood

    Question 1a. The Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users Act of 2005 (SAFETEA-LU) 
will expire in September 2009. I believe that it is time to rethink the 
purpose of our transportation programs and the proper Federal role in 
administering and managing the programs moving forward. This is going 
to be a major task that will require a strong leader, innovative 
thinking, and close coordination with Congress. What are your thoughts 
on developing a multimodal national transportation policy? Are you 
prepared for this large task? Should you be confirmed, when can we 
expect a surface transportation reauthorization proposal to be 
submitted by the Department to the Congress?
    Answer. As we approach reauthorization of the surface 
transportation programs in the ``Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users,'' we need to ``think 
outside the box,'' particularly as to future funding mechanisms. I 
agree that new emphasis on a multimodal transportation policy 
perspective is essential to renewing these programs and, if confirmed, 
would hope to bring strong leadership, innovative thinking, and close 
coordination with Congress to this undertaking. As I stated to Ranking 
Member Hutchison at the nomination hearing, I hope to develop a 
reauthorization proposal this year.

    Question 1b. Today's Federal transportation programs lack 
overarching goals or priorities and transportation funding is generally 
distributed to states regardless of transportation outcomes. Do you 
support moving to a more accountable, performance-based transportation 
system that emphasizes getting more out of our transportation 
investments? If so, what standards of performance would you support 
using? Similarly, other countries (e.g., Britain, Canada) make choices 
between different types of transportation investments based on the 
projects' estimated cost-benefit ratios, which include a wide spectrum 
of economic, social and environmental costs and benefits. Should we be 
doing something similar in the U.S.?
    Answer. A key challenge for those who craft the Nation's 
transportation programs will be to link decision-making to performance 
at all levels. This will require a new commitment to measure 
performance, as called for by the National Surface Transportation 
Policy and Revenue Commission's recent report. Performance measurement 
is key to ensuring that new funding is invested wisely and that the 
public has enough confidence in our work to support continued 
investment.

    Question 1c. The Federal Government currently spends more than 80 
percent of surface transportation dollars on roads and related 
infrastructure, with the balance going to public transportation, 
intercity rail, bike, and pedestrian infrastructure. Given the Obama 
Administration's concerns regarding energy supply and the rising demand 
for alternatives to driving, do you support reconsidering this 
distribution?
    Answer. I am committed to supporting sound investment in our 
transportation systems to maximize our resources, increase energy 
efficiency, and provide greater accessibility, including innovative 
approaches to achieve our goals. The balance of funding among the 
surface transportation modes will be fundamental to the best investment 
of our Federal transportation resources, going forward.

    Question 2. What role do you see the Department playing in 
developing mitigation and adaptation strategies for the Nation's 
transportation infrastructure to respond to climate change? How will 
the DOT work with other Federal agencies?
    Answer. We must acknowledge the new reality of climate change. This 
has implications in all areas. Sustainability must permeate all we do, 
from highways and transit to aviation and ports. President Obama is 
committed to this principle, and so am I. Making climate change a top 
priority as well as dealing with other environmental concerns will 
require a new level of attention to our transportation systems, as well 
as a new mindset for the Department. Increased energy efficiency in our 
vehicles and our passenger and freight transportation systems will 
significantly alleviate the problem of greenhouse gases. When I was in 
the House, I voted numerous times to raise the CAFE standards. I think 
this is an important way for us to reduce emissions and I will do 
everything I can to meet the deadlines.
    Among the key challenges for effective mitigation strategies is the 
development of close working relationships with other agencies whose 
goals and programs interact with those of the Department of 
Transportation--and this is something I will move quickly to accomplish 
if confirmed.

    Question 3a. Will you be a strong advocate for small community air 
service?
    Answer. I served for 14 years in the House of Representatives and 
represented many communities that were lacking air service. I 
understand the importance of air service to small communities.

    Question 3b. Do you believe any changes need to be made to the 
current Essential Air Service (EAS) program?

    Question 3c. What can be done to make certain sufficient funding is 
provided to EAS communities?

    Question 3d. What steps will you take to make certain small and 
isolated communities across the Nation have access to affordable air 
service?
    Answer. I believe that air service for small communities can help 
serve as an economic engine. Although the new Administration's policy 
on specifics of this nature is not yet established, if confirmed, I am 
committed to working with this Committee to ensure that small 
communities remain connected to the national air transportation system.

    Question 4. The National Weather Service (NWS) provides the Federal 
Aviation Administration (FAA) with weather forecasting services to make 
sure that air traffic across the Nation receives adequate support. I 
understand that the FAA has requested the NWS provide a proposal to 
consolidate its Center Weather Service Units from 21 to two. I am 
concerned that the potential consolidation initiative might not result 
in the best model to meet aviation forecasting needs. Do you think it 
would be appropriate for the NWS and the FAA to request a study on 
aviation forecasting needs and options for improving services prior to 
moving forward?
    Answer. Before offering an opinion on this matter, I would need to 
consult with the experts at the Federal Aviation Administration. That 
said, I understand the criticality of having weather forecasting 
services in place to support aviation needs.

    Question 5. Current Federal law generally prohibits the use of 
surface transportation funds within a port area. With aging port 
infrastructure and projected waterborne transportation growth over the 
next twenty years, do you believe a larger Federal role in the planning 
and development of port infrastructure is appropriate?
    Answer. The Department of Transportation is already leading port 
modernization and expansion projects in Alaska, Hawaii, and Guam. Some 
of the funding for these projects is through existing highway and 
transit mechanisms, but it is very limited. Other opportunities exist 
under the short sea transportation section of the 2007 Energy 
Independence and Security Act, which mandated a new Marine Highway 
Program. The program's objective is to shift freight and passengers 
from our congested highways and railroads to water every place it is 
practicable.

    Question 6a. Annual large truck crash deaths remain shockingly 
high, totaling around 5,000. What can the Congress do to make the most 
immediate improvements in truck safety?
    Answer. I am concerned about truck crash deaths. As I said in my 
opening statement, my first goal is safety on the roads, on the rails, 
in the air, and on the water. The Federal Government clearly plays an 
important role in preventing truck crash deaths. I believe the upcoming 
reauthorization of the surface transportation bill will provide an 
opportunity to ensure the Department has the authority it needs to 
conduct effective oversight of the motor carrier industry and the 
resources it needs to continue its successful partnerships with State 
law enforcement and motor vehicle administrators to implement 
commercial motor vehicle safety programs.

    Question 6b. What do you believe is the best way for the Federal 
Motor Carrier Safety Administration to improve its oversight and 
enforcement over the trucking industry?
    Answer. I believe the best way for the Federal Motor Carrier Safety 
Administration (FMCSA) to improve its oversight and enforcement of the 
trucking industry is to maintain and strengthen a rigorous enforcement 
program in conjunction with State partners. This includes targeting 
high risk carriers for compliance reviews, maintaining a strong 
roadside inspection program, working with States to ensure unsafe 
carriers receive vehicle registration sanctions, and targeting unsafe 
carriers through a more comprehensive safety measurement system and a 
performance-based safety fitness standard.

    Question 6c. Where do you see the role of new technology, such as 
electronic on board recorders, in improving motor carrier safety?
    Answer. I see a role for current and emerging technology in 
improving safety on our highways. Safety is the top priority at the 
Department of Transportation. Perhaps the most important influence on 
improving heavy truck and bus safety in the future rests with 
integrating smart technologies like on-board safety devices to improve 
driver performance. This is an area I want to thoroughly explore.

    Question 7. The DOT and its authority to regulate fuel economy is 
specifically crafted for the agency to maximize fuel economy while 
taking other very significant factors into account, including the 
safety of the passenger fleet and the financial stability of the 
automobile industry. This authority and expertise is vital in achieving 
our goals to decrease the greenhouse gas footprint of the 
transportation sector. How do you plan to use the DOT's leadership and 
authority in the CAFE program in working with the Environmental 
Protection Agency and its authority to regulate greenhouse gas 
emissions? What synergies do you see being developed between the 
agencies to improve your authority and the CAFE program?
    Answer. I believe a management emphasis of the new Administration 
is to stress inter-agency coordination, such as should be the case with 
Clean Air Act and automotive fuel-economy regulations, to a greater 
extent than has been the case in the past. President Obama is committed 
to ensuring that the Administration's transportation policy furthers 
his goal to reduce greenhouse gas emissions and promote livable 
communities, and so am I. If confirmed, I would expect to work closely 
with the Environmental Protection Agency to ensure that fuel economy is 
improved and carbon dioxide emissions are reduced in a responsible, 
consistent, and effective manner.

    Question 8a. Do you support the Jones Act?
    Answer. I support the Jones Act. Reserving domestic waterborne 
transportation to U.S.-flag, U.S.-built, and U.S.-citizen owned and 
U.S.-crewed vessels ensures the availability of U.S.-flag vessels in an 
emergency. The Jones Act fleet is an important link in the national 
transportation infrastructure, and its ships can carry an uninterrupted 
flow of vital commodities necessary to our troops while avoiding 
disruptions to our economy and industrial base.

    Question 8b. What steps do you believe the Department could take to 
assist in educating other Federal agencies about the importance of the 
Jones Act to our national security and to ensure the enforcement of the 
law?
    Answer. Congress amended the law in 2008 to require that the 
Maritime Administration (MARAD) be consulted about the availability of 
U.S.-flag vessels before any national security waiver of the law is 
granted. This new consultation role for MARAD will enable the agency to 
work more closely with other Federal agencies to ensure the law is 
enforced. By working more closely with MARAD, other Federal agencies 
will become better acquainted with the importance of the Jones Act 
fleet to our defense and economy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Daniel Inouye to 
                            Hon. Ray LaHood

    Question 1a. Several safety concerns have been raised regarding 
Hawaii's air transportation system. One issue is the aging 
infrastructure used for air traffic control. Both the facilities within 
which the air traffic controllers work and much of the equipment they 
depend on, such as radars, are decades old and are in need of 
replacement. Concerns have also been raised specifically about the 
airspace around Kona. Air traffic controllers have identified several 
incidents where operational errors have led to the near misses of 
aircraft, raising questions about how well the airspace is being 
managed. Finally, there have been several accidents involving air tour 
helicopters. The National Transportation Safety Board's (NTSB) 
investigations of these helicopter accidents have led to several 
recommendations, including better oversight of air tour operators and 
the installations of Automatic Dependent Surveillance-Broadcast (ADS-B) 
throughout the islands. National trends in runway incursions and 
operational errors suggest the FAA must take immediate action to reduce 
the possibility of a catastrophic accident. What steps do you believe 
the Administration should take in the next year to bring down the 
number of near-misses that the system is experiencing?
    Answer. I can assure you that transportation safety will remain the 
top priority for the Department if I am confirmed, and DOT will be 
focused on improving safety across the board. Before offering specific 
plans to improve aviation safety, I will consult with the experts at 
the Federal Aviation Administration, and get the benefit of the 
perspective of a new FAA Administrator.

    Question 1b. Although FAA has taken important steps to modernize 
the air traffic control system, there is no clear schedule for the 
implementation of NextGen, nor a good idea of when the system will 
start to see the benefits of key technologies, such as ADS-B. Given 
Hawaii's unique terrain and unpredictable weather patterns, air traffic 
control (ATC) modernization would be particularly beneficial for our 
state.
    Answer. NextGen will be a priority for the Department. The 
Department should be committed to NextGen implementation within 
realistic benchmarks, working closely with Congress and all the 
stakeholders to develop milestones for the delivery of key 
technologies.

    Question 1c. How soon do you expect that the FAA will be able to 
fully implement NextGen across the nation, and in Hawaii? What 
resources do you need to expedite the implementation of NextGen?
    Answer. NextGen is a priority for the Nation. I can assure you 
that, if confirmed, I will be personally focused on implementation--
working closely with the FAA to expeditiously develop timelines for 
full implementation and to determine the resources it needs to be 
successful.

    Question 2a. In the past year there have been a few incidents where 
commercial aircraft have made emergency landings because pilots 
suspected smoke in the cockpit. This has raised concerns about the 
adequacy of current safety measures in the event an aircraft's cockpit 
completely filled with smoke, obscuring the pilots' vision, and 
inhibiting their ability to fly the plane. What safety measures are 
currently in place to prevent an aircraft's cockpit from filling with 
smoke?
    Answer. I am told there are numerous systems and procedures in 
place to both prevent, and mitigate the effects of, smoke in the 
cockpit. Airplane design requirements enable the flight crew to use the 
ventilation system to evacuate smoke from the cockpit. The crew can 
also change the source of ventilation if the smoke is originating from 
outside the flight deck.

    Question 2b. Are there safety measures in place to help ensure 
pilots can continue to operate the aircraft if the cockpit fills with 
smoke?
    Answer. I am told that all cockpits have emergency equipment that 
includes oxygen masks for breathing, smoke goggles that allow pilots to 
see the instruments, and fire extinguishers Also, each crew has a 
specific checklist in case of smoke, fire, or fumes designed to 
maintain control of the aircraft while isolating and mitigating the 
source of the malfunction.

    Question 3a. Many reports show that within the next 20-30 years, 
the United States can expect huge increases in population, congestion, 
and global trade. Freight flows are expected to double within this same 
timeframe. Despite this, the Department of Transportation has failed to 
develop a comprehensive national strategy or policy for freight 
movement to prepare the transportation system to guide investments to 
meet these future demands. Nor has the Department proposed possible 
financing mechanism for needed freight infrastructure improvements. The 
Surface Transportation Policy and Revenue Study Commission recommended 
that both freight fees and public-private partnerships form the basis 
of a new Federal freight investment program. With freight flows 
expected to double over the next 20 to 30 years, I believe it would 
serve the Nation well to develop a national freight policy to guide 
investment in freight infrastructure to meet these increased demands. 
The Bush Administration made little progress in developing such a plan. 
What are your thoughts on the need for a national freight policy and 
investment strategy?
    Answer. I do believe we need a national freight policy that 
approaches freight transportation as a seamless system of goods and 
product movement from port of entry, whether that be a seaport, an 
energy platform in the Gulf of Mexico, or a factory or farm, to place 
of destination. Only by maximizing all of our transportation options 
and streamlining freight movement can we save commuters time, and the 
Nation energy.

    Question 3b. Do you support freight or user fees as a mechanism to 
finance freight-related improvements to port, rail, and highway 
infrastructure as well as intermodal facilities?
    Answer. As we approach reauthorization of the surface 
transportation programs, we need to ``think outside the box,'' 
particularly as to future funding mechanisms. We need to reexamine 
current fuel excise taxes, and we need to identify additional revenue 
resources for surface transportation programs, including mechanisms to 
finance freight-related improvements. As Secretary, I would explore 
innovative financing techniques. We need to be creative and, if 
confirmed, I would look forward to hearing from all affected parties.

    Question 4. In the Fiscal Year (FY) 2009 Department of Defense 
Authorization Act you included language to clarify that cargo 
preference laws apply to any person or organization receiving Federal 
funding, unless they are otherwise exempted. This clarification 
eliminates confusion over the application of cargo preference and will 
provide the Secretary of Transportation with the appropriate 
enforcement authority for administrative oversight of cargo preference 
laws. The Department of Transportation now needs an improved method to 
track Federal contracts that involve the waterborne transportation of 
cargo. Until such an information technology system is developed, 
enforcement will continue to be on an ad hoc basis. In last year's 
Department of Defense Authorization Act, we included a provision to 
enhance the Secretary's enforcement authority of our Nation's cargo 
preference laws. You now have the responsibility to execute these 
changes and administer the program. Do you believe it would be helpful 
to establish a better methodology to track Federal contracts that 
involve the waterborne transportation of cargo under Federal contract 
to assist you in effectively enforcing the law?
    Answer. An improved method to track Federal contracts that involve 
the waterborne transportation of cargo would no doubt benefit many 
aspects of government, including enforcing the cargo preference laws. 
The new law will enhance enforcement of cargo preference laws.

    Question 5. The Maritime Administration (MARAD) is the lead Federal 
agency responsible for assisting states and localities in addressing 
their port infrastructure modernization goals. The MARAD provides 
Federal oversight and coordination of projects, acts as a central 
procurement office to facilitate the leveraging Federal and non-Federal 
funding resources, and streamlines the environmental review and 
permitting process. Currently, the MARAD is managing port modernization 
programs in Alaska, Hawaii, and Guam.
    The Maritime Administration is assisting my home state of Hawaii 
with addressing port modernization planning, environmental assessments, 
and construction by acting as a coordinator between other Federal 
agencies. Similar projects are ongoing in Alaska and now Guam. We have 
been very pleased with this program thus far. What role do you believe 
the Department of Transportation should play to assist ports in 
addressing their complex demands in order to make the movement of goods 
more efficient, while also reducing congestion and pollution?
    Answer. I am pleased to know of your support for the Maritime 
Administration's work on port modernization. Other U.S. ports have 
requested similar support to that in Hawaii to help them meet capacity 
and infrastructure demands, several of which are ports that are 
designated as Strategic Ports that accommodate military cargoes in 
times of emergency. The agency's Gateway Offices, its day-to-day 
presence at the ports, can help bring agency and departmental expertise 
to the table for other local port projects.

    Question 6. According to press reports, Hawaii's per-capita 
fatality rate for 2006 due to alcohol-related vehicle crashes ranked 
among the top three in the United States. In the same vein, a December 
2008 news article reported that the number of Oahu drunken driving 
arrests through October of 2008 was on course to reach a nine-year 
high. The improvement of programs intended to reduce drunk driving and 
State highway grant reform are among the issues that will be 
incorporated into the next surface transportation reauthorization bill 
under the Committee's jurisdiction. The reduction of impaired driving 
is a primary mission to be undertaken in the next surface 
transportation reauthorization bill. What new strategies will you 
deploy to address the recidivist drunk driver?
    Answer. I agree with you that a focus on the recidivist drunk 
driver should be central to new strategies to deploy in the fight for 
reduced highway fatalities overall. While the new Administration's 
policy on specifics of this nature is not yet established, I would, if 
confirmed, be pleased to advise you of developments in this policy 
area.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                            Hon. Ray LaHood

    Question 1. Our congested roadways and skies continue to serve as a 
drain on our economy and are likely to only get more congested. The 
National Surface Transportation Policy and Revenue Study Commission 
laid out a bold new vision for transportation policy, and High-Speed 
Rail figured prominently in their recommendations. However our rail 
infrastructure remains dramatically inferior to most other developed 
countries, with only a few miles of true high-speed rail anywhere in 
the country. Do you believe high-speed rail can offer a fast, safe, and 
reliable means to travel between major city centers? Do you believe we 
need to rethink how we approach passenger rail in this country, and 
invest significantly in developing true world class high-speed rail? 
Would investment in high-speed rail help stimulate the economy and 
create jobs? Should investment in high-speed rail be part of an 
economic recovery package?
    Answer. At this time, the new Administration's policy on specifics 
of this nature is not yet established. However, the recently enacted 
Passenger Rail Investment and Improvement Act of 2008 authorizes a new 
high speed rail development program along with new authorizations for 
Amtrak's operating and capital needs and an intercity passenger rail 
service corridor capital assistance program. If I am confirmed I will 
work to effectively implement the new legislation.

    Question 2. The National Highway Traffic Safety Administration's 
(NHTSA) draft fuel economy rule under the Energy Independence and 
Security Act (EISA) of 2007 demonstrates that the agency continues to 
be mired in incremental changes to fuel economy using flawed gas and 
carbon prices and over-estimated technology costs. Congress explicitly 
provided that a 35-miler-per-gallon standard in 2020 was a floor not a 
ceiling. The Bush Administration has not finalized its proposed rule. 
How do you anticipate moving forward to create a more robust standard 
setting process that can achieve President Obama's critical oil savings 
and global warming goals?
    Answer. If confirmed, I will work to ensure that final CAFE 
standards are consistent with the best available information, including 
information on gas and carbon prices and on technology costs.

    Question 3. Last year President Bush authorized $17.5 million in 
loan guarantees to GM and Chrysler. While these loans required limits 
in executive compensation and the sale of corporate jets, they did not 
guarantee any oil savings or reduced global warming pollution. Will you 
work with the Treasury Secretary to ensure that any additional 
financial assistance to the auto industry is clearly tied to exceeding 
fuel economy standards?
    Answer. If confirmed, I would work with the Treasury Secretary and 
the other involved Administration officials in crafting any further 
financial assistance to serve the best interests of the Nation as a 
whole.

    Question 4. In the near future the Federal transportation program 
will be up for reauthorization. While the bulk of transportation bill 
spending has traditionally gone to new road and highway construction, 
the bill also funds our transit system and other forms of non-driving 
transportation. Will you work to ensure that a much larger share of 
resources are devoted to public transportation, walking, biking, and 
other forms of transportation that reduce greenhouse gas emissions and 
enhance communities?
    Answer. Our transportation system and the development it enables 
must be sustainable. We must acknowledge the new reality of climate 
change. This has implications in all areas. The intercity rail and mass 
transit funding in the Administration's economic recovery plan are part 
of the equation, but only a part. Sustainability must permeate all that 
we do, from highways and transit to aviation and ports. The 
Administration is also committed to focus on people and communities 
where they live and work. This implies a commitment to the principles 
that some refer to as livability--that is, investing in ways that 
respect the unique character of each community. The era of one-size-
fits-all transportation projects must give way to one where preserving 
and enhancing unique community characteristics are primary goals, 
rather than an afterthought. President Obama is committed to ensuring 
that the Administration's transportation policy furthers his goal to 
reduce greenhouse gas emissions and promote livable communities, and so 
am I.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Hon. Ray LaHood

    Question 1. I re-introduced my Passenger Bill of Rights legislation 
along with my colleague, Senator Snowe, to prevent airline passengers 
from being stranded on the tarmac for hours without food, water, 
adequate restroom facilities or medical attention. Will you commit to 
working with us to pass and implement our passenger bill of rights 
legislation this year?
    Answer. I recognize this as an important issue and am aware that 
the Department has proposed rules to ensure adequate food, water, and 
restroom facilities for passengers during lengthy tarmac delays. I 
understand that the House also may be introducing a bill on this issue 
as part of a broader FAA reauthorization package. If confirmed, I fully 
intend to work with both the Senate and House to ensure that 
appropriate passenger protections are in place. An aviation system that 
focuses not only on the safety and confidence of the traveling public, 
but also their comfort during lengthy tarmac delays, is a successful 
one.

    Question 2. Southern California TRACON continues to experience 
numerous air traffic controller retirements. Air traffic controllers at 
Southern California TRACON continue to tell me the facility is 
understaffed and undertrained. Would you elaborate on how you would 
resolve the current contract dispute between NATCA and FAA? Will you 
commit to reviewing the situation at Southern California Tracon and 
take appropriate action as warranted?
    Answer. I know the FAA is focused on hiring new controllers to 
replace the retiring workforce and, as I said earlier, I am committed 
to finding an Administrator who will come to the job and work with 
Congress and the controllers, and resolve contract disputes as quickly 
as possible.

    Question 3. Last September, 25 people died and many more were 
injured when a commuter rail train collided with a freight train in 
Chatsworth, California. Following the tragedy, I worked along with 
Senator Feinstein and my colleagues on the Senate Commerce committee to 
pass legislation requiring the use of Positive Train Control (PTC) on 
all track shared by commuter and freight rail. Freight rail has 
committed to implementing positive train control in the Los Angeles 
basin by 2012, however, the cost of implementing PTC for commuter rail 
remains high. Where do you rank the implementation of Positive Train 
Control on high density commuter/freight corridors as a priority for 
DOT? Will you commit to working with us to implement Positive Train 
Control in Southern California by 2012? What can Congress do to help 
assist with the quick installation of PTC?
    Answer. If I am confirmed, safety will continue to be the first 
priority of the Department, and I will make it a priority to carry out 
the Department's responsibilities under the recently enacted rail 
safety reauthorization legislation--the Rail Safety Improvement Act of 
2008, including the provisions related to the mandate that certain 
railroads implement PTC on certain lines by the end of 2015. My 
understanding is that the Federal Railroad Administration has already 
been in active conversation with the railroads operating in the region 
(Metrolink, Amtrak, Union Pacific, and BNSF), and all of those parties 
will be participating through FRA's Railroad Safety Advisory Committee 
to address PTC issues. If confirmed, I look forward to working with 
Congress to ensure that this and other safety issues are successfully 
addressed.

    Question 4. Efficient goods movement is an issue that challenges 
our ports and our communities. It is not uncommon for residents 
throughout California to sit at a railroad crossing for as long as 45 
minutes waiting for a single train to pass. Do you believe we need a 
national freight program? How do you see a freight program working 
within DOT's current transportation programs and policy?
    Answer. I do believe we need a national freight policy that 
approaches freight transportation as a seamless system of goods and 
product movement from port of entry, whether that be a seaport, an 
energy platform in the Gulf of Mexico, or a factory or farm, to place 
of destination. Only by maximizing all of our transportation options 
and streamlining freight movement can we save commuters time, and the 
Nation energy.

    Question 5. There is a great appetite for reform in MAP-21. 
Separate programs and institutional arrangements for highways, transit, 
and rail have stymied mobility and innovation in the past. Can you 
share your thoughts as to how to bring the strengths of these 
individual surface modes of transport together to serve our Nation's 
needs?
    Answer. I believe that we need a focus on at least four areas to 
implement President Obama's national priorities for transportation--
economic health, sustainability, safety, and meeting the needs of 
people and communities. Transportation is a critical part of the 
economy, and we must ensure that our transportation system supports 
efficient movement of people and goods. I agree that, as the 
Administration develops proposals for the next transportation 
authorization, we must consider ways to make transportation funding 
programs flexible enough to support the modal or intermodal solution 
that best meets transportation needs. Improving intermodal connections 
and reducing congestion will be an important part of that. Proposals 
for a new surface transportation authorization will need to continue 
programs that make progress toward a safer transportation system. Our 
transportation programs should support more environmentally 
sustainable, healthier communities through continued efforts to 
integrate transportation planning and environmental planning.

    Question 6. What priority would you give environmental issues when 
formulating our Nation's transportation agenda? What role do you see 
the environment playing in our Nation's long-term transportation 
policy?
    Answer. Our transportation system and the development and economic 
activity it enables must be sustainable. Sustainability must permeate 
all we do, from highways and transit to aviation and ports. President 
Obama is committed to this principle and so am I. The environment is an 
area where the Department contributes to national goals and where I see 
a unique set of challenges. Making climate change a top priority as 
well as dealing with other environmental concerns will require a new 
level of attention for our transportation systems as well as a new 
mindset for the Department. Increased energy efficiency in our vehicles 
and our passenger and freight transportation systems will significantly 
alleviate the problem of greenhouse gases. Among the key challenges 
here is the development of close working relationships with other 
Cabinet agencies whose goals and programs overlap with those of the 
Department of Transportation.

    Question 7. In Massachusetts v. EPA, the Supreme Court held that 
there was no conflict between EPA regulation of carbon dioxide 
emissions from automobiles under the Clean Air Act, and NHTSA 
regulation of vehicle fuel economy under EPCA. Relying on 
Massachusetts, two Federal district courts have since held that there 
is similarly no such conflict between NHTSA regulation of fuel economy 
under EPCA and California's regulation of CO<INF>2</INF> emissions from 
automobiles under its Clean Air Act authority.
    Nevertheless, NHTSA heretofore has taken the position in its 
proposed CAFE rulemaking that such a conflict exists, and thus the 
tailpipe emission standards adopted by California and 14 other states 
under the Clean Air Act are preempted by EPCA. Please confirm that 
during your review of the proposed CAFE rule you will reconsider, in 
light of the courts' decisions, NHTSA's position on this question, and 
abide by the decisions?
    Answer. I believe a management emphasis of the new Administration 
is to stress inter-agency coordination, such as should be the case with 
Clean Air Act and automotive fuel-economy regulations, to a greater 
extent than has been the case in the past. President Obama is committed 
to ensuring that the Administration's transportation policy furthers 
his goal to reduce greenhouse gas emissions and promote livable 
communities, and so am I. If confirmed, I would expect to work closely 
with the Environmental Protection Agency to ensure that fuel economy is 
improved and carbon dioxide emissions are reduced in a responsible, 
consistent, and effective manner.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Hon. Ray LaHood

    Question 1. Thank you, Mr. Chairman, and Congressman LaHood, 
welcome. I join my colleagues in applauding your distinguished record.
    As has been mentioned here today, there are a number of challenges 
facing us within the Department of Transportation's venue. I hope you 
will place strong emphasis on implementing CAFE standards and NextGen, 
on helping to develop a highway bill that fairly allocates funds, and 
on being creative in the ways we may strengthen our investments in 
public transit and rail systems. I would also look forward to working 
with you and other committee members on finding ways DOT can help to 
make electric vehicle technologies a nationwide reality.
    Thank you for visiting with us today, and for your willingness to 
address these priorities.
    My colleagues have already mentioned the importance of implementing 
CAFE standards, including the interim model year 2011 standards that 
the previous administration did not complete. As you know, NHTSA will 
use an estimate of gas prices to determine cost-effectiveness in the 
MY2011 standard, so that the potential expense of buying a more fuel-
efficient vehicle is balanced by the consumers' savings in gas.
    Last month the Energy Information Administration (EIA) revised its 
projections for what gas will cost through 2030, finding much higher 
prices than were previously predicted. If NHTSA used these new, more 
realistic estimates in its cost-effectiveness calculations, we will 
likely see higher--but still feasible--interim CAFE standards. Cong. 
LaHood, will you direct NHTSA to use EIA's latest gas price projections 
in its CAFE standard calculations?
    Answer. If confirmed, I will work to ensure that final CAFE 
standards are consistent with the best available information, including 
information on gas prices.

    Question 2. Electric vehicle (EV) technologies promise fuel economy 
gains, energy security benefits and carbon emissions reductions that 
far surpass those of even the most efficient internal combustion 
engines. We are in a race with many countries around the globe to 
develop not only electric vehicles themselves, but also the pioneering 
battery and component technologies that will make the transition to 
EV's a reality. By developing and manufacturing these technologies here 
in the U.S., we can maximize the economic benefit associated with 
transitioning away from our fossil fuel dependence--and create 
``green'' jobs. Cong. LaHood, under your leadership, what role would 
the Department of Transportation play in trying to help incentivize 
investment in transportation electrification infrastructure necessary 
to support the market for EVs? Will you work with Congress to ensure 
this is a priority in upcoming transportation legislation?
    Answer. I am committed to environmental gains and reduced carbon 
dioxide emissions, and alternative-fueled vehicles can play a major 
role in accomplishing these goals in the transportation sector. If 
confirmed, I plan to work closely with Congress, the Department of 
Energy, and other involved parties to ensure that our CAFE standards 
encourage and do not inhibit electric-vehicle developments.

    Question 3. I appreciate your indications that you will make 
implementing NextGen a top priority. Do we have your commitment that 
you will work with this committee to expeditiously develop a timeline 
for implementation?
    Answer. I agree that NextGen is absolutely critical and I am 
committed to working with this committee to develop implementation 
timelines.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Ray LaHood

    Question 1a. Congressman LaHood, one of your most immediate and 
most important decisions if you are confirmed as Transportation 
Secretary regards how the Department chooses to implement the landmark 
fuel economy increases enacted into law over a year ago. I am concerned 
that the draft CAFE rule used an inaccurate set of assumptions when 
coming up with their cost-benefit calculations, and therefore failed to 
meet the maximum feasible standard set in 2007 Energy Bill. Are you 
aware that the CAFE increase law that Congress enacted passed in 
December 2007 requires the Transportation Department to set CAFE levels 
at the ``maximum feasible'' level, not just 35 miles per gallon by 
2020?
    Answer. Yes. It is the case that the 35 mile-per-gallon figure is 
only a minimum statutory requirement.

    Question 1b. Please comment on whether you believe each of these 
assumptions in the draft CAFE rule are accurate and appropriate:

        (i) That the price of gas will be $2.26 a gallon in 2016;

        (ii) That hybrid cars will only be available in showrooms 
        starting in 2014;

        (iii) That there will be no commercially available plug in 
        electric vehicles before 2015 (despite automaker advertisements 
        and likely government purchase and production incentives); and

        (iv) That NHTSA's estimated value of $7 per ton of carbon 
        dioxide is likely to be found arbitrary and capricious based on 
        what peer-reviewed literature concludes will be the true costs 
        and benefits of reducing greenhouse gas emissions.

    Question 1c. In Congressional testimony last year, EIA 
Administrator Guy Caruso testified that NHTSA should use EIA's high gas 
price scenario in its CAFE rulemaking. Last July, I introduced a bill 
that would require the Transportation Department adopt the EIA's ``high 
gas price scenario'' which would provide a more realistic assumption of 
future gas prices. Do you believe using EIA's high gas price scenario 
will provide Americans with a better insurance policy against future 
oil price increases and provide a more realistic assumption of what 
future gas prices will be?

    Question 1d. Recent NHTSA analysis shows a 35 mpg CAFE standard in 
2015 is technically feasible, but it's only cost effective if gas 
prices range from $2.77 to $3.16 over the next decade. Will you take 
into account the new data in the Energy Information Administration's 
forecast report, Annual Energy Outlook 2009 Early Release, which 
forecasts that gasoline prices will rise each year after 2009, 
eventually reaching $3.90 per gallon in 2030?
    Answer. I am confident the new Administration will move quickly to 
address CAFE requirements. If confirmed, I will work to ensure final 
CAFE standards are consistent with the best available information, 
including information on gas prices, carbon emissions and new 
technology.

    Question 2. Congressman LaHood, on February 13, 2004, NHTSA issued 
a memorandum with the subject line ``Final Economic Assessment 
Alternative Fueled Vehicles Part 538'' (NHTSA-01-10774-37). On page 10 
of that memo, it says that the cost of making a vehicle duel fuel 
capable for E85 would ``increase consumer cost of a vehicle by $100 to 
$200 (in $2000).'' Is that estimate still accurate? How have changes 
that automakers made to fueling components to meet unrelated emission 
standards affected the marginal costs of making a car duel fuel 
capable. What is the marginal cost of making a vehicle M85 capable, in 
other words able to run on any blend of up to 85 percent methanol? What 
is the marginal cost of making a typical passenger vehicle or heavy 
duty-truck capable of running on any percentage blend of biodiesel?
    Answer. I do not have a basis at this time to address the specific 
``dual-fuel capability'' issues you raise, but I agree that the ability 
to make use of alternate fuels is a very central element of our 
Nation's ability to wean ourselves from over-reliance on foreign 
petroleum sources. If confirmed, I would be pleased to keep you advised 
of developments of the assumptions used in this area.

    Question 3. Congressman LaHood, will the new Administration support 
the current Federal laws on foreign ownership and control of a domestic 
air carrier? In those cases where the ownership structure of a domestic 
air carrier is the subject of dispute or challenge during the initial 
certification proceeding, do you agree that transparency in DOT's 
review of the carrier's ongoing compliance (post-certification) with 
U.S. foreign ownership and control laws is required in order to assure 
the public and Congress that the laws are being followed?
    Answer. If confirmed, I will work to ensure that current Federal 
law on air carrier ownership and control is carried out. The new 
Administration's policy on specifics in this area has not yet been 
established but, if confirmed, I would be pleased to keep you informed 
of relevant developments.

    Question 4a. Congressman LaHood, as you know the Next Generation 
Air Traffic Control System has not progressed as quickly as Congress 
would like. When we met, you told me that you are going to make this 
one of your priorities as Secretary. One of the goals of the Next 
Generation Air Traffic Control Joint Planning Development Office is to 
encourage coordination between the Departments of Transportation, 
Defense, Homeland Security, and other relevant agencies. The 
coordination has not been as unified as many of us as hoped. Getting 
these joint offices to function properly is a management challenge that 
sometime requires the Secretarial leadership to resolve thorny issues 
before they become intractable. Can we count on you to make sure that 
NextGen efforts are coordinated across the participating agencies and 
that you will get involved in moving NextGen efforts forward if things 
start getting bogged down?
    Answer. If confirmed, NextGen will be a priority for me and for the 
Department, and improved coordination among the participating Federal 
agencies a primary objective. Implementation must be accomplished 
within realistic benchmarks, and there must be a commitment from the 
Department, Congress, and all the stakeholders--including other Federal 
agencies--to ensure that it moves forward expeditiously.

    Question 4b. Given the cost, complexity, and importance of the 
program, I believe it is critical for you to be able track the real 
progress of NextGen to ensure that the program is meeting the 
objectives and meeting the needs of our country. As you know, often 
measures of progress are more focused on effort rather than outcomes. 
Will you agree to developing and publishing metrics that show NextGen's 
progress?
    Answer. I agree that meaningful metrics are absolutely critical 
and, if confirmed, I will ensure that we implement a transparent 
reporting process to track NextGen's progress.

    Question 5. Congressman LaHood, we must look for ways to reduce 
emissions within our air transportation system. Given that studies show 
there are inefficiencies equaling around twelve percent in the current 
system, will you commit to finding air traffic management solutions 
that increase efficiencies and reduce emissions?
    Answer. Absolutely. I understand a key priority of the NextGen Plan 
is reducing the air transportation system's environmental footprint. 
There are a comprehensive set of initiatives using new air traffic 
management capabilities, enhanced aircraft technology, and low-carbon 
fuel that if implemented fully will allow U.S. aviation to grow while 
reducing its emissions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Frank Lautenberg to 
                            Hon. Ray LaHood

    Question 1. As Secretary of Transportation under a new 
Administration, will you end Federal Highways Administration's practice 
of withholding highway funds to states that are attempting to address 
corruption scandals through pay-to-play reforms of the government 
contracting process, particularly in Illinois and New Jersey?
    Answer. I believe we must always adhere to the highest ethical 
standards in all our dealings. I have been told that the Federal 
Highway Administration's concern with certain State ethics reform 
legislation to address ``pay-to-play,'' including reform legislation in 
Illinois and New Jersey is based on interpretation of a provision in 
title 23 of the United States Code. I am further told that the title 23 
provision is intended to assure free and open competition for Federal-
aid contracts, and that it prohibits State and local governments from 
adopting requirements for contractors that do not relate directly to 
the contractors' abilities to perform work under Federal-aid contracts. 
Other Federal law, of course, does prohibit corrupt practices, 
including bribery for example, in connection with Federal-aid 
contracts. Nevertheless, I will look into this matter further, and I 
will take such steps as may be necessary to assure that U.S. DOT is not 
unnecessarily standing in the way of needed State ethics reform.

    Question 2. The newly hired air traffic controllers who are just 
beginning their careers at the Federal Aviation Administration (FAA) 
are the future of Aviation Safety. Will you see to it that they have 
the chance to train with experienced controllers by doing everything in 
your power to stem the flow of veteran controllers from the FAA work 
force, beginning by returning to the bargaining table to reach 
collective bargaining agreement with NATCA--one that can be ratified by 
the union?
    Answer. I am committed to finding an FAA Administrator who will 
come to the job and work with Congress and the controllers, and resolve 
issues as quickly as possible. Addressing labor-management issues at 
the FAA is a key priority of mine.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Hon. Ray LaHood

    Question 1. Our nation's transportation system is currently 
undergoing a major shift and will continue to do so throughout the 21st 
century. In cities across this country, people are being urged to 
utilize public transportation systems, and ridership of these systems 
is continuing to grow. However, in many communities across this nation, 
public transportation is still not available. How will you work to see 
that our transportation systems are modernized and the availability of 
these systems improve? For these areas where public transportation is 
logistically difficult, how will you work to see that their 
transportation needs are addressed?
    Answer. Too many of our Nation's railways, highways, bridges, 
airports, and neighborhood streets are slowly decaying due to lack of 
investment and strategic long-term planning. President Obama believes 
that America's long-term competitiveness depends on the stability of 
our critical infrastructure. The Administration will make strengthening 
our transportation systems a top priority. The Administration is also 
committed to focusing on people and communities where they live and 
work. This implies a commitment to the principles that some refer to as 
livability--that is, investing in ways that respect the unique 
character of each community. The era of one-size-fits-all 
transportation projects must give way to one where preserving and 
enhancing unique community characteristics are primary goals, rather 
than an afterthought. And I intend to make livable communities a big 
part of what we are going to do under reauthorization, should I be 
confirmed.

    Question 2. As a Representative of a rural district, you bring 
vital experience addressing the transportation needs of our rural 
residents. How are you going to use this experience toward addressing 
the extremely critical transportation needs of rural America?
    Answer. The Administration is committed to focusing on people and 
communities where they live and work, including rural communities. This 
implies a commitment to the principles that some refer to as 
livability--that is, investing in ways that respect the unique 
character of each community. The era of one-size-fits-all 
transportation projects must give way to one where preserving and 
enhancing unique community characteristics are primary goals, rather 
than an afterthought. And I intend to make livable communities a big 
part of what we are going to do under reauthorization, if confirmed. 
The Department is currently exploring options for reauthorization, and 
I am committed to working with Congress to enact surface transportation 
legislation that moves the country forward.

    Question 3. Given that the Highway Trust Fund has solvency issues, 
what measures will you this Administration take in order to assure that 
adequate funding is maintained in order for the Federal Government to 
meet the continued need for infrastructure improvements?
    Answer. As we approach reauthorization of the surface 
transportation programs, we need to ``think outside the box,'' 
particularly as to future funding mechanisms. We need to reexamine 
current fuel excise taxes, and we need to identify additional revenue 
resources for surface transportation programs. Innovative financing 
techniques need to be further explored. I would also look to the 
comprehensive analyses of the two major Commissions established by 
SAFETEA-LU as the new Administration shapes proposals for our 
transportation future.

    Question 4. Railroad safety issues continue to be a significant 
issue across the country, particularly highway grade crossings and 
shared use of track by freight and passenger rail systems. 
Unfortunately, Federal funding for safety measures has historically 
been grossly insufficient to meet these safety needs. What actions will 
you take to address rail safety?
    Answer. If I am confirmed, I will see to it that the Federal 
Railroad Administration continues to focus its inspection, enforcement, 
and research efforts where they are most likely to reduce the number 
and severity of railroad accidents. I will also make sure that FRA 
carries out the numerous new safety requirements recently mandated by 
the Rail Safety Improvement Act of 2008.

    Question 5. Ridership on commuter rail systems across the country 
has been continuously growing to meet passenger demand, particularly 
since the dramatic fluctuation of gasoline costs. What actions will you 
pursue to provide funding for commuter rail operations?
    Answer. I recognize that commuter rail operations across the 
country provide riders with an important transportation alternative. I 
am also aware that the Federal Government has often been an important 
source of funding for commuter rail operations. If confirmed, I look 
forward to working with Congress on this and other important 
transportation funding issues.

    Question 6. Within this country, transportation is one of the 
largest sources of greenhouse gas emissions. We know that any work on 
climate change policy must include input and action by the Department. 
How do you see the DOT working to address this issue? What do you see 
as the role that you and the DOT will play in climate change policy 
changes?
    Answer. Our transportation system and the development it enables 
must be sustainable. We must acknowledge the new reality of climate 
change. This has implications in all areas, including the Department's 
responsibility for setting automotive fuel-economy standards that also 
significantly reduce carbon dioxide emissions. The intercity rail and 
mass transit funding in the Administration's economic recovery plan are 
part of the equation, but only a part. Sustainability must permeate all 
that we do, from highways and transit to aviation and ports. The 
Administration is also committed to focusing on people and communities 
where they live and work. This implies a commitment to the principles 
that some refer to as livability--that is, investing in ways that 
respect the unique character of each community. The era of one-size-
fits-all transportation projects must give way to one where preserving 
and enhancing unique community characteristics are primary goals, 
rather than an afterthought. President Obama is committed to ensuring 
that the Administration's transportation policy furthers his goal to 
reduce greenhouse gas emissions and promote livable communities, and so 
am I.

    Question 7. You sponsored a bill in the 105th Congress regarding 
motor fuel taxes on tribal lands and the infrastructure needs of these 
communities. Specifically your bill prohibited the Secretary of 
Transportation from allocating funding for public lands highways on 
tribal lands unless that tribal entity has entered into an agreement 
with the state to provide procedures for the payment and collection of 
motor fuel taxes unless the allocation of funds is essential to the 
construction of a road that is a critical component of the National 
Highway System and is essential to interstate commerce. What is your 
position on improving the aging and insufficient roads on tribal lands? 
How will the Department work with these communities to see that their 
infrastructure needs are addressed? Do you still in believe that the 
Secretary should require tribal entities to enter into agreements with 
state governments?
    Answer. I believe improving roads, bridges, and other 
transportation infrastructure across the Nation will be a top priority 
for the new Administration, and that certainly encompasses roads on 
tribal lands. The Indian Reservation Roads (IRR) program is an 
important component of the Federal-aid highway program. If confirmed, I 
would expect to be working cooperatively with tribal governments, 
through the IRR program, to address infrastructure challenges on tribal 
lands.
    For most issues involved in fuel taxation agreements, win-win 
solutions are possible. Respect for tribal sovereignty and economic 
development on tribal lands is important, and not counter to State 
interests. Both States and tribes can benefit from a cooperative 
relationship, and I understand that a number of States and tribes have 
already entered into agreements for collection of fuel taxes to their 
mutual benefit.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                            Hon. Ray LaHood

    Question . Representative LaHood--The White House recently issued a 
new Arctic Policy that included a new emphasis on Arctic 
transportation, highlighting the Maritime Administration's 
responsibility to protect maritime commerce in the Arctic and the 
Arctic environment. As we see more and more summers of an ice-free 
Arctic, the need for new investments in Arctic navigation, safety and 
security measures, and new vessel standards will be needed. Other 
countries--Russia and Canada to be specific--are already far ahead of 
the United States in development and exploration of the Arctic region. 
In Alaska, many of our northern coastal communities are ill-prepared 
for either increased shipping or increased development in the region.
    Representative LaHood, do I have your commitment that your 
Department, especially the Maritime Administration, will make it a 
priority to ensure that Arctic shipping lanes off the Alaska coast are 
equipped with the highest level of navigation, emergency response, and 
security equipment and expertise so the we can move forward to develop 
our Arctic resources without jeopardizing the very fragile Arctic 
environment?
    Answer. The national priorities for maritime transportation in the 
Arctic region should address safe, secure, and reliable navigation, the 
protection of maritime commerce, and the protection of the environment. 
The Maritime Administration is currently overseeing a three-year, 
ongoing project called the Arctic Maritime Shipping Assessment. This 
project will address issues such as safe and secure maritime 
navigation, search and rescue issues, the protection of maritime 
commerce and environment, the development of the necessary 
infrastructure to support these initiatives, and the welfare and impact 
on existing communities in the Arctic area. If confirmed, I commit to 
working, in cooperation with the Secretary of Homeland Security (who 
oversees the U.S. Coast Guard) and other appropriate agencies, to 
ensure that any development of maritime trade and commerce utilizing 
the Arctic as a trade route will be implemented in a safe, secure and 
environmentally responsible manner.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                            Hon. Ray LaHood

    Question 1. Mr. LaHood, this Committee, and its members, have long 
enjoyed a close and productive working relationship with the Department 
of Transportation. We often rely on the technical and legal expertise 
of the Department's staff when we are developing or reviewing proposed 
legislation. Can members of this Committee count on this cooperative 
relationship continuing?
    Answer. If confirmed, I commit to continuing the close working 
relationship existing between the Department and Congress--and 
especially this committee. I would truly appreciate the opportunity to 
continue providing the committee with technical assistance and am 
certain that it will serve to enhance the objectives of both Congress 
and the Department.

    Question 2. Earlier this week, the Congressional Budget Office 
(CBO) gave a preliminary estimate of how quickly the funds in the House 
economic stimulus bill will be spent. According to CBO of the $43.1 
billion included for transportation programs, only $6.3 billion or 14.6 
percent will enter the economy by September 30, 2010. This hardly seems 
like it would have a major stimulative effect on the economy. What can 
you do to ensure the taxpayer that any funds Congress provides, first 
and foremost stimulates the economy and creates job, and two, does so 
in the most timely manner?
    Answer. If confirmed, I will ensure that the Department works with 
the States and other relevant potential grant recipients so that grant 
funds will be dedicated to projects that have been planned, organized 
and meet agency requirements before the funds are committed--in essence 
``shovel ready". This, we expect, will help put people to work as early 
as this summer working on roads, bridges, transit, airport projects, 
and other important infrastructure projects.

    Question 3. An early challenge you will face as Secretary will be 
easing the relationship between FAA Management and its unions. As you 
know, the new Administration has full discretion to renegotiate labor 
agreements, but I would hope you will consider the fiscal ramifications 
of reopening the current NATCA air traffic controller contract which 
could potentially cost the FAA $1.9 billion through the year 2011. 
During these difficult economic times I find it hard to justify such 
expenditures for a workforce that is already some of the highest paid 
in the Federal Government. In order to ease future management/labor 
tensions, will you work with the Committee to create a prospective 
labor contract impasse process that allows for fair and final closure 
of controversial contract issues?
    Answer. If confirmed, one of my top priorities is to find the most 
talented FAA Administrator that we can find, and recommend that person 
to President Obama, so he can recommend that person to the Senate for 
confirmation. I am committed to finding an Administrator who will work 
with Congress and the controllers to resolve issues as quickly as 
possible.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                            Hon. Ray LaHood

    Question 1. What do you foresee as the most immediate need at the 
Department of Transportation?
    Answer. While maintaining transportation safety as the Department's 
preeminent goal, the most immediate need will be to implement the 
Economic Recovery Act rapidly, as soon as it is enacted, and emphasize 
projects that are ready-to-go and will also contribute long-term to the 
economic vitality of this country. It is imperative that expenditures 
be closely tracked, to ensure that they are expended in accordance with 
the law and good policy, and to be able to measure their positive 
effect on economic recovery, as Congress intends.

    Question 2. What do you believe is the Federal Government's role in 
transportation policy?
    Answer. I believe that the major challenges facing the Department 
of Transportation relate to its support of key national objectives of 
safety and mobility. The Department's programs and activities must 
contribute to solutions in areas critical to the Nation's future. In 
the area of the economy, efficient and safe infrastructure is a 
fundamental requirement for recovery and growth. As a nation, we need 
to invest in our highways, bridges, ports, air and rail systems to 
strengthen user safety, bolster our long-term competitiveness and 
ensure that our economy achieves its growth potential. Through the 
Department of Transportation's programs, sound and well managed 
investments will move us in the right direction. Leadership in the 
Department of Transportation is needed to set the objectives in these 
areas, gain support for the resources needed and provide benchmarks to 
gauge progress.
    In the area of energy, the transportation system must play a 
central role in conservation and sound development of energy resources. 
The fuel economy of the Nation's automobile fleet must continue to 
improve, and I look forward to working within the Administration and 
with the auto industry to achieve this goal. Investing in advanced 
vehicle technology and development of supportive policies for 
alternative-energy vehicles, will also be an important contribution to 
the national goals. So will the Department's support of efficient 
transportation modes and effective public transportation in our cities. 
Making these initiatives happen is a key challenge, involving both 
resources and hands-on management and the revitalization of the 
Department's research and development skills.
    Environment is another area where the Department contributes to 
national goals and where I see a key set of challenges. Making global 
warming a top priority as well as dealing with other environmental 
concerns will require a new level of attention for our transportation 
systems as well as a new mindset for the Department's leadership. 
Increased energy efficiency in our vehicles and our passenger and 
freight transportation systems will significantly alleviate the problem 
of greenhouse gases. Among the key challenges here is the development 
of close working relationships with other Cabinet agencies whose goals 
and programs overlap with those of the Department of Transportation.

    Question 3. The highway system is at a crisis. GAO first predicted 
that the Highway Trust Fund was unsustainable at its current levels, 
and last Congress, taxpayers had to bailout the transportation sector. 
What do you propose for restricting the way highways are funded?
    Answer. As we approach the renewal of the surface transportation 
programs, we need to ``think outside the box,'' particularly as to 
future funding mechanisms. We need to reexamine current fuel excise 
taxes and evaluate new proposals and ideas. I would also look to the 
comprehensive analyses of the two major Policy Commissions established 
by SAFETEA-LU as the new Administration shapes proposals for our 
transportation future.

    Question 4. The last administration was progressive with looking 
for new ways and opportunities to give states the flexibility to fund 
infrastructure projects, will you office continue to push public 
private partnerships as a means to operate our highway system? Will 
your office continue to consult with cities and counties on their 
development of contracts with private companies?
    Answer. As I indicated above, we need to ``think outside the box,'' 
and the use of new financing tools is one of the ways to do this.

    Question 5. Will you recognize earmarks if they deviate from your 
agency's transportation policy? Congressman LaHood, I want to get your 
perspective on the practice of Congressional earmarking. Last February 
The State Journal-Register reported the following quote from you, ``'If 
people like Ray LaHood and others aren't able to earmark dollars, that 
money will be spent by some bureaucrat in Washington, D.C., and who 
knows better how to spend money on worthwhile projects than a community 
and an individual Congressman?' LaHood said. You seem to take a fairly 
dim view of the thousands of Federal ``bureaucrats'' you will be 
leading at the Department of Transportation.
    a. Do you regret these comments?
    b. Will the Department of Transportation budget be more effectively 
executed with or without earmarks?
    c. When earmarks aren't written into law--such as when they are in 
committee reports, letters or phoned in by members--will you use the 
merit review procedures at the Department of Transportation to fund 
projects or will you abide by the suggestions of influential Members of 
Congress?
    Answer. I need to be clear, first, that I would be honored to head 
the Department of Transportation and be able to work with the extremely 
high-quality workforce there. My view as a Member of Congress might 
better have been expressed simply that sometimes a ``one size fits 
all'' government policy is maintained despite the clear case for a 
particular project in a specific set of circumstances. The more 
important point, however, is that the President opposes earmarks and 
that, were I to join the Administration, I would have a clear policy to 
carry out as a part of the executive branch. I believe that the 
President's policy will govern the particulars of carrying out the law, 
and accompanying reports, and I would look forward to implementing his 
policy.

    Question 6. According to a U.S. Department of Transportation report 
in December 2004, Amtrak is by far the most heavily subsidized mode of 
travel in the U.S. Between its huge Federal subsidies and it minuscule 
share of the intercity passenger market (less than 1 percent). Amtrak 
has misused their Federal funds and has failed to organize to make 
itself self sustainable. How will your agency force Amtrak to organize 
to become self sustainable?
    Answer. As Secretary of Transportation, I would serve as a member 
of the Amtrak board of directors, and I would work to make the system 
as efficient as possible, recognizing that intercity passenger rail is 
often subsidized to some degree throughout the world because of its 
contributions to reduced congestion and urban air quality. I also note 
that several provisions of the just enacted ``Passenger Rail Investment 
and Improvement Act of 2008'' address use of Federal funds, including 
requirements for improved financial accounting, development of a five-
year financial plan, and development of methodologies for Amtrak route 
and service planning decisions and metrics, and standards for measuring 
the performance and service quality of intercity passenger train 
operations. If confirmed, I would make implementation of these 
financing reforms a priority.

    Question 7. A 2006 GAO report stated ``the existing intercity 
passenger rail system is in poor financial condition and the current 
structure does not effectively target Federal funds to where they 
provide the greatest public benefits, such as transportation congestion 
relief. Routes of 750 miles or more, while providing service for from 
rural areas and connections between regions, show limited public 
benefits for dollars expended. These routes account for 15 percent of 
riders but 80 percent of financial losses.'' How will you establish a 
system to eliminate some of Amtrak's least profitable lines? Will you 
entertain private company offers to purchase Amtrak routes and rail 
lines?
    Answer. At this time, the new Administration's policy on specifics 
of this nature is not yet established but, if confirmed, I would be 
pleased to advise you of developments in the area of the future of 
Amtrak's route structure. The recently enacted Passenger Rail 
Investment and Improvement Act of 2008 includes the development of a 
pilot program allowing rail carriers to seek to be considered as 
alternative passenger rail providers. If I am confirmed, I will work to 
effectively implement the new legislation.

    Question 8. How do you plan to pay for next-gen technology for the 
air traffic control system? Do you plan to impose a new flat fee on 
general aviation for costs associated with air traffic control 
services?
    Answer. As I expressed earlier about ``thinking outside the box'' 
with regard to the future financing of surface transportation programs, 
we need to approach the critical element of financing our aviation 
programs in the future with an open mind. That said, I would like to 
work with Congress throughout the FAA's reauthorization process to 
address these very issues.

    Question 9. Do you support the National Air Traffic Controllers 
attempt to negotiate their contract to pre-2006 level?
    Answer. I believe that the FAA will work best with a satisfied work 
force, one that wants to come to work each day, and I am a supporter of 
good-faith collective bargaining between employee groups and 
management.

    Question 10. How do you plan to recruit new air traffic 
controllers?
    Answer. This is a very important issue because of the critical 
nature of air traffic control functions to aviation safety. That said, 
I would need to consult with the experts at the Federal Aviation 
Administration, and get the benefit of the perspective of a new FAA 
Administrator, before offering specifics in this area.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Hon. Ray LaHood

    Question 1. Do you believe the current highway bill is an equitable 
formula that should serve as a fair model for the 2009 Highway Bill? 
Are there provisions you would change to the current bill?
    Answer. As we approach reauthorization of the surface 
transportation programs, we need to ``think outside the box,'' 
particularly as to future funding mechanisms. This includes investing 
in ways that respect the unique character of each community. The era of 
one-size-fits-all transportation projects must give way to one where 
preserving and enhancing unique community characteristics, be they 
rural or urban, is a primary goal, rather than an afterthought. And I 
intend to make livable communities a big part of what we are going to 
do under reauthorization. I am committed to working with Congress to 
enact surface transportation legislation that moves the country 
forward.

    Question 2. Essential Air Service plays an important role in South 
Dakota's economy. Do you foresee any recommendations from the Obama 
Administration that would change the Essential Air Service program or 
limit air service in rural areas such as South Dakota?
    Answer. I believe that air service plays an important role as an 
economic engine for communities to enhance their livability. I look 
forward to working with Congress to help make the EAS program as 
efficient as possible to ensure that eligible communities maintain a 
link to the national transportation system.

    Question 3. Throughout South Dakota, ethanol plants, grain 
elevators, power plants and a variety of other shippers are captive to 
only one railroad. In which case, their only hope for rate relief is 
through the Surface Transportation Board (STB). Do you believe the STB 
is in need of reform? If so, what types of reforms do you believe would 
provide captive shippers with much needed rate relief?
    Answer. At this time, the new Administration's policy on specifics 
of this nature is not yet established but, if confirmed, I would expect 
the Department to focus on this important aspect of freight 
transportation.

    Question 4. California Governor Arnold Schwarzenegger has asked 
President Barack Obama to waive or greatly streamline Federal 
requirements under the National Environmental Policy Act (NEPA) for 
several infrastructure projects in order to spur job growth and 
expedite construction of new roads, mass transit and energy systems in 
California. What is your opinion of the Governor's request? Will the 
Obama Administration consider the economic urgency of job creation by 
setting aside or streamlining NEPA review when moving forward on any 
infrastructure based stimulus proposal? Separate from any stimulus 
proposal, would you as Secretary consider the need to shorten the 
length of time it takes to complete environmental reviews of 
transportation projects a priority?
    Answer. Our immediate priority will be to implement the Economic 
Recovery Act rapidly, as soon as it is enacted, and emphasize projects 
that are ready-to-go and will also contribute to the long-term economic 
vitality of the Nation. I intend to develop close working relationships 
with other agencies whose programs interact with those of the 
Department of Transportation to streamline environmental reviews 
whenever possible, while protecting the environment.

    Question 5. SAFETEA-LU included several provisions aimed at 
shortening the amount of time it takes to complete environmental 
reviews of highway projects. Some of these provisions, however, seem to 
have issues with implementation that have resulted in little 
improvement in project delivery times. As Secretary, would you support 
efforts to improve these provisions? In particular, would you support 
efforts to allow States to assume the responsibilities of the Secretary 
of Transportation for environmental reviews? Would you support efforts 
to further rationalize the section 4(f) review process?
    Answer. I support increasing the efficiency of project reviews and 
will consider new approaches to improving delivery times while ensuring 
that important resources are protected.

    Question 6. Executive Order 13274 was intended to enhance 
environmental stewardship as well as streamline the environmental 
review and development of transportation projects. Among other things, 
the Secretary of Transportation is directed to designate, and amend as 
appropriate, a list of high-priority transportation projects to receive 
expedited agency reviews. What are your thoughts on the benefits or 
drawbacks of this Executive Order? Would you support continued 
implementation of it during the Obama Administration?
    Answer. I am committed to efficient transportation project delivery 
and, if confirmed, intend to develop close working relationships with 
other agencies whose responsibilities interact with the Department's, 
in order to streamline environmental reviews while ensuring that the 
Department fulfills its environmental stewardship responsibilities. 
Executive Order 13274 provides a framework for working with other 
agencies toward these goals.

    Question 7. In SAFETEA-LU, the Congress included some modifications 
to the program aimed at improving the effectiveness and the cost-
effectiveness of the Congestion Mitigation and Air Quality program 
(CMAQ). What are your thoughts on the CMAQ program? Do you have any 
ideas on how to improve it further?
    Answer. Environment is another area where the Department 
contributes to national goals and where I see a key set of challenges. 
Making global warming a top priority as well as dealing with other 
environmental concerns will require a new level of attention for our 
transportation systems as well as a new focus for the Department. 
Increased energy efficiency in our vehicles and our passenger and 
freight transportation systems will significantly alleviate the problem 
of greenhouse gases.

                                  <all>

</pre></body></html>
